<html>
<title> - REVIEW OF THE UNITED STATES' CLIMATE POLICY, THE $5 BILLION BUDGET REQUEST FOR CLIMATE-RELATED SCIENCE AND TECHNOLOGY IN FISCAL YEAR 2006</title>
<body><pre>[Senate Hearing 109-1094]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 109-1094

                  REVIEW OF THE UNITED STATES' CLIMATE
                 POLICY, THE $5 BILLION BUDGET REQUEST
                    FOR CLIMATE-RELATED SCIENCE AND
                     TECHNOLOGY IN FISCAL YEAR 2006

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GLOBAL CLIMATE CHANGE 
                              AND IMPACTS

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 20, 2005

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





                                  ______

                      U.S. GOVERNMENT PRINTING OFFICE
  62-359 PDF               WASHINGTON : 2010
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3651465976554345425e535a461855595b18">[email&#160;protected]</a>  







       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
                David Russell, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director
                                 ------                                

           SUBCOMMITTEE ON GLOBAL CLIMATE CHANGE AND IMPACTS

                   DAVID VITTER, Louisiana, Chairman
TED STEVENS, Alaska                  FRANK R. LAUTENBERG, New Jersey, 
JOHN McCAIN, Arizona                     Ranking
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts













                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 20, 2005....................................     1
Statement of Senator Lautenberg..................................     3
Statement of Senator Stevens.....................................    44
Statement of Senator Vitter......................................     1

                               Witnesses

Cicerone, Ralph J., Ph.D., President, National Academy of 
  Sciences.......................................................    28
    Prepared statement...........................................    30
Conover, David W., Principal Deputy Assistant Secretary, Office 
  of Policy and International Affairs; Director, U.S. Climate 
  Change Technology Program, Department of Energy................    14
    Prepared statement...........................................    16
Mahoney, Hon. James R., Ph.D., Assistant Secretary of Commerce 
  for Oceans and Atmosphere; Deputy Administrator, National 
  Oceanic and Atmospheric Administration (NOAA)..................     5
    Prepared statement...........................................     7
Reifsnyder, Daniel A., Director, Office of Global Change, Bureau 
  of Oceans and International Environmental and Scientific 
  Affairs, Department of State...................................    22
    Prepared statement...........................................    24

                                Appendix

Response to written question submitted by Hon. Daniel K. Inouye 
  to 
  Dr. James R. Mahoney...........................................    53
Response to written questions submitted by Hon. Frank R. 
  Lautenberg to:
    Dr. Ralph J. Cicerone........................................    66
    David W. Conover.............................................    68
    Hon. James R. Mahoney........................................    61
    Daniel A. Reifsnyder.........................................    67
Response to written questions submitted by Hon. John F. Kerry to:
    David W. Conover.............................................    69
    Hon. James R. Mahoney........................................    54
Response to written questions submitted by Hon. John McCain to 
  Hon. James R. Mahoney..........................................    62

 
  REVIEW OF THE UNITED STATES' CLIMATE POLICY, THE $5 BILLION BUDGET 
 REQUEST FOR CLIMATE-RELATED SCIENCE AND TECHNOLOGY IN FISCAL YEAR 2006

                              ----------                              


                        WEDNESDAY, JULY 20, 2005

                               U.S. Senate,
         Subcommittee on Global Climate Change and Impacts,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:30 a.m. in 
room SR-253, Russell Senate Office Building, Hon. David Vitter, 
Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. DAVID VITTER, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Vitter. Good morning, I'm very excited to hold this 
first hearing of the Subcommittee on Global Climate Change and 
Impacts. This hearing will focus on our national climate 
strategy with particular focus on two things: first, the 
Administration's Fiscal Year 2006 budget request for climate-
related science and technology programs; and second, how our 
climate policy may be effected by the recent G8 Summit in 
Scotland, and other international climate forums later this 
year. I'm really not sure whose idea it was to give a freshman 
a gavel, but I like the idea, it's the first time I've actually 
been able to sit up here, at least when other people were in 
the room.
    [Laughter.]
    Senator Vitter. So, it's great to be here to chair this. 
Seriously, though, it's a very important topic, and I expect 
the Subcommittee to spend a lot of time on this topic in 
Congress, this is only the first in a series of hearings that I 
plan to pursue on the issue. As you know, the Commerce 
Committee has very broad jurisdiction in regard to climate 
change, we intend to exert our full authority over that issue, 
the Science Program, the Technology Program, the agencies that 
will be responding to the changes caused by climatic 
variability; therefore, all of you should get comfortable here, 
because I know we're going to be delving into this issue very 
seriously.
    As the President recently confirmed at the G8 Summit in 
Scotland, the United States has spent over $20 billion in 
climate-related science and technology programs, clearly much 
more than any other nation. In addition to half a billion 
dollars in tax incentives, the President has also requested an 
additional $5 billion for these programs in Fiscal Year 2006 
alone. It's a tremendous amount of money, and I'm very 
interested to learn of our witnesses' plans for 2006, how this 
relates to our larger policies on climate change, and our role 
in the international community. My top priority here is 
ensuring that our taxpayers are getting their money's worth, 
there are a lot of things any of us could decide to do with $5 
billion, and I hope you are, and will continue to provide 
tangible results for our country and the world.
    In addition, the Senate recently passed comprehensive 
energy legislation which is now in conference. This is 
critical, and overdue, to our national energy policy and 
includes a number of the important policy changes that reflect 
the advances in our science and technological base, and I think 
it's a really good step forward for our country.
    Finally, many people have used some of the temperature 
trends and climate changes and their potential effects as 
something that our children and grandchildren will have to deal 
with, however, some of those changes we're experiencing, for 
instance, in Alaskan villages today, really cannot wait that 
long. I'm certain Chairman Stevens will pay particular 
attention to this as the Committee conducts its work this 
Congress, and if I know what's good for me, this Subcommittee 
will have particular focus on that, probably with field 
hearings on that as well. That is one of the very specific and 
concrete, and important, impacts that the name of this 
Subcommittee directly refers to, because it is about climate 
change and impacts.
    Being from Louisiana, I would be remiss if I didn't mention 
another very important, specific impact that we will also touch 
on this Congress, and that is coastal erosion in Louisiana. In 
Louisiana we lose up to 35 square miles a year due to coastal 
erosion, that is a football field of land every 38 minutes. 
Recent reports by NOAA and USGS show that these same areas are 
also sinking through subsidence faster than anywhere else in 
the world. Some areas of coastal Louisiana have dropped over 20 
inches in the past decade, almost two feet, and so we're 
experiencing the practical effects of sea level rise in 
Louisiana, and we're going to need to address these problems as 
well.
    Before we move on to the Ranking Member's statement, I 
would like to quickly acknowledge that Dr. Mahoney announced 
his retirement yesterday. Dr. Mahoney is the Assistant 
Secretary of Commerce, and Director of our Climate Science 
Program. Doctor, I know you're not leaving right away, but I 
want to thank you for your service, standing up for a science 
program involving 13 different agencies is an extraordinary 
task, and I know you and your family have been through a lot 
lately, so thank you for all of that service. We certainly wish 
you and your family the best in all of your future endeavors.
    Dr. Mahoney. Thank you, Mr. Chairman.
    Senator Vitter. Absolutely, and with that, let me turn it 
over to Senator Lautenberg, the Ranking Member.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thanks Mr. Chairman, this is a kind of 
a new experience for each of us, neither one of us are new to 
the Congress, but this is a Committee just identified in this 
last year, and so we have an important task. I look forward to 
working with Senator Vitter, and I hope that we will get 
ourselves going in a way that identifies the seriousness of 
some of the problems that we have seen, and that Dr. Mahoney--
we're sorry to see you leaving--but we look forward to hearing 
anything that you've got to say, even after you've left.
    So, Mr. Chairman, thanks for convening the hearing, I look 
forward to working with you on this issue. Climate change, or 
global warming, is one of the most daunting challenges 
affecting our future, and I'm concerned that we're not treating 
it with the urgency that it deserves. Now, if one found out 
that their house was on fire, they would immediately call the 
fire department. They wouldn't wait until all the neighbors 
agreed about how long the fire had been burning, or about how 
much damage it would do. You would, immediately, when you see 
it and feel it, you would call the firemen to put it out. Well, 
that's my feeling about global warming, we know that the Earth 
is getting hotter, the four warmest years ever recorded were in 
1998, 2002, 2003, and 2004, and judging by recent temperature 
levels around here, it looks like we're headed for an 
unenviable new record. The 10 hottest years we've experienced 
have all occurred since 1987, that grouping tells you 
something. The last 55 years, the volume of ice in the Arctic 
Ocean has been reduced by 45 percent, and the Chairman 
mentioned what kind of loss they've had of land in the area 
around Louisiana.
    As this ice has melted, sea levels have risen around the 
world, and in New Jersey, the sea rose about 17 inches in the 
last century. Now, we also know that burning fossil fuel 
produces carbon dioxide and methane, and they are the two most 
important gases that intensify the Earth's natural greenhouse 
effect, and these are the facts: the National Academy of 
Sciences recently released a joint statement with the Science 
Academies of ten other nations. They declared that scientific 
evidence of global warming is solid enough to warrant mandatory 
reduction of greenhouse gases. It's the strongest statement yet 
from the National Academy of Sciences, and it represents the 
overwhelming consensus of the world scientific community. It's 
time for action. The United States must provide the leadership. 
We have the leadership position that dominates so much of the 
world, and we have a responsibility to accept that leadership 
and put it into place. With only 4 percent of the world's 
population, we produce 25 percent of all greenhouse gases, and 
if we fail to act, how can we expect other countries to pick up 
their share of the burden? Most of us realize the seriousness 
of the issue, and that is why we're spending $5 billion a year 
on climate science and climate technologies. Our Subcommittee 
is responsible for seeing that these studies are delivered in a 
timely manner and that they are free of political spin.
    Now, unfortunately, we've seen both, spinning and delays. 
We had a White House official, Mr. Cooney by name, a man with 
no scientific background, editing reports on global warming, 
and now he's gone back to work for the oil industry where he 
was before. A national climate assessment from the 
Administration was due to Congress a year ago, but we still 
haven't seen it, and there is evidently no plan to produce it. 
And to those who say there's nothing we can do about global 
warming, I would point to my home state, New Jersey, has an 
aggressive program for reducing greenhouse gases, major state 
utilities have established data registries to track emissions, 
and to those who say, ``It costs too much,'' I ask, what is the 
cost of doing nothing? What would be the economic impact if the 
State of Florida is under water, or if the sea rises another 
two feet along New Jersey's 125 miles of shore, as it is 
projected to do by the end of this century if we fail to take 
action. Left unchecked, global warming will ravage our 
environment and our economy, and it is not the legacy that I as 
a grandfather want to leave for my 10 grandchildren. They are 
my most precious assets, and I think I owe it to them to at 
least give them a chance to breathe clean air, to be able to 
drink water that's not contaminated, and to live in a world in 
which we don't have natural changes that bring us nothing but 
problems.
    There's one more indisputable fact about global warming, 
that we can't do anything in the short-term to reverse it. So, 
it means long-term planning, long-term investment. Carbon 
dioxide is a long-lived gas, and once it's released into our 
atmosphere, it pretty much stays there. We can't reverse global 
warming, we can only slow it down by reducing greenhouse gas 
emissions. Every day that we fail to act is lost forever.
    Now, I took the time a couple of years ago to go down to 
Antarctica to visit the South Pole, and to see what the 
National Science Foundation was doing there, and you could 
almost hear the pain that the ice structure was feeling. The 
groaning at night, and no nights at that time, barely any that 
were going through the reaction. And then to see these huge 
chunks of ice floating off into the ocean, and where we had 70 
percent of the world's fresh water stored in that ice, that's 
rapidly disappearing.
    And in Australia, kids have to wear full bathing suits 
before they're allowed to go out on the beach because of the 
threat of skin cancer, because of the global warming and the 
hole in the ozone layers, so Mr. Chairman, we've got a lot to 
do, and I thank you for giving us the opportunity to begin our 
work on such an important issue.
    Senator Vitter. Thank you, Senator, and now we'll move to 
our distinguished panel.
    We have the Honorable James Richard Mahoney, Assistant 
Secretary for Oceans and Atmosphere, and also Director of the 
Climate Science Program in the U.S. Department of Commerce; Dr. 
David Conover, Principal Deputy Assistant Secretary, Office of 
Policy and International Affairs; Director, U.S. Climate Change 
Technology Program, in the U.S. Department of Energy; Mr. 
Daniel Reifsnyder, Director of the Office of Global Change in 
the U.S. Department of State; and, Dr. Ralph J. Cicerone, 
President of the National Academy of Sciences. Thank you all 
for being here today and participating in our hearing, and we 
will start with Dr. Mahoney.

           STATEMENT OF HON. JAMES R. MAHONEY, Ph.D.,

           ASSISTANT SECRETARY OF COMMERCE FOR OCEANS

         AND ATMOSPHERE; DEPUTY ADMINISTRATOR, NATIONAL

         OCEANIC AND ATMOSPHERIC ADMINISTRATION (NOAA)

    Dr. Mahoney. Thank you, Mr. Chairman, and thank you to 
Senator Lautenberg, also. I'm pleased to be here today, since 
you graciously mentioned my health challenges and my just-
announced plan to retire, I want to note for the record, as I 
begin my statement, that I am doing that on the basis that I 
will stay in my post through the time when my successor is 
confirmed and ready to begin, so I understand--and my 
supervisors do, too--that that may be months, it may be the end 
of the year, or beyond. So, I wanted to be clear for the record 
that I don't view today to be a statement, and then I'm 
leaving, unfortunately because I had been very much looking 
forward to working through this term of the President, it is 
the responsible thing for me to step down because of the health 
challenges I've had, but I don't intend to be off-the-scene 
right away. And I look forward to dialoguing with you, and 
responding to some of the very serious questions and 
challenges, including some that have been brought to our 
attention quite recently, so I would just note that for the 
record in the beginning.
    I'll get along with my statement, I'm obviously very 
pleased to appear here today, and I want to start by noting 
that President Bush certainly recognizes climate change to be a 
very important issue for us to address, and in fact, the same 
metric that you cited--while there are many others--the fact 
that the President has, among other things, requested a budget 
this year, as in prior years, of more than $5 billion, 
represents his commitment to understanding the depth of the 
problem, and taking action, so I want to note that at the 
beginning of my statement.
    I also want to note the statement that he made at the 
event, the evening before the G8 session began recently. He 
said, specifically, ``We note that the surface of the earth is 
warmer and that an increase in greenhouse gases caused by 
humans is contributing to the problem.'' And I note, of course, 
that the research that we're doing, and the technology 
development we're doing is aimed at directly addressing those 
matters.
    So, I want to begin with that, and then I'll move along 
with the rest of my statement here. In mid-2001, and then again 
in February of 2002, the President set out a new program for 
strengthening the approach to the research and technology 
development that this government is following, and he created 
both the U.S. Climate Change Science Program, and the related 
Climate Change Technology Program, both building on the work 
that had been done over the decade before, at that time. He 
furthered these commitments with the many discussions he had at 
the G8 meeting, and we've seen the outcome of that just 
recently.
    The Climate Change Science Program, as the Chairman 
indicated, integrates the work of 13 Federal agencies, 
addressing the climate change issue. I will focus on that, my 
colleague, of course, David Conover will address the technology 
side directly, although I think we're most ready to answer 
collaborative questions as they may arise.
    While I note the budget number is approximately $2 billion, 
with one more digit accuracy, the request this year for the 13 
agencies combined is about $1.8, or even more accurately, $1.83 
billion. So, for those to whom another $170 million is a 
difference, it is not quite two billion, it's a little bit 
less, but it's in the range of the request in recent years.
    Briefly describing, giving the initiative that this 
subcommittee is now taking, what we have done with the Program, 
we began with the President's initiatives, and actually, they 
were pretty much co-terminous with my swearing into my post in 
early 2002, as well. We began with an inventory of the research 
programs that the Federal agencies were conducting at that 
time, to set out to refresh, and re-prioritize, and re-budget, 
that kind of inventory of programs has been continued annually, 
since then and in the process of trying to increase the 
prioritization, and make sure that we don't get in the pattern 
of ``same old, same old'' where we repeat the work from the 
year before and we have set a mark specifically. While much 
work needs to continue because it relates to long-term trends 
and analyses, but we have set a mark in our prioritization and 
budgeting, aimed specifically at assuring that even at a level 
budget environment that we are, in fact, pursuing initiatives, 
which means, automatically, that we're also letting fall off 
the bottom of that distribution some things in order to keep 
our budgets level in that period.
    I want to note in background that just 2 years ago this 
month, almost this day, 3 days from now, we released a massive 
strategic plan for our climate science program work that had 
been developed over the better part of the year before with 
massive public input, massive input by the science community. 
We had a workshop which was attended by about 1,300 climate 
scientists from around the world to discuss and debate the 
draft of that plan. We engaged the National Academy of 
Sciences, from whose President you will hear shortly here, to 
review not only our draft, but we specifically engaged them to 
review the draft and make comments, and stay on board to review 
the final version that resulted from all of the earlier 
comments, their own included. I note for the record, it's in my 
statement, to say briefly, the Academy heavily praised the plan 
for balance, I also note that they raised many cautions, and 
they raised many issues that needed special attention. But if I 
could quote just one sentence from their report, it was that 
``the revised strategic plan, having in mind the changes that 
have been made, is much improved over the first draft, and now 
includes the elements of management framework that can permit 
it to effectively guide research on climate and associated 
global change over the next decades.''
    I'll quickly go on to note, we produce an annual report on 
Our Changing Planet, and I want to say in the work we're trying 
to do to develop our scientific information in a form to 
deliver for the decision process, we have taken a three-step 
framework.
    The first step is to develop very detailed synthesis and 
assessment products aimed at getting us the best current view 
on the state-of-science, and the state-of-relevant-science in 
the areas we're concerned with. This is especially important 
because there's so much that adds in quickly in our science, 
that if we don't really challenge ourselves and get the best 
approach with good peer review on this, we're really stuck. So, 
we're doing that, we're working on adaptive management for 
planning for climate change, this means addressing questions of 
drought, fire suppression, agriculture, coastal development and 
so forth, and that's all a big part of this, and at the end of 
the day, we're dealing with the questions of the use of our 
rapidly expanding climate modeling capability to address the 
policy questions about what is the U.S. role, and what are the 
world roles in dealing with the climate change.
    Let me just note for the record, too, that when we look at 
our science advancement, we tend to look in three areas. First, 
detection--how well do we know what is really changing in the 
climate, since the climate record is, in any case, a noisy 
record, and the key issue is how well can we segregate real 
change from the normal variability.
    Second, attribution--how well can we segregate between 
natural variability and human influences, because that is core 
to the issue of our ability to make plans to mitigate those 
human influences over time.
    Third is projection--if we have all of that, how good are 
our models and how well can we project going forward, so let me 
just mention that. I know my time is about up, I want to just 
mention a couple of last things. I have in my statement 
extensive information about the NOAA climate program. Within 
the overall Administration program, NOAA is a mission agency 
which, at its core, is responsible, we are responsible for 
developing scientific data and using it for weather 
forecasting, fisheries management, many other purposes, and you 
will see extensive information about that in my statement, 
including dealing with El Nino conditions, western drought 
conditions, working closely with the Western Governors 
Association, and many other things, including some important 
international efforts which, for reasons of time I won't 
mention further.
    I'll close with just a note on our budget request, and I'll 
be delighted to talk about this more in response to questions 
as may be appropriate. First of all, speaking about NOAA, we 
request right around $240 million as our part of the climate 
program, and for NOAA's specific activities in Fiscal Year 2006 
request, I'll mention for the CCSP Program, remember, I already 
mentioned $1.83 billion, and there are some important 
segregations between long-term satellite-based observations and 
other science work and that, if it's appropriate, we can get to 
in the questions with all of that.
    Thank you for allowing me to give you this overview, and 
I'm delighted to work with you and your colleagues, thank you.
    [The prepared statement of Dr. Mahoney follows:]

Prepared Statement of Hon. James R. Mahoney, Ph.D., Assistant Secretary 
 of Commerce for Oceans and Atmosphere; Deputy Administrator, National 
             Oceanic and Atmospheric Administration (NOAA)
    Good morning, Senator Vitter, Senator Lautenberg, and members of 
the Subcommittee. I am James R. Mahoney, Assistant Secretary of 
Commerce and Deputy Administrator of the National Oceanic and 
Atmospheric Administration (NOAA). I am also appearing today in my 
capacity as Director of the Federal interagency Climate Change Science 
Program (CCSP). I am very pleased to have this opportunity to describe 
the progress of the Administration's climate science program as well as 
the NOAA Climate Program and its contribution to CCSP.
U.S. Climate Change Science Program
    President George W. Bush recognizes climate change to be an 
important issue for the United States to address. On May 11, 2001, the 
Administration commissioned the National Academies \1\--National 
Research Council (NRC) to examine the state of our knowledge and 
understanding of climate change science. Based on the resulting NRC 
report, and the Administration's ongoing climate science planning 
activity, President Bush created a new cabinet-level management 
committee (the Committee on Climate Change Science and Technology 
Integration) in February 2002, to supervise the approximately $5 
billion annual investment in climate change science and technology. The 
President's direction resulted in the creation of the U.S. Climate 
Change Science Program (CCSP), combining the existing U.S. Global 
Change Research Program (USGCRP) and the Climate Change Research 
Initiative (CCRI), as well as the creation of the Climate Change 
Technology Program (CCTP). President Bush furthered these efforts at 
the recent G8 Summit in Scotland, where the U.S. committed to grow 
economies, aid development, and improve the environment through 
technological innovation to achieve the combined goals of addressing 
climate change, reducing harmful air pollution and improving energy 
security.
---------------------------------------------------------------------------
    \1\ Formerly known as the National Academy of Sciences.
---------------------------------------------------------------------------
    The Climate Change Science Program integrates Federal research on 
global change and climate change, as sponsored by thirteen Federal 
agencies (the National Science Foundation (NSF), the Department of 
Commerce, the Department of Energy (DOE), the Environmental Protection 
Agency (EPA), the National Aeronautics and Space Administration (NASA), 
the Department of State, the Department of the Interior (DOI), the 
Department of Agriculture (DOA), Health and Human Services (HHS), the 
Department of Transportation (DOT), the Department of Defense (DoD), 
U.S. Agency for International Development (USAID), and the Smithsonian 
Institution), and with liaisons in the Office of Science and Technology 
Policy, the Council on Environmental Quality, the National Economic 
Council, and the Office of Management and Budget.
    We know that the surface of the Earth is warmer, and that an 
increase in greenhouse gases caused by humans is contributing to the 
problem. Research conducted through CCSP is deepening our understanding 
of the interplay of natural and human-caused forces. CCSP is charged 
with investigating natural and human-induced changes in the Earth's 
global environmental system; monitoring important climate parameters; 
predicting global change; and providing a sound scientific basis for 
national and international decisionmaking.
    Since CCSP was created, the program has successfully integrated a 
wide range of research, climate science priorities, and budgets of the 
thirteen CCSP agencies. With an approximately $2 billion annual 
expenditure, CCSP has taken on the most challenging questions in 
climate science, and is developing products to convey the most advanced 
state of knowledge to be used by Federal, state, and local 
decisionmakers, resource managers, the science community, the media, 
and the general public. We have identified several methods to address 
these challenges. I briefly describe the steps we have already taken, 
the scientific advances we have achieved, and our future directions.
    Inventory of Research Programs: A comprehensive inter-agency 
inventory of climate and global change research programs was initiated 
in May 2002, and has been updated annually since then. This essential 
stocktaking exercise (the first conducted in several years) enhanced 
coordination, efficiency, and effectiveness of the entire research 
effort. All CCSP agencies participated in this inventory.
    CCSP Strategic Plan: In July 2003, CCSP released its Strategic Plan 
for the U.S. Climate Change Science Program, the first comprehensive 
update of a national plan for climate and global change research since 
the original U.S. Global Change Research Program strategy was issued at 
the inception of the program in 1990.
    We took several steps to ensure that the Plan received extensive 
public input and scientific review. The Administration released a CCSP 
Discussion Draft Strategic Plan for public review in November 2002. The 
Discussion Draft outlined a comprehensive, collaborative approach for 
developing a deeper understanding of climate change and its potential 
impacts. It was guided by the priority information needs identified by 
scientists and stakeholders, both nationally and internationally.
    External comments, obtained through several mechanisms, played an 
important role in revising the draft plan. First, CCSP held a workshop, 
in December 2002, that was attended by 1,300 scientists and other 
participants, including individuals from 47 states and 36 nations. This 
workshop was designed to facilitate extensive discussion and comments 
on the draft plan. In addition, written comments on the Discussion 
Draft were submitted during a public review period, and amounted to 
nearly 900 pages of input. Last, CCSP commissioned a special committee 
of the NRC to review the plan. The NRC conveyed its comments and 
recommendations on the Discussion Draft in a February 2003 report.
    After consideration of the extensive external input and internal 
inter-agency review process, the (revised) Strategic Plan for the U.S. 
Climate Change Science Program was released in July 2003. In February 
2004, the NRC review committee issued a second public report, 
Implementing Climate and Global Change Research: A Review of the Final 
U.S. Climate Change Science Program Strategic Plan. This NRC report 
expressed the committee's conclusions on the content, objectivity, 
quality, and comprehensiveness of the updated Strategic Plan, on the 
process used to produce the Plan, and on the proposed process for 
developing subsequent findings to be reported by the CCSP. The 
following quote is taken from the Executive Summary of the 2004 NRC 
report:

        ``The Strategic Plan for the U.S. Climate Change Science 
        Program articulates a guiding vision, is appropriately 
        ambitious, and is broad in scope. It encompasses activities 
        related to areas of long-standing importance, together with new 
        or enhanced cross-disciplinary efforts. It appropriately plans 
        for close integration with the complementary Climate Change 
        Technology Program. The CCSP has responded constructively to 
        the National Academies review and other community input in 
        revising the strategic plan. In fact, the approaches taken by 
        the CCSP to receive and respond to comments from a large and 
        broad group of scientists and stakeholders, including a two-
        stage independent review of the plan, set a high standard for 
        government research programs. As a result, the revised 
        strategic plan is much improved over its November 2002 draft, 
        and now includes the elements of a strategic management 
        framework that could permit it to effectively guide research on 
        climate and associated global changes over the next decades. 
        Advancing science on all fronts identified by the program will 
        be of vital importance to the Nation.''

    We have frequently noted that the CCSP Strategic Plan is a living 
document and we look forward to continued dialogue with Congress, the 
NRC, the scientific community, and the public throughout the 
implementation of the Plan, as the science evolves and priorities 
change over time.
    Annual Program Report, Our Changing Planet: Our Changing Planet is 
an annual report of the CCSP. This program report is issued as a 
Supplement to the President's Fiscal Year budgets and submitted to 
Congress pursuant to a requirement of the 1990 Global Change Research 
Act. The document is intended to provide summaries and related budget 
data of ongoing CCSP-supported climate change work.
    CCSP Assessment Information to Support Decisionmaking: The CCSP 
Strategic Plan identified three broad types of deliverables to be 
produced in support of enhanced policy development and decisionmaking 
by national and regional government officials, resource managers, 
planners, and the scientific community.

        (1) Synthesis and Assessment Products: Twenty-one Synthesis and 
        Assessment Products are identified in the Strategic Plan. These 
        reports are designed to address a full range of scientific 
        questions and evaluate options for responses that are of 
        greatest relevance to decision and policymakers and planners. 
        These products are intended to provide the best possible state 
        of scientific information, developed by a diverse group of 
        climate experts, for the decision community. In response to an 
        April 14, 2005 Government Accountability Office (GAO) report, 
        Congressional inquiries, and our own internal assessment, on 
        July 15 we presented to this committee, and other interested 
        Members, a revision of the schedule and scope of the Synthesis 
        and Assessment Products. We look forward to further dialogue 
        with you on these important issues.

        (2) Adaptive management and planning for resources and 
        infrastructure: ``Adaptive management decisions'' are 
        operational decisions, principally for managing infrastructure 
        (e.g., waste water treatment systems), natural and managed 
        resources (e.g., water supply, agriculture), and societal 
        response mechanisms (e.g., health alerts). They typically occur 
        within existing frameworks (e.g., legal, institutional, 
        economic), usually recurring on annual or shorter time scales. 
        ``Planning'' focuses on these and additional sectors (e.g., 
        urban or regional planning), typically involving development of 
        infrastructure and institutions with long lifetimes (several 
        decades or more), and with decision processes over long 
        timescales (years to decades). CCSP research results, data 
        products, forecasts, and model results are already being 
        applied to adaptive management and planning in a number of 
        regional and sectoral case studies. Specific examples include 
        climate observations and projections for crop management, water 
        quality management, and urban planning, as well as integrated 
        products illustrating snowpack, precipitation, streamflow, and 
        the potential for drought conditions.

        (3) Support for policymaking: As described in the Strategic 
        Plan, CCSP is focusing on two objectives in the area of support 
        for policymakers: (1) developing scientific syntheses and 
        analytical frameworks to support integrated evaluations, and 
        (2) initially conducting a limited number of case studies with 
        evaluation of the lessons learned, to guide future analyses. 
        Integrated analysis of climate change is essential for bringing 
        together research from many contributing disciplines and 
        applying it to gain comparative insight into policy-related 
        questions. Full integration of information including research 
        on human activities, greenhouse gas and aerosol emissions, 
        land-use and land-cover change, cycling of carbon and other 
        nutrients, climatic responses, and impacts on people, the 
        economy, and resources is necessary for analyses of many 
        important questions about the potential economic and 
        environmental implications of changing greenhouse gas 
        concentrations and various technology portfolios. Specific 
        examples of this type of work under CCSP include the DOE 
        Integrated Assessment of Climate Change Research Program that 
        sponsors research to develop comprehensive benefit/cost models 
        for use in assessing the implications of potential climate 
        change policies. NOAA, EPA, and NSF sponsor additional studies 
        to improve aspects of such models, and to allow for the 
        application of the models to address particular questions.

    Scientific Advancements: CCSP has supported a highly integrated 
array of Earth system observations as well as a broad set of new 
scientific information. A large bibliography of new peer-reviewed 
scientific studies reflecting the advances in climate change detection, 
attribution, and projection, described below, will be reported in the 
upcoming edition of Our Changing Planet, and these studies will be 
reflected in the relevant CCSP Synthesis and Assessment Products.
    Detection: CCSP-sponsored observational and scientific studies have 
more completely characterized the nature of observed increase in 
surface temperatures, and have significantly advanced our understanding 
of observed variability in ocean salinity and heat content. CCSP 
research has also investigated changes in the global distributions of 
snowfall and snowpack, and natural fluctuations in ocean circulation 
that influence the transport of heat and energy around the globe.
    Building on the CCSP observations and monitoring strategy 
identified in its Strategic Plan, the U.S. Government has taken several 
steps toward establishing a comprehensive, coordinated, and sustained 
Earth observation system since hosting the inaugural Earth Observation 
Summit in June 2003. CCSP agencies have provided leadership, 
definition, and support for the Earth Observation meetings, and are 
closely integrating the U.S. observation and data management programs 
with the international programs launched by this effort. At the most 
recent meeting, the Earth Observation Summit III in Brussels, a ten-
year Implementation Plan for the Global Earth Observation System of 
Systems (GEOSS) was adopted, and the 60-member intergovernmental Group 
on Earth Observations was established to begin implementation of the 2-
, 6-, and 10-year targets identified in the plan. The U.S. contribution 
to GEOSS is the Integrated Earth Observation System (IEOS). In April 
2005, the U.S. Government Committee on Environment and Natural 
Resources (CENR) released the Strategic Plan for the U.S. Integrated 
Earth Observation System that addresses the policy, technical, fiscal, 
and societal benefit components of this integrated system, and 
established the U.S. Group on Earth Observation (USGEO), a subcommittee 
of the National Science and Technology Council Committee on Environment 
and Natural Resources.
    Attribution: CCSP research also works to establish and understand 
the most likely causes for climate change, with special emphasis on 
distinguishing between natural variability and human-induced effects. 
Recent advances in attribution research include the use of additional 
variables in climate models (e.g., salinity, runoff, and regional-scale 
attribution) to obtain more insight on the origin of the climate 
signals and trends, as well as expansion of climate models to include 
improved representation of aerosols (airborne fine particles) and 
variability in solar energy output. These climate models, which have 
been produced for CCSP, include improved representations of physical 
processes and increased resolution to effort to enhance our climate 
modeling capabilities.
    Projection: Through climate projections, CCSP attempts to present 
scientifically justifiable illustrations of the future climate and its 
potential impacts upon key elements of the Earth system. We are working 
in conjunction with the Climate Change Technology Program (CCTP) to 
update greenhouse gas emissions scenarios that incorporate improved 
socio-economic data and consider expanded use of emerging technological 
options. These scenarios are being used with a new generation of 
climate models to develop improved climate projections for 
consideration by decision-makers.
    Expanded CCSP/NRC Advisory Contract: CCSP has recently expanded its 
contract with the NRC to incorporate important new elements of NRC 
advice to the program. The enhanced NRC advisory assignment involves 
three areas:

        (1) Overall NRC advice on the CCSP research program on a 
        continuing basis over the next 3 years, involving an NRC 
        committee with wide areas of expertise;

        (2) A comparative evaluation of relevant previous climate 
        change assessments conducted around the world, to provide 
        background information for the assessments being prepared by 
        CCSP in compliance with the GCRA; and

        (3) Designated support from two existing committees of the NRC 
        that are well positioned to support CCSP with expertise in 
        areas central to CCSP's core responsibilities, the Climate 
        Research Committee and the Committee on the Human Dimensions of 
        Global Change.

    The Administration has endorsed the scope of the expanded contract 
to ensure that CCSP receives independent and credible scientific 
advice, as CCSP continues to implement its Strategic Plan.
    Climate Change Science Program Workshop: Climate Science in Support 
of Decisionmaking: CCSP will hold a public workshop November 14-16, 
2005, in Arlington, VA. The CCSP Workshop will address the capability 
of climate science to inform decision-making and will serve as a forum 
to address the progress and future plans regarding CCSP's three 
decision-support deliverables as described above. The Workshop will 
provide an opportunity for scientists and user communities to discuss 
needs and future application of scientific information on climate 
variability and change, as well as discussion on expected outcomes of 
CCSP's research and assessment activities that are necessary for sound 
resource management, adaptive planning and policy.
NOAA Climate Program
    NOAA is responsible for developing and making accessible climate 
information products and services for near-term issues such as drought 
management and long-term issues such as potential effects of climate 
change on managed and natural ecosystems. As a mission agency, NOAA has 
a direct responsibility to provide climate information, products, and 
services that enable us to understand and respond to changing climate 
conditions.
    The NOAA Climate Program goals are aligned with the CCSP goals 
outlined in the CCSP Strategic Plan. Climate is one of NOAA's four 
mission goals; it is designed to produce two outcomes. First, a 
predictive understanding of the global climate system on time scales of 
weeks to decades with quantified uncertainties sufficient for making 
informed and reasoned decisions; and second, a climate-literate public 
effectively incorporating NOAA's climate products into their plans and 
decisions. These outcomes are achieved through the following programs 
that are described in our Fiscal Year 2006 Budget:

  <bullet> The Climate and Global Change (CGC) program goal is to 
        establish a national information service based on reliable 
        assessments and quantitative predictions of changing global 
        climate in partnership with the university community. CGC will 
        help NOAA provide high-quality predictions and assessments to 
        the public and private sectors, other Federal and state 
        agencies, and the international community. The near-term 
        objective is to provide reliable predictions of global climate 
        changes, both natural and human-induced, and their associated 
        human effects on time scales ranging from seasons to that of a 
        century or more. The Climate and Global Change Program is an 
        important part of CCSP. Activities include atmospheric 
        composition, carbon cycle, physical climate research, analysis 
        of the climate record, climate predictions on time scales of 
        seasonal, interannual, and decadal, and regional integrated 
        sciences and assessments.

  <bullet> The Climate Observations and Services (COS) program supports 
        the development of the information and insights needed to help 
        reduce impacts to the Nation from climate variations and 
        change. We do this by monitoring the Earth's climate system, 
        delivering data, developing predictions and impact assessments, 
        and continuing performance-enhancing research. This is an 
        integrated, multi-line organization activity within NOAA and 
        involves the Office of Oceanic and Atmospheric Research; 
        National Environmental Satellite, Data, and Information 
        Service; and the National Weather Service. The program involves 
        an important transition of research observing and data systems 
        into operational systems and products. NOAA activities 
        supporting the Climate Change Research Initiative (CCRI) are 
        also administered under the Climate Observations and Services 
        program. Activities under this program include atmospheric and 
        ocean observations, data assimilation and data management, 
        transition of the Tropical Atmospheric Ocean (TAO) buoy array 
        from research to operations, and assessments of climate change 
        and variability (i.e., Stratospheric Ozone, Intergovernmental 
        Panel on Climate Change, and CCSP Synthesis and Assessment 
        Products). NOAA is leading the production of seven of the 21 
        CCSP Synthesis and Assessment Products called for in the CCSP 
        Strategic Plan, and is contributing to eleven others.

  <bullet> The Arctic Research Program (ARP) is coordinated with other 
        U.S. Government agencies through the Study of Environmental 
        Arctic Change (SEARCH) program. The specific role of the ARP is 
        long-term climate observations and analysis of Arctic climate 
        data. ARP continues to focus on key aspects of the Arctic 
        climate system. The information provided will improve forecasts 
        of temperature, precipitation, and storms across Alaska and the 
        mainland United States. This information will also support 
        improvements in forecasting and planning for energy needs, 
        growth seasons, hazardous storm seasons and water resources, as 
        well as provide for better management of Alaskan and Arctic 
        resources.

  <bullet> Partnership Programs cover a wide range of activities with a 
        multitude of external research partners. These partnerships 
        extend to other parts of NOAA; other Federal, state, and local 
        government entities; international government programs; 
        universities; and industry.
Recent Highlights of the NOAA Climate Program
    NOAA is Detecting and Forecasting El Nino Conditions: NOAA's 
Tropical Atmosphere Ocean (TAO) array provided the observational 
backbone for detecting and forecasting evolving El Nino conditions in 
2004. TAO array buoys, along with complementary buoys maintained by 
Japan in the western Pacific, are used to track the evolution of 
subsurface ocean warming that typically precedes the full-blown 
development of El Nino. In 2004, the buoys detected a weakening of the 
trade winds and warming surface ocean temperatures. These data, which 
are available to operational weather forecasting centers and climate 
researchers around the world, led to NOAA's recent declaration of a 
weak El Nino currently forming in the tropical Pacific.
    NOAA Leads Implementation of a National Integrated Drought 
Information System (NIDIS): In a letter to the President on August 30, 
2004, the Western Governor's Association recommended a team led by NOAA 
begin implementation of the National Integrated Drought Information 
System (NIDIS). NOAA is coordinating with stakeholders, states, and 
Federal agencies to implement NIDIS. NIDIS goals include fostering and 
supporting research, creating an early drought warning system, 
providing interactive delivery systems, providing a framework for 
interacting with and educating decisionmakers and the public, and 
developing an understanding of the impacts and data needs at the local 
level.
    NOAA Implemented International Climate/Air Quality Field Study: 
NOAA is helping to lead and implement a multi-agency air quality and 
climate study performed under the auspices of the International 
Consortium for Atmospheric Research on Transport and Transformation 
(ICARTT), which was initiated in New England in Summer of 2004 (New 
England Air Quality--Intercontinental Transport and Chemical 
Transformation Study). Colleagues from five nations are engaged in the 
endeavor, which extended from the western U.S. to continental Europe. 
This research is addressing significant information gaps and delivering 
sound science that will improve the understanding of the long-distance 
transport processes that influence the air pollution levels that impact 
the population centers such as the New England region.
    NOAA Contributes to Increased Understanding of Regional Weather and 
Climate Patterns: NOAA successfully completed the North American 
Monsoon Experiment (NAME) 2004 field campaign in collaboration with 
other U.S., Mexican and Central American agencies and academic 
institutions. NAME 2004, provided an unprecedented collection of 
detailed atmospheric, oceanic, and land-surface observations in the 
core region of the North American Monsoon over northwest Mexico, 
southwest U.S., and adjacent oceanic regions. It documented the 
evolution of the monsoon convection and precipitation, and helped to 
outline the key physical processes that must be parameterized for 
improved simulations and predictions with climate models.
    NOAA Implements an Operational Critical Climate Forecast System: In 
August 2004, a global ocean and atmosphere coupled Climate Forecast 
System (CFS) became operational at the National Centers for 
Environmental Prediction of the National Weather Service. The Climate 
Forecast System is a fully coupled model representing the interactions 
between the Earth's oceans and atmosphere. These interactions are 
critical for determining climate on seasonal time scales. This 
implementation is a recent example of a successful transition of 
research into operations through long-term, ongoing collaborative 
efforts by NOAA scientists, other Federal Agencies (NASA, NSF), and the 
university research community.
    NOAA Supports Development of Urban Climate Planning Website: NOAA 
has supported the development of the Climate Change Information 
Resource for the New York Metropolitan Area (CCIR-NY), a website 
(http://ccir.ciesin.columbia
.edu/nyc) that includes information tools developed for decision-makers 
and those interested in planning for climate in an urban environment. 
Users of CCIR-NY include city, municipal, and county planners; natural 
resource managers; transportation managers; water managers; waste 
managers; educators and citizens. In addition to providing basic 
information about climate in the NYC area, the website serves as a 
forum for users to share expertise and information related to climate 
change and variability in the NY metropolitan area. The website is 
serving as an international model for the development of similar web 
tools in Tokyo and London.
    NOAA Contributes to Operational Seasonal Wildland Fire Outlooks: In 
Fiscal Year 2003, NOAA helped to support the first operational annual 
nationwide fire assessment workshop, bringing together climatologists, 
predictive service meteorologists, fire analysts, and wildland fire 
managers from state and Federal agencies across 11 geographic area 
coordination centers. The result was to begin production of climate-
informed, regional- and national-scale seasonal fire potential outlooks 
for the United States. A sustained commitment from NOAA and the 
Department of Commerce has resulted in the development of innovative 
methods for combining scientific expertise with regional and local 
knowledge to produce unique, stakeholder-driven decision support 
products. Through the National Interagency Fire Center, it is now 
possible for managers to access interactive geographic and national-
level fire outlook maps over daily to seasonal timeframes. As NOAA 
expands its vision of providing operational climate services, this 
approach will serve as a model for additional climate applications, 
such as drought outlooks, air-quality predictions, improved land-use 
planning, and crop-yield forecasts.
    NOAA Deploys Ocean Climate Observing Systems: NOAA is working with 
international partners to establish and maintain a sustained Global 
Ocean Observing System (GOOS, a program of the International 
Oceanographic Commission) necessary for long-term monitoring of the 
climate system and improved climate projections. NOAA provides a major 
U.S. contribution to the global component of the U.S. Integrated Ocean 
Observing System (IOOS), integral to the U.S. Integrated Earth 
Observing System (IEOS) and the Global Earth Observation System of 
Systems (GEOSS). NOAA's contribution to the observing system consists 
of various buoy networks, profiling floats (Argo), tide gauges, surface 
drifting buoys, tropical moored buoys, ocean reference stations) and 
ship observations (ships of opportunity, routine oceanographic surveys, 
air-sea flux studies). GOOS will be 51 percent complete by the end of 
Fiscal Year 2005.
    NOAA Advances Seasonal-to-Interannual Prediction Capabilities: Due 
to our advanced observing systems (TOGA/TAO and satellites) as well as 
over 10 years of research and operational innovation, NOAA has recently 
developed the capability to make skillful U.S. winter forecasts 
associated with strong El Nino or La Nina conditions. We also have 
improved the accuracy of our forecasts of the level of Atlantic and 
Gulf seasonal hurricane activity. Major challenges remain for warm 
season prediction, especially of precipitation, as well as cold season 
prediction in the absence of a strong El Nino or La Nina. To meet these 
challenges, we are expanding observations to the Indian Ocean with 
international partners; developing predictions of the southwest monsoon 
over North America; and transferring information to resource managers 
to prepare for extreme weather events, fisheries impacts, and 
management of water resources.
    NOAA Provides Weather and Climate Products to the FEWS Network: The 
International Weather and Climate Monitoring Project at NOAA's Climate 
Prediction Center is an extension of an earlier USAID Famine Early 
Warning System (FEWS) program that originally covered only Sub-Sahelian 
Africa. The project has now grown to encompass all of Africa, 
Afghanistan, Central America, and the Caribbean, the Mekong River 
Basin, and much of southern Asia. Work is underway to create a global 
weather and climate monitoring program to address any international 
region where humanitarian support is needed. The goal of the program is 
to provide weather and climate related information to users within 
USAID as well as international partner organizations, such that a 
greater level of humanitarian assistance may be offered. The goal is 
only accomplished through constant interaction with our partner groups 
such as the USGS, NASA, USAID, private-sector contractors, and local 
African organizations. A more thorough and accurate analysis of 
conditions is possible via these collaborations.
    NOAA Supports RANET: The RAdio and InterNET for the Communication 
of Hydro-Meteorological Information for Rural Development (RANET) 
program is an international collaboration with based funding from USAID 
and NOAA to make weather and seasonal information available to remote 
populations in developing countries in Africa, Asia, and the Pacific. 
To achieve its mission, the program works to improve the basic 
communication and dissemination capacities of National Hydro-
Meteorological Services (NHMSs) and related national agencies. The 
RANET program addresses its core objectives by applying technologies 
that can bridge and extend existing dissemination networks, by 
providing technical training, developing and using unique applications 
of technology, and nurturing an overall community-based dialogue on 
issues related to weather and the environment. As a testament to 
RANET's sustainable design, several of the recipient national 
meteorological services have dedicated personnel and resources to their 
own RANET efforts. In keeping with recent language from the G8 action 
plan on climate and energy, RANET exemplifies strategies that seek to 
further scientific capacity in pursuit of larger social, environmental, 
and economic objectives in ways that are truly consistent with local 
and regional realities.
NOAA Climate Program Budget for Fiscal Year 2006
    The NOAA Climate Program is requesting $239.9 million in Fiscal 
Year 2006, reflecting a net increase of $19.6M over the Fiscal Year 
2006 base level. This increase includes $10.6M for the high priority 
Climate Change Research Initiative (CCRI); $7.4M to reactivate 
activities requested under Climate Observations and Services (COS) in 
the Fiscal Year 2005 President's Budget; and $1.6M to restore funding 
requested in Fiscal Year 2005 for other ongoing climate activities.
    This increase responds to the long-term observational requirements 
of climate predictions and assessments. Funding to reactivate COS 
activities will ensure continuation of climate observing networks, such 
as the highly regarded Climate Reference Network (CRN) and NOAA's 
Baseline Observatories. NOAA will be able to ensure critical monitoring 
of long-term trends in important climate variables and to improve 
forecasting capabilities and applications development over timescales 
from weeks to seasons.
    These programs serve as a foundation for NOAA's participation in 
CCSP by funding important research and key observations and thereby 
reducing uncertainties in climate change science. These increases also 
support the objective in the Department of Commerce Strategic Plan to 
``Advance understanding and predict changes in the Earth's environment 
to meet America's economic, social, and environmental needs.'' In 
addition, these increases will support the research and production of 
CCSP Synthesis and Assessment Products.
    NOAA will continue building and maintaining a global ocean 
observing system; initiate a new five-year effort to better understand 
how aerosols influence climate by their interaction with clouds; expand 
the Tropical Atmospheric Ocean (TAO) buoy array into the Indian Ocean; 
conduct new studies to better explain the causes for observed climate 
variability and change; and continue expanding and refining regional 
integrated research and outreach.
    Thank you, Mr. Chairman and Members of the Committee. I look 
forward to the opportunity to respond to any questions you may have.

    Senator Vitter. Thank you, Doctor, now Mr. Conover.

        STATEMENT OF DAVID W. CONOVER, PRINCIPAL DEPUTY

           ASSISTANT SECRETARY, OFFICE OF POLICY AND

         INTERNATIONAL AFFAIRS; DIRECTOR, U.S. CLIMATE

        CHANGE TECHNOLOGY PROGRAM, DEPARTMENT OF ENERGY

    Mr. Conover. Thank you, Mr. Chairman, good morning, and 
good morning, Senator Lautenberg, it's nice to see you again. 
Thank you for the opportunity to appear before you today to 
discuss climate change activities at the Department of Energy. 
My name is Dave Conover, and I'm Principal Deputy Assistant 
Secretary in the Department's Office of Policy and 
International Affairs. I also serve as the Director of the 
Climate Change Technology Program, known as CCTP.
    The essence of my testimony today is that the Department of 
Energy has a number of important climate change initiatives 
underway that support the Administration's comprehensive and 
strategic approach to climate change.
    First, a little background. In February 2002, President 
Bush re-affirmed his Administration's commitment to the U.N. 
Framework Convention on Climate Change, and its central goal--
stabilization of greenhouse gas concentrations in the 
atmosphere, at a level that prevents dangerous interference 
with the climate system. The Bush Administration believes that 
the most effective way to meet this challenge is through an 
agenda that promotes economic growth, provides energy security, 
reduces pollution, and mitigates greenhouse gas emissions.
    Although climate change is a complex and long-term 
challenge, the Bush Administration recognizes that there are 
cost-effective steps we can take now. In 2002, President Bush 
set an ambitious national goal, to reduce the greenhouse gas 
intensity in the U.S. economy by 18 percent by 2012. To meet 
this goal, the Administration has developed an array of policy 
measures, including financial incentives and voluntary 
programs. Among these are DOE's Climate VISION Program, and the 
Voluntary Greenhouse Gas Reporting System known as the 1605(b) 
program. Climate VISION is the Presidential public/private 
partnership launched by the Department in February 2003, to 
contribute to the President's goal of reducing greenhouse gas 
emissions intensity. Business associations representing 14 
energy-intensive industry sectors accounting for about 40 
percent of U.S. gas emissions, and the business roundtable 
participate in this program.
    The 1605(b) Program is a voluntary system for companies to 
record their progress in reducing greenhouse gas emissions. We 
will be issuing new guidelines this fall to meet the 
President's 2002 directive that the 1605(b) Program be revised 
to enhance the accuracy, reliability, and verifiability of the 
data reported through the system.
    Data for 2003 and 2004, suggest we were ahead of schedule 
in meeting the President's intensity goal, further detail on 
that is in my written statement. The Administration is also 
laying a strong technological foundation to develop realistic 
and cost-effective mitigation options to meet climate and other 
objectives. The U.S. Climate Change Technology Program, or 
CCTP, was created to coordinate and prioritize the Federal 
Government's nearly $3 billion annual investment in climate-
related technology research.
    Later this week, Energy Secretary Sam Bodman will release 
the CCTP Vision and Framework for a Strategic Plan. This 
document lays out the guiding principles for investment and 
climate-related technology and research, development, 
demonstration, and deployment. This investment includes 
expanded and realigned activities, as well as new initiatives 
in strategic technology areas, such as the President's Hydrogen 
Fuel Initiative; and the FreedomCAR Program; carbon 
sequestration; FutureGen, the coal-fired, zero emissions power 
project; next generation nuclear energy and fusion. In addition 
to our domestic R&D work, the Administration believes well-
designed multilateral collaborations can accelerate development 
in commercialization of new technologies.
    The International Partnership for the Hydrogen Economy, the 
Carbon Sequestration Leadership Forum, Generation for 
International Nuclear Forum--all U.S. initiatives provide 
vehicles for international collaboration to advance these 
technologies. In addition, the U.S. participates in ITER, a 
proposed multilateral collaborative project, to design and 
demonstrate a fusion energy production system.
    Our most recent multilateral initiative led by EPA was 
launched in November 2004. The Methane to Markets Partnership 
focuses on the recovery of methane from landfills, underground 
coal mines, natural gas, and oil systems, for use as a clean 
energy source. The Department also participates in 14 climate 
partnerships with key countries and regional organizations 
that, together with the United States, account for almost 80 
percent of global greenhouse gas emissions.
    The U.S. launched the Clean Energy Initiative, and joined 
the Renewable Energy and Energy Efficiency partnership in order 
to assist developing countries to reduce poverty and increase 
their economic growth and environmental quality by modernizing 
their energy production and use, but with cleaner, more 
efficient technologies,
    As you can see, the Bush Administration has developed a 
comprehensive strategy on climate change that is informed by 
science, emphasizes innovation and technological solutions, and 
promotes international collaboration to support the U.N. 
framework convention objective. DOE is proud to be a major 
contributor to this strategy.
    Thank you for your attention, and I would be pleased to 
answer any questions that you have.
    [The prepared statement of Mr. Conover follows:]

  Prepared Statement of David W. Conover, Principal Deputy Assistant 
 Secretary, Office of Policy and International Affairs; Director, U.S. 
            Climate Change Technology, Department of Energy
    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to appear before you today to discuss climate change 
activities at the Department of Energy (DOE).
    As a signatory to the United Nations Framework Convention on 
Climate Change (UNFCCC), the United States shares with many countries 
its ultimate objective: stabilization of greenhouse gas concentrations 
in the atmosphere at a level that prevents dangerous interference with 
the climate system. In February 2002, President Bush reaffirmed his 
Administration's commitment to this central goal of the Framework 
Convention.
    The Bush Administration believes that the most effective way to 
meet this challenge is to focus not solely on greenhouse gas emissions, 
but rather on a broader agenda that promotes economic growth, provides 
energy security, reduces pollution, and mitigates greenhouse gas 
emissions. Many of the DOE programs I will discuss today advance these 
goals.
    Addressing global climate change will require a sustained, long-
term commitment by all nations over many generations. To this end, the 
President has established a robust and flexible climate change policy 
that harnesses the power of markets and technological innovation, uses 
the best available science, maintains economic growth, and encourages 
global participation. Major elements of this approach include:

  <bullet> implementing near-term policies and measures to slow the 
        growth in greenhouse gas emissions;

  <bullet> advancing climate change science;

  <bullet> accelerating technology development; and

  <bullet> promoting international collaboration.

Near-Term Policies and Measures
    Although climate change is a complex and long-term challenge, the 
Bush Administration recognizes that there are cost-effective steps we 
can take now. In 2002, President Bush set an ambitious national goal to 
reduce the greenhouse gas intensity of the U.S. economy--i.e., 
emissions per unit of economic output--by 18 percent by 2012, which 
represents about a 28 percent increase in the rate of improvement 
projected by the Energy Information Administration (EIA) over this 
period.
    A hallmark of the intensity approach is flexibility, an especially 
important consideration when confronted with the many uncertainties 
surrounding climate change. These uncertainties suggest that a measured 
response is required that concentrates first on slowing emissions 
growth before trying to stop and eventually reverse it. Unlike the 
Kyoto Protocol approach, a greenhouse gas emissions intensity goal can 
encourage reductions without risking economic consequences that could 
jeopardize our ability to invest in long-run scientific and 
technological solutions.
    In 2002, the Administration estimated that its 18 percent intensity 
improvement goal will reduce cumulative emissions of carbon by more 
than 1,833 million metric tons of carbon dioxide by 2012. Recent EIA 
projections suggest that achieving the 18 percent goal will reduce 
carbon emissions by 366 million metric tons of carbon dioxide in 2012 
alone.
    To this end, the Administration has developed an array of policy 
measures, including financial incentives and voluntary programs. Among 
these are DOE's Climate VISION program and the Voluntary Reporting of 
Greenhouse Gases Program authorized under subsection 1605(b) the Energy 
Policy Act of 1992 and commonly known as the ``1605(b)'' program.

  <bullet> Climate VISION: In setting the 18 percent decade goal, 
        President Bush issued a challenge to the private sector to do 
        its part. The President's call resonated with business, and in 
        February 2003, the Federal Government and industry 
        organizations representing thousands of companies from 12 
        energy-intensive economic sectors (since expanded to 14) and 
        The Business Roundtable joined in a voluntary partnership known 
        as Climate VISION (Voluntary Innovative Sector Initiatives: 
        Opportunities Now). These Climate VISION partners, which 
        include some of the largest companies in America, represent a 
        broad range of industry sectors--oil and gas, electricity 
        generation, coal and mineral production and mining, 
        manufacturing (automobiles, cement, iron and steel, magnesium, 
        aluminum, chemicals, and semiconductors), railroads, and 
        forestry products--accounting for about 40 to 45 percent of 
        total U.S. greenhouse gas emissions. Four Federal agencies 
        participate in the program: DOE (lead), Department of 
        Agriculture, Department of Transportation, and Environmental 
        Protection Agency.

        Climate VISION is unique in that it focuses on economic 
        sectors, not specific companies, with each industry association 
        making a commitment on behalf of its members to reduce 
        greenhouse gas emissions intensity. The program works with its 
        partners in four areas: (1) measuring and monitoring; (2) 
        finding cost-effective solutions to reduce energy use and GHG 
        emissions; (3) helping to direct industry's energy efficiency 
        R&D investments; and (4) exploring cross-sector efficiency 
        gains to reduce emissions.

        The Climate VISION program also is exploring risk-based 
        incentives for early commercial uses of advanced energy 
        technologies to tip private investment decisions and speed the 
        market penetration of new technologies and systems. It is 
        looking at several areas where this approach could be applied, 
        including residential and commercial buildings, coal 
        gasification, nuclear energy, and biorefining. Climate VISION 
        and DOE's Building America program, for example, have been 
        working with three states--California, Texas, and New York--on 
        pilot projects aimed at using a transaction chain approach to 
        transform housing markets to increase the penetration of energy 
        efficient homes. The lessons learned in these pilots could help 
        inform policies to move the housing market toward greater 
        energy efficiency.

        The Climate VISION website--www.climatevision.gov--is an 
        excellent source of information about the program and the 
        voluntary activities undertaken by industry to reduce emissions 
        intensity.

  <bullet> ``1605(b)'' Voluntary Greenhouse Gas Registry: The 1605(b) 
        program is a voluntary system administered by EIA (http://
        www.eia.doe.gov/oiaf/1605/frntvrgg.html) that provides a 
        vehicle for companies to record progress in reducing greenhouse 
        gas emissions. Currently, about 220 companies file annual 
        reports. In February 2002, President Bush directed that the 
        1605(b) program be revised to enhance the ``accuracy, 
        reliability, and verifiability'' of the data reported to the 
        system.

        Based on this guidance, DOE's Policy Office has been working 
        with an interagency group to improve the system. We issued 
        draft revised General Guidelines in November 2003, and 
        subsequently held a public workshop to discuss the proposed 
        guidelines and to receive comments.

        Interim Final General Guidelines and a Notice of Availability 
        for the Draft Technical Guidelines were published in the 
        Federal Register of March 24, 2005, for public comment. The 
        Department of Energy hosted a public workshop April 26-27, 
        2005, to discuss the guidelines and to receive public comment. 
        The agenda for this workshop, the presentation slides used 
        during the workshop, a list of participants, and a full 
        transcript of the plenary sessions are now available on DOE's 
        website. On May 5, 2005, the Departments of Agriculture and 
        Energy held a workshop on the agricultural and forestry 
        elements of the guidelines. On June 30, 2005, EIA issued a 
        Federal Register notice soliciting public comment on draft 
        reporting forms and instructions based on the Interim Final 
        General Guidelines and Draft Technical Guidelines. It is DOE's 
        intention that final guidelines be issued this fall.

    Other key Administration programs, like the Environmental 
Protection Agency's Climate Leaders and SmartWay Transport Partnership, 
also work in voluntary partnership with industry to reduce emissions. 
Further, the Department of Agriculture is using its conservation 
programs to provide an incentive for actions that increase carbon 
sequestration. DOE is pursuing many energy supply technologies with 
comparatively low or zero carbon dioxide emissions profiles, such as 
solar, wind, bioenergy, and combined heat and power. And the Bush 
Administration also has increased fuel economy standards for new light 
trucks and sport utility vehicles by 1.5 miles per gallon over the next 
three model years. A new round of standards is being prepared for 
proposal later this summer.
    These and other initiatives may be contributing to greenhouse gas 
emission intensity reductions that we have seen already. The 
President's 18 percent ten-year goal represents an average annual rate 
of about 2.0 percent (compounded). According to Energy Information 
Administration's (EIA) Emissions of Greenhouse Gases in the United 
States 2003 report, the energy-related greenhouse gas intensity was 2.3 
percent lower in 2003 than in 2002, and a recent EIA estimate suggests 
a further improvement in carbon dioxide emissions intensity of 2.6 
percent in 2004. Overall, then, the Nation appears to be ahead of 
schedule in meeting the President's goal.
Accelerating Climate Change Technology Development
    While acting to slow the pace of greenhouse gas emissions intensity 
in the near term, the Administration is laying a strong technological 
foundation to develop realistic mitigation options to meet energy 
security and climate change objectives.
    The Bush Administration is moving ahead on advanced technology 
options that have the potential to substantially reduce, avoid, or 
sequester future greenhouse gas emissions. Over 80 percent of current 
anthropogenic greenhouse gas emissions are energy related, and although 
projections vary considerably, a tripling of global energy demand by 
2100 is not unimaginable. Therefore, to provide the energy necessary 
for continued economic growth while we reduce greenhouse gas emissions, 
we may have to develop and deploy cost-effective technologies that 
alter the way we produce and use energy.
    The Climate Change Technology Program (CCTP), which I direct, was 
created to coordinate and prioritize the Federal Government's nearly $3 
billion annual investment in climate-related technology research, 
development, demonstration, and deployment (RDD&D). Using various 
analytical tools, CCTP is assessing different technology options and 
their potential contributions to reducing greenhouse gas emissions. 
Given the tremendous capital investment in existing energy systems, the 
desired transformation of our global energy system may take decades or 
more to implement fully. A robust RDD&D effort can make advanced 
technologies available sooner rather than later and can accelerate 
modernization of capital stock at lower cost and with greater 
flexibility.
    Later this week, Energy Secretary Bodman, who chairs the 
President's Cabinet Committee on Climate Change Science and Technology 
Integration, will release the CCTP Vision and Framework for our 
forthcoming draft Strategic Plan. CCTP's strategic vision has six 
complementary goals: (i) reducing emissions from energy use and 
infrastructure; (ii) reducing emissions from energy supply; (iii) 
capturing and sequestering CO<INF>2</INF>; (iv) reducing emissions of 
other greenhouse gases; (v) measuring and monitoring emissions; and 
(vi) bolstering the contributions of basic science. The larger 
Strategic Plan will be published for public comment later this summer.
    The Administration continues strong investment in many strategic 
technology areas.

  <bullet> Energy Efficiency and Renewable Energy: Energy efficiency is 
        the single largest investment area under CCTP and it provides 
        tremendous short-term potential to reduce energy use and 
        greenhouse gas emissions. Renewable energy includes a range of 
        different technologies that can play an important role in 
        reducing greenhouse gas emissions. The United States invests 
        considerable resources in wind, solar photovoltaics, 
        geothermal, and biomass technologies. Many of these 
        technologies have made considerable progress in price 
        competitiveness, but there remain opportunities to reduce 
        manufacturing, operating, and maintenance costs of many of 
        these technologies. Annually the Administration invests about 
        $1.2 billion for these activities.

  <bullet> Hydrogen: President Bush launched his Hydrogen Fuel 
        Initiative in his 2003 State of the Union Address. The goal is 
        to work closely with the private sector to accelerate our 
        transition to a hydrogen economy, on both the technology of 
        hydrogen fuel cells and a fueling infrastructure. The 
        President's Hydrogen Fuel Initiative and the FreedomCAR 
        Partnership launched in 2002, will provide $1.7 billion through 
        2008 to develop hydrogen-powered fuel cells, hydrogen 
        production and infrastructure technologies, and advanced 
        automotive technologies, with the goal of commercializing fuel-
        cell vehicles by 2020.

  <bullet> Carbon Sequestration: Carbon capture and sequestration is a 
        central element of CCTP's strategy because for the foreseeable 
        future, fossil fuels will continue to be the world's most 
        reliable and lowest-cost form of energy. A realistic approach 
        is to find ways to capture and store the carbon dioxide 
        produced when these fuels are used. DOE's core Carbon 
        Sequestration Program emphasizes technologies that capture 
        carbon dioxide from large point sources and store it in 
        geologic formations. In 2003, DOE launched a nationwide network 
        of seven Regional Carbon Sequestration Partnerships, involving 
        State agencies, universities, and the private sector, to 
        determine the best approaches for sequestration in each 
        geographic region represented and to examine regulatory and 
        infrastructure needs. On June 9 of this year, Secretary Bodman 
        announced a major expansion of the Regional Partnerships 
        program

  <bullet> Coal-Fired, Near-Zero-Emissions Power Generation: The United 
        States has vast reserves of coal, and about half of its 
        electricity is generated from this fuel. Advanced coal-based 
        power and fuels, therefore, is an area of special interest from 
        both an energy security and climate change perspective. The 
        Coal Research Initiative (CRI) consists of research, 
        development, and demonstration of coal-related technologies 
        that will improve coal's competitiveness in future energy 
        supply markets. The Clean Coal Power Initiative (CCPI), within 
        the CRI, is a cost-shared program between the government and 
        industry to demonstrate emerging technologies in coal-based 
        power generation and to accelerate their commercialization. A 
        major initiative under CCPI is the FutureGen project, a 10-
        year, $1 billion government-industry effort to design, build, 
        and operate the world's first near-zero atmospheric emissions 
        coal-fired power plant. This project, which cuts across many 
        CCTP strategic areas, will incorporate the latest technologies 
        in carbon sequestration, oxygen and hydrogen separation 
        membranes, turbines, fuel cells, and coal-to-hydrogen 
        gasification. Through the CRI, clean coal can remain part of a 
        diverse, secure energy portfolio well into the future.

  <bullet> Nuclear Fission: Concerns over resource availability, energy 
        security, and air quality as well as climate change suggest a 
        larger role for nuclear power as an energy supply choice. While 
        current generations of nuclear energy systems are adequate in 
        many markets today, new construction of advanced light-water 
        reactors in the near term and of even more advanced systems in 
        the longer term can broaden opportunities for nuclear energy, 
        both in industrialized and developing countries. The Nuclear 
        Power 2010 program is working with industry to demonstrate the 
        Nuclear Regulatory Commission's new licensing process, while 
        the Generation IV Nuclear Energy Systems Initiative is 
        investigating the more advanced reactor and fuel cycle systems 
        that represent a significant leap in economic performance, 
        safety, and proliferation-resistance. One promising system 
        being developed under the Nuclear Hydrogen Initiative would 
        pair very-high-temperature reactor technology with advanced 
        hydrogen production capabilities that could produce both 
        electricity and hydrogen on a scale to meet transportation 
        needs. Complementing these programs is the Advanced Fuel Cycle 
        Initiative, which is developing advanced, proliferation 
        resistant nuclear fuel technologies that can improve the fuel 
        cycle, reduce costs, and increase the safety of handling 
        nuclear wastes.

  <bullet> Fusion: Fusion energy is a potential major new source of 
        energy that, if successfully developed, could be used to 
        produce electricity and possibly hydrogen. Fusion has features 
        that make it is an attractive option from both an environmental 
        and safety perspective. However, the technical hurdles of 
        fusion energy are very high, and with a commercialization 
        objective of 2050, its impact would not be felt until the 
        second half of the century, if at all. Nevertheless, the 
        promise of fusion energy is simply too great to ignore.

    Advances in these and other technology areas in the CCTP portfolio 
could put us on a path to ensuring access to clean, affordable energy 
supplies while dramatically reducing the greenhouse gas profile of our 
economy over the long term. Moreover, the deployment of cleaner energy 
technologies in developing economies like China and India can make a 
huge difference in altering the future global energy picture.
Innovative International Partnerships
    The Administration believes that well-designed multilateral 
collaborations focused on achieving practical results can accelerate 
development and commercialization of new technologies. Under President 
Bush's leadership, the United States has brought together key nations 
to tackle jointly some tough energy challenges. These multilateral 
collaborations mirror the main strategic thrusts of our domestic 
technology research programs, and they address a number of 
complementary energy concerns, such as energy security, climate change, 
and environmental stewardship. Another characteristic of each is that 
they include as partners Kyoto countries, non-Kyoto countries, 
industrialized countries, developing countries, and countries with 
economies in transition.

  <bullet> International Partnership for the Hydrogen Economy (IPHE): 
        Recognizing the common interest in hydrogen research that many 
        countries share, the United States called for an international 
        hydrogen partnership in April 2003, and in November 2003, 
        representatives from 16 governments gathered in Washington to 
        launch IPHE.\1\ IPHE provides a vehicle to organize, 
        coordinate, and leverage multi-national hydrogen research 
        programs that advance the transition to a global hydrogen 
        economy. It reviews the progress of collaborative projects, 
        identifies promising directions for research, and provides 
        technical assessments for policy decisions. IPHE also will 
        develop common recommendations for internationally-recognized 
        standards and safety protocols to speed market penetration of 
        hydrogen technologies. Through IPHE, the U.S. has assisted 
        Brazil and China in developing hydrogen roadmaps.
---------------------------------------------------------------------------
    \1\ Founding IPHE member governments include the United States, 
Australia, Brazil, Canada, China, European Commission, France, Germany, 
Iceland, India, Italy, Japan, Norway, Republic of Korea, Russia, and 
the United Kingdom. In January 2005, New Zealand became the 17th 
member.

  <bullet> Carbon Sequestration Leadership Forum (CSLF): CSLF is a 
        U.S.-launched initiative that was established formally at a 
        ministerial meeting held in Washington, D.C., in June 2003.\2\ 
        CSLF is a multilateral initiative that provides a framework for 
        international collaboration on sequestration technologies. The 
        Forum's main focus is assisting the development of technologies 
        to separate, capture, transport, and store carbon dioxide 
        safely over the long term, making carbon sequestration 
        technologies broadly available internationally, and addressing 
        wider issues, such as regulation and policy, relating to carbon 
        capture and storage. In addition to these activities, CSLF 
        members and other interested nations are invited to participate 
        in the FutureGen clean coal project.
---------------------------------------------------------------------------
    \2\ CSLF member governments include the United States, Australia, 
Brazil, Canada, China, Colombia, Denmark, European Commission, France, 
Germany, India, Italy, Japan, Mexico, Norway, Russia, South Africa, and 
the United Kingdom.

  <bullet> Generation IV International Forum (GIF): In 2002, nine 
        countries and Euratom joined together with the United States to 
        charter GIF, a multilateral collaboration to fulfill the 
        objective of the Generation IV Nuclear Energy Systems 
        Initiative.\3\ GIF's goal is to develop the fourth generation 
        of advanced, economical, safe, and proliferation-resistant 
        nuclear systems that can be adopted commercially no later than 
        2030. A technology roadmap developed by the GIF and the 
        Department of Energy's Nuclear Energy Research Advisory 
        Committee, in 2003, identified six technologies as candidates 
        for future designs. Based on the Roadmap, GIF countries are 
        jointly preparing a collaborative research program to develop 
        and demonstrate the projects.
---------------------------------------------------------------------------
    \3\ GIF member countries include the United States, Argentina, 
Brazil, Canada, France, Japan, Korea, South Africa, Switzerland, and 
the United Kingdom.

  <bullet> ITER: In January 2003, President Bush announced that the 
        United States was joining the negotiations for the construction 
        and operation of the international fusion experiment known as 
        ITER.\4\ If successful, this multi-billion-dollar research 
        project will advance progress toward producing clean, 
        renewable, commercially-available fusion energy by the middle 
        of the century. It was recently agreed that the experimental 
        reactor will be sited in Cadarache, France.
---------------------------------------------------------------------------
    \4\ ITER member countries include the United States, China, 
European Union, Japan, Russia, and the Republic of Korea.

  <bullet> Methane to Markets Partnership: In November of last year, 
        the United States and representatives from 13 countries \5\ 
        launched the Methane to Markets Partnership, which is led on 
        the U.S. side by EPA. This Partnership is an international 
        initiative that focuses on advancing cost-effective, near-term 
        methane recovery and use as a clean energy source to enhance 
        economic growth, promote energy security, improve the 
        environment, and reduce greenhouse gases. Initially, the 
        Partnership will target three major methane sources: landfills, 
        underground coal mines, and natural gas and oil systems.
---------------------------------------------------------------------------
    \5\ Founding Methane to Markets member governments include the 
United States, Argentina, Australia, Brazil, China, Colombia, India, 
Italy, Japan, Mexico, Nigeria, Russian Federation, Ukraine, and the 
United Kingdom

  <bullet> Regional and Bilateral Activities: Since 2001, the United 
        States has established 15 climate partnerships with key 
        countries and regional organizations that, together with the 
        United States, account for almost 80 percent of global 
        greenhouse gas emissions.\6\ These partnerships encompass over 
        400 individual activities, and successful joint projects have 
        been initiated in areas such as climate change research and 
        science, climate observation systems, clean and advanced energy 
        technologies, carbon capture, storage and sequestration, and 
        policy approaches to reducing greenhouse gas emissions.
---------------------------------------------------------------------------
    \6\ Partners include Australia, Brazil, Canada, China, Central 
America (Belize, Costa Rica, El Salvador, Guatemala, Honduras, 
Nicaragua, and Panama), European Union, India, Italy, Japan, Mexico, 
New Zealand, Republic of Korea, Russian Federation, and South Africa.

Market Development for Commercialization of New Technologies
    Adoption and transfer of modern energy technologies is capital and 
information intensive, and can only be accomplished as part of a 
broader effort to improve governance, regulation, and management of 
service providers in developing countries. Nations that develop strong, 
market-based institutions and the rule of law will be in the best 
position to make the sustained investments necessary to provide clean 
energy and address climate change over the long term. One of the 
biggest barriers to economic progress in developing countries is lack 
of access to affordable, modern energy services, such as electricity. 
Such services are instrumental to economic growth, social development, 
and alleviation of poverty, and their availability can amplify the 
impact of investments in public health, education, sanitation, clean 
water, agriculture, and others.
    Therefore, an important objective of U.S. participation in many of 
its international collaborations is to mobilize private sector 
investment by promoting innovative financing that reduces risks and 
transaction costs. These efforts are aimed at developing new policies 
and business models to create self-sustaining markets for financing 
energy efficiency, renewable, and infrastructure projects.

  <bullet> Clean Energy Initiative: At the World Summit on Sustainable 
        Development (WSSD), the United States launched a ``Clean Energy 
        Initiative'' consisting of four market-oriented, performance-
        based partnerships: Global Village Energy Partnership, led by 
        the U.S. Agency for International Development; Partnership for 
        Clean Indoor Air, and Partnership for Clean Fuels and Vehicles, 
        both led by EPA; and Efficient Energy for Sustainable 
        Development (EESD), led by DOE. The mission of this initiative 
        is to bring together governments, international organizations, 
        industry, and civil society in partnerships to alleviate 
        poverty and spur economic growth in the developing world by 
        modernizing energy services.

        DOE's EESD aims to improve the productivity and efficiency of 
        energy systems, while reducing pollution and waste, saving 
        money, and improving reliability through less energy intensive 
        products, more energy efficient processes and production 
        modernization. In furtherance of the U.S. Clean Energy 
        Initiative, DOE submitted and obtained approval from Asia-
        Pacific Economic Cooperation forum Energy Ministers a plan to 
        implement an agenda for financing energy efficiency and 
        renewable energy projects within the region.

  <bullet> Renewable Energy and Energy Efficiency Partnership: Formed 
        at the World Summit on Sustainable Development in Johannesburg, 
        South Africa, in August 2002, the Renewable Energy and Energy 
        Efficiency Partnership (REEEP) seeks to accelerate and expand 
        the global market for renewable energy and energy-efficiency 
        technologies. As the world's largest producer and consumer of 
        renewable energy, and with more renewable energy generation 
        capacity than Germany, Denmark, Sweden, France, Italy, and the 
        United Kingdom combined, the United States is one of 17 
        countries who are partners in REEEP. The United States also 
        actively participated in the Renewables 2004 conference 
        sponsored by the German Government in June 2004, and submitted 
        five action items intended to provide specific technology plans 
        and cost targets for renewable energy technologies using solar, 
        biomass, wind, and geothermal resources.

Closing Remarks
    The Bush Administration has developed a comprehensive strategy on 
climate change that is informed by science, emphasizes innovation and 
technological solutions, and promotes international collaboration to 
support the UNFCCC objective.
    Further, the Administration remains committed to the UNFCCC and to 
the mutual goals of economic growth and energy security. The President 
has an ambitious near-term goal to reduce the greenhouse gas emission 
intensity of the U.S. economy, and is taking many actions to help meet 
that goal. We are also investing billions of dollars on advancing 
climate science and accelerating the development of advanced 
technologies--such as hydrogen, carbon sequestration, advanced nuclear 
power, and fusion energy--that have the potential to transform energy 
systems. And we are fully engaged internationally and lead major 
multilateral and bilateral climate change science and technology 
initiatives, and will continue to cooperate with all nations.
    Although the scientific and technology challenges are considerable, 
the President remains committed to leading the way on climate change at 
home and around the world.

    Senator Vitter. Thank you, Mr. Conover, we want to welcome 
Chairman Stevens, Mr. Chairman, thank you for being here. Now 
we'll go to Mr. Reifsnyder.

          STATEMENT OF DANIEL A. REIFSNYDER, DIRECTOR,

         OFFICE OF GLOBAL CHANGE, BUREAU OF OCEANS AND

      INTERNATIONAL ENVIRONMENTAL AND SCIENTIFIC AFFAIRS,

                      DEPARTMENT OF STATE

    Mr. Reifsnyder. Thank you, Mr. Chairman.
    Mr. Chairman and Members of the Subcommittee, I'm pleased 
to have this opportunity to appear before you today to discuss 
the outcome with respect to climate change of the recent G8 
Summit in Scotland, international meetings occurring later this 
year, and a brief overview of our bilateral and multilateral 
climate change agreements.
    With your permission, I have a longer statement I would 
like to submit for the record regarding the G8 Summit outcomes. 
Two key documents, the Leader's Statement on Climate Change, 
Clean Energy and Sustainable Development, and the Gleneagles 
Plan of Action supporting the strategies set forth by the 
President were produced. The G8 leaders affirmed that, and I 
quote, ``We face serious and linked challenges in tackling 
climate change, promoting clean energy and achieving 
sustainable development globally.''
    The G8 leaders agreed that the Gleneagles Program of 
Action, a broad-based practical program of over 50 activities 
to address climate change, to secure clean and affordable 
sources of energy, and to promote sustainable development over 
the coming decades. The Gleneagles Program of Action calls for 
taking forward actions in six areas, including transforming the 
way we use energy, powering a cleaner future, promoting 
research and development, financing the transition to cleaner 
energy, managing the impact of climate change, and tackling 
illegal logging.
    Turning to future international meetings as part of the 
implementation of Gleneagles--G8 leaders agreed to take forward 
a dialogue on climate change, clean energy, and sustainable 
development, inviting other interested countries with 
significant energy needs to join them. We understand that the 
United Kingdom plans to host a meeting in London on November 1 
to this end, I have no additional details on this meeting at 
the moment, but we anticipate that it will focus on the 
specific elements of the Gleneagles Plan of Action, and seek to 
build on them.
    The conference of the parties to the United Nations 
Framework Convention on Climate Change will hold its 11th 
session in Montreal from November 28 to December 9, 2005. As 
the Kyoto Protocol entered into force on February 16 of this 
year, the Montreal meeting will also be the first meeting of 
the parties under that instrument. We intend to carry forward 
our message, as we have in the last two COPs, and anticipate 
that it will have increased resonance as a result of the 
positive G8 outcomes. At those previous COPs, we have 
highlighted all that the United States is doing with respect to 
science and technology, and with respect to our domestic 
actions and international partnerships related to climate 
change.
    Turning to our multilateral and bilateral initiatives, 
since June of 2001, the United States has launched 14 bilateral 
or regional partnerships to address climate change, and 
encompassing over 400 collaborative activities with developing 
and developed countries. These partnerships have, at their 
core, the principle that successful climate change policy must 
serve a larger purpose of fostering prosperity and well-being 
for citizens around the globe.
    In recent years, the United States has launched a number of 
multilateral initiatives that address both near-term and 
longer-term issues related to climate change, science and 
technology, as well as near-term efforts to increase energy 
supplies, while reducing greenhouse gas emissions.
    Mr. Chairman, inasmuch as Mr. Conover mentioned, some of 
these specific initiatives, the only one I would like also to 
mention here is the Earth Observation Summit that was held in 
Washington, D.C., in July 2003, to develop a comprehensive, 
coordinated and sustained Earth Observation System of Systems. 
That effort is well underway, as the newly formed group on 
observations seeks to meet the multiple targets in its 10-year 
implementation plan. But over 60 countries and 30 international 
organizations are now participating in this effort, and an 
International Secretariat has been established in Geneva, at 
the invitation of the World Meteorological Organization.
    Mr. Chairman, I hope that my testimony this morning conveys 
the sense of the vast extent to which the United States is 
working internationally with multiple partners to reduce 
greenhouse gas intensity and promote energy-efficient 
technologies, while also placing primary importance on 
supporting economic growth and prosperity. We see economic 
growth and addressing the climate change problem and energy 
security as integrally related. Thank you for this opportunity 
to testify before the Subcommittee on behalf of the Department 
of State. I would be pleased to answer any questions.
    [The prepared statement of Mr. Reifsnyder follows:]

Prepared Statement of Daniel A. Reifsnyder, Director, Office of Global 
     Change, Bureau of Oceans and International Environmental and 
                Scientific Affairs, Department of State
    Mr. Chairman and Members of the Subcommittee, I am Dan Reifsnyder, 
Director of the Office of Global Change in the Bureau of Oceans and 
International Environmental and Scientific Affairs at the Department of 
State. I am very pleased to have this opportunity to appear before you 
today to discuss the outcome of the recent G8 Summit in Gleneagles, 
Scotland, and upcoming international climate forums in London and 
Montreal. I will also provide an overview of our bilateral climate 
agreements and our multilateral initiatives, as requested by Chairman 
Vitter.
G8 Outcomes
    The G8 Meeting produced two key documents: (1) the Leaders' 
Statement on Climate Change, Clean Energy and Sustainable Development, 
and (2) the Gleneagles Plan of Action. Both proved highly successful 
for the United States in that they support the strategy set forth by 
the President. Specifically, the Leaders noted that:

        ``We face serious and linked challenges in tackling climate 
        change, promoting clean energy and achieving sustainable 
        development globally.''

    In other words, addressing the climate challenge is inextricably 
linked to our efforts to promote clean energy and to achieve 
sustainable development. As President Bush said in his speech at the 
Freer Gallery on June 30, 2005:

        ``. . . Overcoming extreme poverty goes hand-in-hand with 
        improving the environment. Stagnant economies are one of the 
        greatest environmental threats in our world. People who lack 
        food and shelter, and sanitation cannot be expected to preserve 
        the environment at the expense of their own survival. Poor 
        societies cannot afford to invest in cleaner, more efficient 
        technologies. Indira Gandhi spoke of poverty and need as the 
        greatest polluters. The long-term answer to environmental 
        challenges is the rapid, sustained economic progress of poor 
        nations.''

        The G8 Leaders also affirmed that:

        ``While uncertainties remain in our understanding of climate 
        science, we know enough to act now to put ourselves on a path 
        to slow and, as the science justifies, stop and then reverse 
        the growth of greenhouse gases.''

        They said that:

        ``Tackling climate change and promoting clean technologies, 
        while pursuing energy security and sustainable development, 
        will require a global concerted effort over a sustained 
        period.''

    Therefore, G8 Leaders agreed to the Gleneagles Program of Action, a 
broad-based, practical program of over fifty activities that will 
promote efforts to address climate change, to secure clean and 
affordable sources of energy, and to promote sustainable development 
over the coming decades.
    The Gleneagles Program of Action calls for taking forward over 
fifty specific actions in six key areas:

        ``(1) Transforming the way we use energy,'' including in 
        buildings, appliances, surface transport, aviation and 
        industry;

        ``(2) Powering a cleaner future,'' with specific reference to 
        cleaner fossil fuels, renewable energy and electricity grids;

        ``(3) Promoting research and development'';

        ``(4) Financing the transition to cleaner energy'';

        ``(5) Managing the impact of climate change,'' including with 
        respect to monitoring and data interpretation and risk 
        management; and

        ``(6) Tackling illegal logging.''

    The Gleneagles Program of Action puts forward one of the most 
practical work programs in this area agreed to date by international 
partners. By focusing on areas that can achieve both near--and long--
term benefits in multiple areas, it represents a promising effort that 
can engage developing countries, which have long indicated they are not 
prepared to accept negotiated international targets on greenhouse gas 
emissions.
    We are also pleased that four of the multilateral initiatives 
launched by the United States are specifically endorsed in these G8 
documents, including the:

        (1) Carbon Sequestration Leadership Forum (CSLF)

        (2) International Partnership for the Hydrogen Economy (IPHE)

        (3) Methane to Markets Partnership (M2M) and

        (4) Group on Earth Observations (GEO)

    I will describe each of these with more specificity a bit later.
G8 London Meeting
    As part of the implementation of Gleneagles, G8 leaders agreed to 
take forward a Dialogue on Climate Change, Clean Energy and Sustainable 
Development, inviting other interested countries with significant 
energy needs to join them. They specifically committed to:

        ``(a) address the strategic challenge of transforming our 
        energy systems to create a more secure and sustainable future;

        (b) monitor implementation of the commitments made in the 
        Gleneagles Plan of Action and explore how to build on this 
        progress; and

        (c) share best practice between participating governments.

    We understand that the United Kingdom plans to host a meeting in 
London on November 1 to take forward the Dialogue on Climate Change, 
Clean Energy and Sustainable Development. I have no additional details 
on this meeting at the moment, but we anticipate that it will focus on 
the specific elements of the Gleneagles Plan of Action and seek to 
build on them.
Montreal Meeting of the U.N. Framework Convention on Climate Change 
        (UNFCCC)
    The Conference of the Parties (COP) to the United Nations Framework 
Convention on Climate Change will hold its 11th Session in Montreal 
from November 28 to December 9, 2005. Under Secretary of State for 
Global Affairs Paula J. Dobriansky will head the U.S. delegation to 
this meeting. As the Kyoto Protocol entered into force on February 16 
of this year, the Montreal meeting will also be the first ``meeting of 
the Parties (MOP)'' under that instrument.
    While the COP and the MOP will take separate decisions, reflecting 
the different legal instruments involved and the different membership 
in these two bodies, there will be a joint ``High Level Segment'' from 
December 7-9. It is likely that statements of ministers and other heads 
of delegation will take up a good portion of the time, rather than the 
more interactive and successful roundtables that characterized the High 
Level Segments of COP-9 in Milan and COP-10 in Buenos Aires. In 
addition, there will be a heavy workload under the MOP as the Parties 
to that instrument seek to adopt the ``Marrakech Accords'' and other 
decisions to begin implementing the Kyoto Protocol.
    We intend to carry forward our message, as we have in the last two 
COPs, and anticipate that it will have increased resonance as a result 
of the positive G8 outcomes. At those previous COPs, we have 
highlighted all that the United States is doing with respect to science 
and technology, and with respect to our domestic actions and 
international partnerships related to climate change.
Bilateral Climate Partnerships
    Since June 2001, the United States has launched 14 bilateral or 
regional partnerships to address climate change, encompassing over 400 
collaborative activities with developing countries, such as Brazil, 
Central American countries as a group (including Costa Rica, El 
Salvador, Guatemala, Honduras, Nicaragua, and Panama), China, India, 
South Korea, Mexico, and South Africa. Bilateral initiatives with 
partners in the developed world include those with Australia, Canada, 
the European Commission, Italy, Japan, New Zealand, and the Russian 
Federation. These partnerships have at their core the principle that 
successful climate change policy must serve a larger purpose of 
fostering prosperity and well-being for citizens around the globe. 
These partnerships have resulted in joint projects on climate change 
science, clean and advanced energy technologies, carbon capture, 
storage and sequestration, and policy approaches to greenhouse gas 
emissions.
Global Environment Facility
    Another example of international cooperation is the Global 
Environment Facility (GEF), the financial mechanism under the UNFCCC. 
The United States is one of the largest contributors to the GEF. 
President Bush's Fiscal Year 2006 budget includes a $107.5 million 
request for the GEF. The GEF focuses on innovative and generally small 
scale projects and funds only the incremental costs involved in 
producing global environmental benefits. Our commitment will fund 
technology transfer and capacity building in developing countries. The 
GEF has committed about $5.4 billion to date, leveraging over $17 
billion from other sources, including the private sector, international 
development banks and organizations, governments, NGO's, and bilateral 
agencies. The GEF has designed and initiated nearly 1,600 investment 
and capacity building projects that are now being implemented by 
developing countries with the help of ten agencies, including the U.N. 
Development Program and the International Fund for Agricultural 
Development. It has also provided nearly 5,000 small grants directly to 
NGO's and community groups in over 70 countries.
Multilateral Initiatives
    In recent years, the United States has launched a number of 
multilateral initiatives that address both near-term and longer-term 
issues related to climate change science and technology as well as near 
term efforts to increase energy supplies while reducing greenhouse gas 
emissions.
Carbon Sequestration Leadership Forum
    The Department of State worked with the Department of Energy to 
launch the Carbon Sequestration Leadership Forum (CSLF) in June 2003. 
The CSLF, which now includes 17 countries and the European Commission, 
focuses on the development of improved, cost-effective technologies for 
the separation, capture, transport, and long-term storage of carbon 
dioxide in geological formations. Brazil, China, Colombia, India, 
Mexico, and South Africa participate in this cooperative framework 
along with numerous partners in the developed world.
International Partnership for the Hydrogen Economy
    The Department of State also worked closely with the Department of 
Energy to launch the International Partnership for the Hydrogen Economy 
in November 2003 at a ministerial meeting in Washington, D.C. With 17 
members, the IPHE provides a forum in which to organize and coordinate 
multinational research, development, and deployment of programs to 
advance the transition to a global hydrogen economy. Among developing 
countries, partners include Brazil, China, and India. IPHE partners are 
working together in such areas as hydrogen production and 
infrastructure, hydrogen storage, and codes and standards. The 
partnership addresses interests in both stationary and mobile sources 
of hydrogen as well as fuel cells and seeks to foster implementation of 
large-scale, long term public-private cooperation to advance research, 
development, demonstration, and commercial use of these technologies. 
Our goal is to make fuel cell vehicles commercially available by 2020, 
in line with the President's commitments with respect to both Freedom 
Fuels and FreedomCAR.
Methane to Markets Partnership
    The Department of State worked closely with the Environmental 
Protection Agency, the Department of Energy, and the U.S. Agency for 
International Development to launch the Methane to Markets partnership 
at a ministerial meeting in Washington, D.C., in November 2004. The 
Partnership is designed to help promote energy security and reduce 
greenhouse gas emissions through cost-effective, near-term recovery and 
use of methane. Through this partnership, the United States and 15 
other countries, including Argentina, Australia, Brazil, Canada, China, 
Colombia, India, Italy, Japan, Mexico, Nigeria, Russia, South Korea, 
Ukraine, and the United Kingdom, target methane from oil and gas 
activities, in coal beds and from landfills. By facilitating 
international cooperation, the Partnership has the potential to recover 
up to 500 billion cubic feet of methane annually by 2015, leading to 
the development of new and cleaner energy sources that stimulate 
economic growth and improve the environment. President Bush has pledged 
to commit up to $53 million to the Partnership over the next 5 years.
Group on Earth Observations
    The United States held an Earth Observations Summit in Washington, 
D.C. in July 2003 to launch a multilateral effort to establish an 
intergovernmental, comprehensive, coordinated, and sustained Earth 
observation system. Continuous monitoring of the state of the Earth 
will improve our understanding of and ability to predict dynamic Earth 
processes and will provide timely, high-quality, long-term, global 
information as a basis for sound decisionmaking about climate change as 
well as for several other areas of societal benefit.
    Through two succeeding ministerial meetings (in Tokyo in April 2004 
and in Brussels in February 2005) a 10-year Implementation Plan for the 
Global Earth Observation System of Systems (GEOSS) was adopted, and the 
intergovernmental Group on Earth Observations was established to begin 
implementation of the 2-, 6-, and 10-year targets identified in the 
plan. Over 60 countries and 30 international organizations are now 
participating in this effort, and an international secretariat has been 
established in Geneva at the invitation of the World Meteorological 
Organization.
    The United States Group on Earth Observations (USGEO), a 
subcommittee of the National Science and Technology Council Committee 
on Environment and Natural Resources coordinates the development of the 
Integrated Earth Observation System (IEOS) which is the U.S. 
contribution to GEOSS. GEOSS and IEOS will facilitate the sharing and 
applied usage of global, regional, and local data from satellites, 
ocean buoys, weather stations and other surface and airborne Earth 
observing instruments.
GEN-IV International Forum
    We are improving the reliability of nuclear power, which is already 
an important greenhouse gas emissions-free energy source in many parts 
of the world. In 2001, the Department of Energy launched the Generation 
IV International Forum (GEN-IV), in which ten nations and Euratom are 
working together on the next generation of nuclear power that will be 
safer, more affordable, and more proliferation-resistant. These 
advanced nuclear technologies will help provide a clean, stable, and 
abundant source of energy while reducing the global demand for fossil 
fuels. We are working closely with the Department of Energy on this 
initiative.
ITER
    The United States has rejoined an effort to build an experimental 
fusion energy reactor. ITER's members include China, the European 
Union, Japan, the Russian Federation, and South Korea. Fusion holds 
enormous promise as a potential source of clean, unlimited energy and 
is another component in the suite of technologies that comprise our 
long-term vision of developing and deploying transformational energy 
technologies as the key to energy security and reduction of GHG 
emissions. With the recent agreement to site the $5 billion 
experimental reactor in Cadarache, France, we look forward to continued 
progress in this endeavor.
Tropical Forest Conservation
    Many of our international activities also help to promote the 
biological sequestration of carbon dioxide, an important tool for 
addressing climate change that can have benefits both for conservation 
and climate change. The Tropical Forest Conservation Act (TFCA) offers 
eligible developing countries opportunities to reduce concessional debt 
owed to the United States while generating local currency funds to 
support programs to conserve tropical forests. Since 1998, the United 
States has concluded nine TFCA agreements with eight countries that 
will generate more than $95 million for tropical forest conservation 
over the next 10-25 years. Three U.S.-based international NGO's (The 
Nature Conservancy, the World Wildlife Fund, and Conservation 
International) contributed approximately $7.5 million to six of the 
nine agreements, thereby increasing the amount of debt we were able to 
treat. TFCA agreements have been concluded with Bangladesh, Belize, 
Colombia, El Salvador, Jamaica, Panama (two agreements), Peru, and the 
Philippines. In Fiscal Year 2006, the Administration has requested a 
total of approximately $100 million for certain debt restructuring 
programs. These programs include bilateral Heavily Indebted Poor 
Countries (HIPC) and poorest country debt reduction, contributions to 
the HIPC Trust Fund and TFCA debt reduction.
Illegal Logging
    In 2003, the Department of State launched the President's 
Initiative Against Illegal Logging (PIAIL) to assist developing 
countries to combat illegal logging and the sale and export of 
illegally harvested timber products. This initiative represents the 
most comprehensive strategy undertaken by any nation to address this 
critical sustainable development challenge and reinforces U.S. 
leadership in taking action to counter the problem and conserve forest 
resources that store carbon.
Concluding Remarks
    Mr. Chairman, I hope that my testimony this morning conveys a sense 
of the vast extent to which the United States is working to reduce 
greenhouse gas intensity and promote energy efficient technologies, 
while also placing primary importance on supporting economic growth and 
prosperity. We see economic growth, addressing the climate change 
problem, and energy security as integrally related. Meeting the 
challenge of the expected future growth in global energy demand, and 
reducing greenhouse gas emissions, will require a transformation in the 
way the world produces and consumes energy over the next generation and 
beyond. This is why we are leading global efforts to develop and deploy 
breakthrough technologies for both the developed and developing world.
    I thank you for this opportunity to testify before this 
Subcommittee on behalf of the Department of State. I would be pleased 
to answer any questions you may have.

    Senator Vitter. Thank you, Mr. Reifsnyder, Dr. Cicerone?

  STATEMENT OF RALPH J. CICERONE, Ph.D., PRESIDENT, NATIONAL 
                      ACADEMY OF SCIENCES

    Dr. Cicerone. Thank you, Mr. Chairman, Senator Lautenberg, 
for the opportunity. I just moved here recently from California 
where I was Chancellor of one of the U.C. campuses and 
Professor of Chemistry and Professor of Earth Systems Science. 
I should have known about the humidity in Washington, but I 
didn't, so I'm learning firsthand.
    This morning I'll be----
    Senator Vitter. Being from Louisiana, I would just note, 
this is spring-like weather.
    [Laughter.]
    Dr. Cicerone. Thank you. With your permission, I'd like to 
submit some written testimony as well, and so I'll summarize 
briefly.
    The current state of scientific understanding of climate 
change, basing largely on findings and recommendations that 
Academies reports have come up with over the last 15 years or 
so, these reports are almost always the products of a study 
process that brings together scientists, engineers, public 
health officials, and other experts to provide a consensus 
reading and advice to the Nation on specific scientific and 
technical questions.
    First of all, the Earth is warming, as Senator Lautenberg 
and Senator Vitter said earlier. Our record is based on 
hundreds of millions of temperature measurements over the last 
140 years or so from weather stations and ship-based 
observations. One common measure is the Planetary Average 
Surface Temperature, it's increased about seven-tenths of a 
degree Fahrenheit just since the mid-1970s, and in my written 
testimony I have a figure of such data from one of the data 
sources, there are several. And although the magnitude of this 
warming varies locally, the warming trend is very widespread. 
It is consistent with an array of other evidence, such as 
melting glaciers and ice caps, sea level rise, extended growing 
seasons that have been observed, and changes in the 
geographical distributions of plant and animal species.
    The ocean, which represents the largest single reservoir of 
heat in the climate system because of the heat capacity of 
water, has itself warmed by a little bit more than a tenth of a 
degree, just in the last 12 years or so, in the surface layer 
that extends down to about 750 foot depth. Going back further, 
laboratory measurements of gases which have been extracted from 
dated ice cores around the world's glaciers have shown that for 
hundreds of thousands of years, the changes in temperature, 
that themselves can be deduced from isotopic contents of the 
ice, have closely tracked atmospheric carbon dioxide 
concentrations. Carbon dioxide in the atmosphere is now at the 
highest level in the last 400,000 years, and it continues to 
rise, and it's due mostly from the burning of fossil fuels for 
our energy needs.
    Nearly all climate scientists today believe that much of 
Earth's current warming has been caused by the increases in 
these greenhouse gases in the air. One of the other ideas is 
that changes in the sun's total brightness could be causing the 
recently observed warming, say over the past century, have 
become much more difficult to accept, due to the fact that 
humans have been measuring the sun carefully enough over the 
last 25 years to show that there is no detectable trend in the 
sun's brightness.
    Computations of future climate change project that in this 
current century, global surface temperatures are going to 
continue to rise. The range of such temperature increases from, 
say, two and a half to 10 degrees Fahrenheit, above the levels 
of 15 years ago, difficult to pin down the range any more than 
that, for example, because we don't know society's own future 
actions--we don't know what human numbers will be, we don't 
know economic growth rates and energy use practices underlying 
that. On the other hand, we can say the warming will continue, 
for example, because some latent warming is built into the 
system already, due to a lack of equilibrium in the energy 
balance on the planetary energy balance.
    However, while future climate change details and regional 
impacts are inherently uncertain, they're far from unknown. The 
combined effects of ice melting and sea water expansion from 
ocean warming alone will likely cause the global average sea 
level to rise by, oh, say a half a meter, plus or minus four 
tenths of a meter in this coming century, and in colder 
climates, such warming could bring longer growing seasons and 
less severe winters. However, those in coastal communities--
especially developing nations--will be vulnerable to increased 
flooding due to sea level rise and storm surges on top of the 
mean sea level, and it's also likely that we will experience 
more severe storms and surges.
    In the Arctic regions, where temperatures have risen much 
more than the global average, the landscape and ecosystems are 
being altered rapidly, however, in my own opinion, we're not 
exactly sure why. The National Academies have tried very hard, 
when requested, to provide advice to Federal agencies that 
conduct climate change research, now for well over two decades, 
and recently--as Dr. Mahoney said--the Academy has assisted the 
U.S. Climate Change Science Program, by reviewing its 10 year 
strategic plan. And in the 2004 review, the Academy recommended 
that the plan be implemented as soon as possible, recognized 
hurdles, complimented the strategic planning involved, the 
scope of it, and did make comments on the budget perhaps not 
being--as it's currently arranged, at least--capable of 
supporting all of the activities in the strategic plan.
    We do have working arrangements with Dr. Mahoney's office 
and several other Federal agencies to continue to provide 
critical review, using experts from inside the government and 
outside the government on program priorities implementation, 
strategy and progress. The Academy is, I hope, fully engaged, 
and we'll do the best we can to provide independent assessments 
and advice at every stage.
    I'll just conclude by saying that the overall task of 
mitigating and preparing for the impacts of climate change will 
require worldwide collaborative efforts and inputs from a wide 
range of experts, including government leaders, and government 
at all levels--business leaders, natural scientists, engineers, 
social scientists, medical people, and economists. And although 
the scientific understanding of climate change has advanced 
significantly in the last several decades, there are still many 
unanswered questions. We all have increased pressure and 
incentive to decide how best to respond, and I hope that we can 
continue to work together to do that, thank you.
    [The prepared statement of Dr. Cicerone follows:]

      Prepared Statement of Ralph J. Cicerone, Ph.D., President, 
                      National Academy of Sciences
    Good morning, Mr. Chairman and Members of the Committee. My name is 
Ralph Cicerone, and I am President of the National Academy of Sciences. 
Prior to this position, I served as Chancellor of the University of 
California at Irvine, where I also held the Daniel G. Aldrich Chair in 
Earth System Science. In addition, in 2001, I chaired the National 
Academies committee that wrote the report, Climate Change Science: An 
Analysis of Some Key Questions, at the request of the White House.
    This morning I will summarize briefly the current state of 
scientific understanding on climate change, based largely on the 
findings and recommendations in recent National Academies' reports, 
focusing especially on the 2001 report that I chaired and the 2003 
report Implementing Climate and Global Change Research, in which the 
U.S. Climate Change Science Program strategic plan was reviewed. These 
reports are the products of a study process that brings together 
leading scientists, engineers, public health officials, and other 
experts to provide consensus advice to the Nation on specific 
scientific and technical questions. The recent statement on climate 
change issued by the G8 countries, China, India, and Brazil is also 
based on findings in these and other reports of the National Academies.
Science of Climate Change
    The Earth is warming. Weather station records and ship-based 
observations indicate that global mean surface air temperature 
increased about 0.7 +F (0.4 +C) since the early 1970s (See Figure). 
Although the magnitude of warming varies locally, the warming trend is 
spatially widespread and is consistent with an array of other evidence 
(e.g., melting glaciers and ice caps, sea level rise, extended growing 
seasons, and changes in the geographical distributions of plant and 
animal species). The ocean, which represents the largest reservoir of 
heat in the climate system, has warmed by about 0.12 +F (0.06 +C) 
averaged over the layer extending from the surface down to 750 feet, 
since 1993.
    Laboratory measurements of gases trapped in dated ice cores have 
shown that for hundreds of thousands of years, changes in temperature 
have closely tracked atmospheric carbon dioxide concentrations. Burning 
fossil fuel for energy, industrial processes, and transportation 
releases carbon dioxide to the atmosphere. Carbon dioxide in the 
atmosphere is now at its highest level in 400,000 years and continues 
to rise. Nearly all climate scientists today believe that much of 
Earth's current warming has been caused by increases in the amount of 
greenhouse gases in the atmosphere, mostly from the burning of fossil 
fuels. In fact, recent analyses of measurements of the Sun's total 
brightness argue against any detectable long-term trend in the energy 
Earth receives from the Sun, making it difficult to conclude that the 
Sun has been responsible for the warming observed over the past 25 
years.
    Carbon dioxide can remain in the atmosphere for many decades, and 
major parts of the climate system respond slowly to changes in 
greenhouse gas concentrations. The slow response of the climate system 
to increasing greenhouse gases also means that changes and impacts will 
continue during the twenty-first century and beyond, even if emissions 
were to be stabilized or reduced in the near future.
    Simulations of future climate change project that, by 2100, global 
surface temperatures will be from 2.5 to 10.4 +F (1.4 to 5.8 +C) above 
1990 levels. Pinpointing the magnitude of future warming is hindered 
both by remaining gaps in understanding the science, and by the fact 
that it is difficult to predict society's future actions, particularly 
in the areas of population growth, economic growth, and energy use 
practices. Other scientific uncertainties about future climate change 
relate to the regional effects of climate change, and how climate 
change will affect the frequency and severity of weather events.
    It is important to recognize however, that while future climate 
change and its impacts are inherently uncertain, they are far from 
unknown. The combined effects of ice melting and sea water expansion 
from ocean warming will likely cause the global average sea-level to 
rise by between 0.1 and 0.9 meters between 1990 and 2100. In colder 
climates, such warming could bring longer growing seasons and less 
severe winters. Those in coastal communities, many in developing 
nations, will experience increased flooding due to sea level rise, and 
are likely to experience more severe storms and surges. In the Arctic 
regions, where temperatures have risen more than the global average, 
the landscape and ecosystems are being altered rapidly.
National Academies Advice on U.S. Climate Change Research
    The National Academies have provided advice to the Federal agencies 
that conduct climate change research for over two decades. Recently, 
the National Academies assisted the U.S. Climate Change Science Program 
(CCSP) by reviewing its 10-year strategic plan. The 2004 review of the 
final strategic plan, recommended that it be implemented as soon as 
possible, although significant hurdles face the CCSP and participating 
agencies in doing so. For example, meeting all program goals will 
require advances in previously under-emphasized, but societally 
relevant elements of the program, including ecosystems, the water 
cycle, human dimensions, economics, impacts, adaptation, and 
mitigation, as well as further development of the program's decision 
support activities. The strategic plan identifies a much broader scope 
of activities than has historically been supported. However, the CCSP 
budget at the time did not appear to be capable of supporting all of 
the activities in the strategic plan. The National Academies' report 
also concluded that, given the political sensitivities associated with 
climate change, special measures may be needed to ensure the scientific 
independence and credibility of the program and its products.
    One of the recommendations from the 2004 National Academies' review 
to address these hurdles, was for the CCSP to establish a mechanism for 
independent oversight of the program as a whole. In June 2005, CCSP 
requested support from the National Academies in two new areas:

        1. A new CCSP Committee will provide ongoing, independent 
        advice on on program priorities and implementation strategy and 
        will evaluate progress toward meeting the program's goals. The 
        Committee also will facilitate, when requested by the sponsor 
        or participating agencies, (1) National Academies' reviews of 
        draft CCSP synthesis and assessment products, (2) National 
        Academies' reviews of draft prospectuses for CCSP synthesis and 
        assessment products, and (3) related analyses to bound the 
        uncertainty associated with the interpretation of scientific 
        findings.

        2. A committee is now being formed to undertake a comparative 
        study of relevant previous global change assessments conducted 
        around the world, in order to provide background information 
        for the assessments being prepared by CCSP. The committee will 
        evaluate several cases chosen to span the range of assessment 
        approaches in terms of geographic scale, subject matter scope, 
        entity responsible for conducting the assessment, and timing.

Concluding Remarks
    The task of mitigating and preparing for the impacts of climate 
change will require worldwide collaborative inputs from a wide range of 
experts, including natural scientists, engineers, social scientists, 
medical scientists, those in government at all levels, business 
leaders, and economists. Although the scientific understanding of 
climate change has advanced significantly in the last several decades, 
there are still many unanswered questions. Society faces increasing 
pressure to decide how best to respond to climate change and associated 
global changes, and applied research in direct support of 
decisionmaking is needed.
    The written testimony that follows describes in more detail 
important findings and recommendations from a number of recent National 
Academies' reports on climate change.
U.S. Climate Change Research
The Earth Is Warming
    The most striking evidence of a global warming trend are closely 
scrutinized data that show a relatively rapid increase in temperature, 
particularly over the past 30 years. Weather station records and ship-
based observations indicate that global mean surface air temperature 
increased about 0.7 +F (0.4 +C) since the early 1970s (See Figure). 
Although the magnitude of warming varies locally, the warming trend is 
spatially widespread and is consistent with an array of other evidence 
(e.g., melting glaciers and ice caps, sea level rise, extended growing 
seasons, and changes in the geographical distributions of plant and 
animal species).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The ocean, which represents the largest reservoir of heat in the 
climate system, has warmed by about 0.12 +F (0.06 +C) averaged over the 
layer extending from the surface down to 750 feet, since 1993. Recent 
studies have shown that the observed heat storage in the oceans is what 
would be expected by a human-enhanced greenhouse effect. Indeed, 
increased ocean heat content accounts for most of the planetary energy 
imbalance (i.e., when the Earth absorbs more energy from the Sun than 
it emits back to space) simulated by climate models with mid-range 
climate sensitivity.
    The observed warming has not proceeded at a uniform rate. Virtually 
all the 20th century warming in global surface air temperature occurred 
between the early 1900s and the 1940s, and since the 1970s, with a 
slight cooling of the Northern Hemisphere during the interim decades. 
The troposphere warmed much more during the 1970s than during the two 
subsequent decades, whereas Earth's surface warmed more during the past 
two decades than during the 1970s. The causes of these irregularities, 
and the disparities in the timing, are not completely understood.
    A National Academies' report released in 2000, Reconciling 
Observations of Global Temperature Change, examined different types of 
temperature measurements collected from 1979 to 1999 and concluded that 
the warming trend in global-average surface temperature observations 
during the previous 20 years is undoubtedly real, and is substantially 
greater than the average rate of warming during the twentieth century. 
The report concludes that the lower atmosphere actually may have warmed 
much less rapidly than the surface from 1979 into the late 1990s, due 
both to natural causes (e.g., the sequence of volcanic eruptions that 
occurred within this particular 20-year period) and human activities 
(e.g., the cooling of the upper part of the troposphere resulting from 
ozone depletion in the stratosphere). The report spurred many research 
groups to do similar analyses. Satellite observations of middle 
troposphere temperatures, after several revisions of the data, now 
compare reasonably with observations from surface stations and 
radiosondes, although some uncertainties remain.
Humans Have Had an Impact on Climate
    Laboratory measurements of gases trapped in dated ice cores have 
shown that for hundreds of thousands of years, changes in temperature 
have closely tracked with atmospheric carbon dioxide concentrations. 
Burning fossil fuel for energy, industrial processes, and 
transportation releases carbon dioxide to the atmosphere. Carbon 
dioxide in the atmosphere is now at its highest level in 400,000 years 
and continues to rise. Nearly all climate scientists today believe that 
much of Earth's current warming has been caused by increases in the 
amount of greenhouse gases in the atmosphere. The degree of confidence 
in this conclusion is higher today than it was 10, or even 5 years ago, 
but uncertainties remain. As stated in the Academies 2001 report, ``the 
changes observed over the last several decades are likely mostly due to 
human activities, but we cannot rule out that some significant part of 
these changes is also a reflection of natural variability.''
    Carbon dioxide can remain in the atmosphere for many decades and 
major parts of the climate system respond slowly to changes in 
greenhouse gas concentrations. The slow response of the climate system 
to increasing greenhouse gases also means that changes and impacts will 
continue during the twenty-first century and beyond, even if emissions 
were to be stabilized or reduced in the near future.
    In order to compare the contributions of the various agents that 
affect surface temperature, scientists have devised the concept of 
``radiative forcing.'' Radiative forcing is the change in the balance 
between radiation (i.e., heat and energy) entering the atmosphere and 
radiation going back out. Positive radiative forcings (e.g., due to 
excess greenhouse gases) tend on average to warm the Earth, and 
negative radiative forcings (e.g., due to volcanic eruptions and many 
human-produced aerosols) on average tend to cool the Earth. The 
Academies recent report, Radiative Forcing of Climate Change: Expanding 
the Concept and Addressing Uncertainties (2005), takes a close look at 
how climate has been changed by a range of forcings. A key message from 
the report is that it is important to quantify how human and natural 
processes cause changes in climate variables other than temperature. 
For example, climate-driven changes in precipitation in certain regions 
could have significant impacts on water availability for agriculture, 
residential and industrial use, and recreation. Such regional impacts 
will be much more noticeable than projected changes in global average 
temperature of a degree or more.
    One area of debate has been the extent to which variations in the 
Sun might contribute to recent observed warming trends. Radiative 
Forcing of Climate Change: Expanding the Concept and Addressing 
Uncertainties (2005) also summarizes current understanding about this 
issue. The Sun's brightness--its total irradiance--has been measured 
continuously by a series of satellite-based instruments for more than 
two complete 11-year solar cycles. These multiple solar irradiance 
datasets have been combined into a composite time series of daily total 
solar irradiance from 1979 to the present. Different assumptions about 
radiometer performance lead to different reconstructions for the past 
two decades. Recent analyses of these measurements, taking into account 
instrument calibration offsets and drifts, argue against any detectable 
long-term trend in the observed irradiance to date. Likewise, models of 
total solar irradiance variability that account for the influences of 
solar activity features--dark sunspots and bright faculae--do not 
predict a secular change in the past two decades. Thus, it is difficult 
to conclude from either measurements or models that the Sun has been 
responsible for the warming observed over the past 25 years.
    Knowledge of solar irradiance variations is rudimentary prior to 
the commencement of continuous space-based irradiance observations in 
1979. Models of sunspot and facular influences developed from the 
contemporary data base have been used to extrapolate daily variations 
during the 11-year cycle back to about 1950 using contemporary sunspot 
and facular proxies, and with less certainty annually to 1610. 
Circumstantial evidence from cosmogenic isotope proxies of solar 
activity (\14\C and \10\Be) and plausible variations in Sun-like stars 
motivated an assumption of long-term secular irradiance trends, but 
recent work questions the evidence from both. Very recent studies of 
the long term evolution and transport of activity features using solar 
models suggest that secular solar irradiance variations may be limited 
in amplitude to about half the amplitude of the 11-year cycle.
Warming will continue, but its impacts are difficult to project
    The Intergovernmental Panel on Climate Change (IPCC), which 
involves hundreds of scientists in assessing the state of climate 
change science, has estimated that, by 2100, global surface 
temperatures will be from 2.5 to 10.4+F (1.4 to 5.8+C) above 1990 
levels. Similar projections of temperature increases, based on rough 
calculations and nascent theory, were made in the Academies first 
report on climate change published in the late 1970s. Since then, 
significant advances in our knowledge of the climate system and our 
ability to model and observe it have yielded consistent estimates. 
Pinpointing the magnitude of future warming is hindered both by 
remaining gaps in understanding the science and by the fact that it is 
difficult to predict society's future actions, particularly in the 
areas of population growth, economic growth, and energy use practices.
    One of the major scientific uncertainties is how climate could be 
affected by what are known as ``climate feedbacks.'' Feedbacks can 
either amplify or dampen the climate response to an initial radiative 
forcing. During a feedback process, a change in one variable, such as 
carbon dioxide concentration, causes a change in temperature, which 
then causes a change in a third variable, such as water vapor, which in 
turn causes a further change in temperature. Understanding Climate 
Change Feedbacks (2003) looks at what is known and not known about 
climate change feedbacks and identifies important research avenues for 
improving our understanding.
    Other scientific uncertainties relate to the regional effects of 
climate change and how climate change will affect the frequency and 
severity of weather events. Although scientists are starting to 
forecast regional weather impacts, the level of confidence is less than 
it is for global climate projections. In general, temperature is easier 
to predict than changes such as rainfall, storm patterns, and ecosystem 
impacts. It is very likely that increasing global temperatures will 
lead to higher maximum temperatures and fewer cold days over most land 
areas. Some scientists believe that heat waves such as those 
experienced in Chicago and central Europe in recent years will continue 
and possibly worsen. The larger and faster the changes in climate, the 
more difficult it will be for human and natural systems to adapt 
without adverse effects.
    There is evidence that the climate has sometimes changed abruptly 
in the past--within a decade--and could do so again. Abrupt changes, 
for example the Dust Bowl drought of the 1930s displaced hundreds of 
thousands of people in the American Great Plains, take place so rapidly 
that humans and ecosystems have difficulty adapting to it. Abrupt 
Climate Change: Inevitable Surprises (2002) outlines some of the 
evidence for and theories of abrupt change. One theory is that melting 
ice caps could ``freshen'' the water in the North Atlantic, shutting 
down the natural ocean circulation that brings warmer Gulf Stream 
waters to the north and cooler waters south again. This shutdown could 
make it much cooler in Northern Europe and warmer near the equator.
    It is important to recognize that while future climate change and 
its impacts are inherently uncertain, they are far from unknown. The 
combined effects of ice melting and sea water expansion from ocean 
warming will likely cause the global average sea-level to rise by 
between 0.1 and 0.9 meters between 1990 and 2100. In colder climates, 
such warming could bring longer growing seasons and less severe 
winters. Those in coastal communities, many in developing nations, will 
experience increased flooding due to sea level rise and are likely to 
experience more severe storms and surges. In the Arctic regions, where 
temperatures have risen almost twice as much as the global average, the 
landscape and ecosystems are being altered rapidly.
Observations and Data Are the Foundation of Climate Change Science
    There is nothing more valuable to scientists than the measurements 
and observations required to confirm or contradict hypotheses. In 
climate sciences, there is a peculiar relation between the scientist 
and the data. Whereas other scientific disciplines can run multiple, 
controlled experiments, climate scientists must rely on the one 
realization that nature provides. Climate change research requires 
observations of numerous characteristics of the Earth system over long 
periods of time on a global basis. Climate scientists must rely on data 
collected by a whole suite of observing systems--from satellites to 
surface stations to ocean buoys--operated by various government 
agencies and countries as well as climate records from ice cores, tree 
rings, corals, and sediments that help reconstruct past change.
Collecting and Archiving Data To Meet the Unique Needs of Climate 
        Change Science
    Most of the instrumentation and observing systems used to monitor 
climate today were established to provide data for other purposes, such 
as predicting daily weather; advising farmers; warning of hurricanes, 
tornadoes and floods; managing water resources; aiding ocean and air 
transportation; and understanding the ocean. However, collecting 
climate data is unique because higher precision is often needed in 
order to detect climate trends, the observing programs need to be 
sustained indefinitely and accommodate changes in observing technology, 
and observations are needed at both global scales and at local scales 
to serve a range of climate information users.
    Every report on climate change produced by the National Academies 
in recent years has recommended improvements to climate observing 
capabilities. A central theme of the report Adequacy of Climate 
Observing Systems (1999) is the need to dramatically upgrade our 
climate observing capabilities. The report presents ten climate 
monitoring principles that continue to be the basis for designing 
climate observing systems, including management of network change, 
careful calibration, continuity of data collection, and documentation 
to ensure that meaningful trends can be derived.
    Another key concept for climate change science is the ability to 
generate, analyze, and archive long-term climate data records (CDRs) 
for assessing the state of the environment in perpetuity. In Climate 
Data Records from Environmental Satellites (2004), a climate data 
record is defined as a time series of measurements of sufficient 
length, consistency, and continuity to determine climate variability 
and change. The report identifies several elements of successful 
climate data record generation programs, ranging from effective, expert 
leadership to long-term commitment to sustaining the observations and 
archives.
Integrating Knowledge and Data on Climate Change Through Models
    An important concept that emerged from early climate science in the 
1980s was that Earth's climate is not just a collection of long-term 
weather statistics, but rather the complex interactions or 
``couplings'' of the atmosphere, the ocean, the land, and plant and 
animal life. Climate models are built using our best scientific 
knowledge, first modeling each process component separately and then 
linking them together to simulate these couplings.
    Climate models are important tools for understanding how the 
climate operates today, how it may have functioned differently in the 
past, and how it may evolve in the future in response to forcings from 
both natural processes and human activities. Climate scientists can 
deal with uncertainty about future climate by running models with 
different assumptions of future population growth, economic 
development, energy use, and policy choices, such as those that affect 
air quality or influence how nations share technology. Models then 
offer a range of outcomes based on these different assumptions.
Modeling Capability and Accuracy
    Since the first climate models were pioneered in the 1970s, the 
accuracy of models has improved as the number and quality of 
observations and data have increased, as computational abilities have 
multiplied, and as our theoretical understanding of the climate system 
has improved. Whereas early attempts at modeling used relatively crude 
representations of the climate, today's models have very sophisticated 
and carefully tested treatment of hundreds of climate processes.
    The National Academies' report Improving Effectiveness of U.S. 
Climate Modeling (2001) offers several recommendations for 
strengthening climate modeling capabilities, some of which have already 
been adopted in the United States. At the time the report was 
published, U.S. modeling capabilities were lagging behind some other 
countries. The report identified a shortfall in computing facilities 
and highly skilled technical workers devoted to climate modeling. 
Federal agencies have begun to centralize their support for climate 
modeling efforts at the National Center for Atmospheric Research and 
the Geophysical Fluid Dynamics Laboratory. However, the U.S. could 
still improve the amount of resources it puts toward climate modeling 
as recommended in Planning Climate and Global Change Research (2003).
Climate Change Impacts Will Be Uneven
    There will be winners and losers from the impacts of climate 
change, even within a single region, but globally the losses are 
expected to outweigh the benefits. The regions that will be most 
severely affected are often the regions that are the least able to 
adapt. For example, Bangladesh, one of the poorest nations in the 
world, is projected to lose 17.5 percent of its land if sea level rises 
about 40 inches (1 m), displacing tens of thousands of people. Several 
islands throughout the South Pacific and Indian Oceans will be at 
similar risk of increased flooding and vulnerability to storm surges. 
Coastal flooding likely will threaten animals, plants, and fresh water 
supplies. Tourism and local agriculture could be severely challenged.
    Wetland and coastal areas of many developed nations including the 
United States are also threatened. For example, parts of New Orleans 
are as much as eight feet below sea level today. However, wealthy 
countries are much more able to adapt to sea level rise and threats to 
agriculture. Solutions could include building, limiting or changing 
construction codes in coastal zones, and developing new agricultural 
technologies.
    The Arctic has warmed at a faster rate than the Northern Hemisphere 
over the past century. A Vision for the International Polar Year 2007-
2008 (2004) reports that this warming is associated with a number of 
impacts including: melting of sea ice, which has important impacts on 
biological systems such as polar bears, ice-dependent seals and local 
people for whom these animals are a source of food; increased rain and 
snow, leading to changes in river discharge and tundra vegetation; and 
degradation of the permafrost.
Preparing for Climate Change
    One way to begin preparing for climate change is to make the wealth 
of climate data and information already collected more accessible to a 
range of users who could apply it to inform their decisions. Such 
efforts, often called ``climate services,'' are analogous to the 
efforts of the National Weather Service to provide useful weather 
information. Climate is becoming increasingly important to public and 
private decisionmaking in various fields such as emergency management 
planning, water quality, insurance premiums, irrigation and power 
production decisions, and construction schedules. A Climate Services 
Vision (2001) outlines principles for improving climate services that 
include making climate data as user-friendly as weather services are 
today, and active and well-defined connections among the government 
agencies, businesses, and universities involved in climate change data 
collection and research.
    Another avenue would be to develop practical strategies that could 
be used to reduce economic and ecological systems' vulnerabilities to 
change. Such ``no-regrets'' strategies, recommended in Abrupt Climate 
Change: Inevitable Surprises (2002), provide benefits whether a 
significant climate change ultimately occurs or not, potentially 
reducing vulnerability at little or no net cost. No-regrets measures 
could include low-cost steps to: improve climate forecasting; slow 
biodiversity loss; improve water, land, and air quality; and make 
institutions--such as the health care enterprise, financial markets, 
and transportation systems--more resilient to major disruptions.
Reducing the Causes of Climate Change
    The climate change statement issued in June 2005 by 11 science 
academies, including the National Academy of Sciences, stated that 
despite remaining unanswered questions, the scientific understanding of 
climate change is now sufficiently clear to justify nations taking 
cost-effective steps that will contribute to substantial and long-term 
reduction in net global greenhouse gas emissions. Because carbon 
dioxide and some other greenhouse gases can remain in the atmosphere 
for many decades and major parts of the climate system respond slowly 
to changes in greenhouse gas concentrations, climate change impacts 
will likely continue throughout the 21st century and beyond. Failure to 
implement significant reductions in net greenhouse gas emissions now 
will make the job much harder in the future--both in terms of 
stabilizing their atmospheric abundances and in terms of experiencing 
more significant impacts.
    At the present time there is no single solution that can eliminate 
future warming. As early as 1992, Policy Implications of Greenhouse 
Warming found that there are many potentially cost-effective 
technological options that could contribute to stabilizing greenhouse 
gas concentrations. These options range from personal choices such as 
driving less, to national choices such as regulating emissions, to 
international choices such as sharing energy technologies.
Meeting Energy Needs Is a Major Challenge to Slowing Climate Change
    Energy--either in the form of fuels used directly (i.e., gasoline) 
or as electricity produced using various fuels (fossil fuels as well as 
nuclear, solar, wind, and others)--is essential for all sectors of the 
economy, including industry, commerce, homes, and transportation. 
Energy use worldwide continues to grow with economic and population 
growth. Developing countries, China and India in particular, are 
rapidly increasing their use of energy, primarily from fossil fuels, 
and consequently their emissions of CO<INF>2</INF>. Carbon emissions 
from energy can be reduced by using it more efficiently or by switching 
to alternative fuels. It also may be possible to capture carbon 
emissions from electric generating plants and then sequester them.
    Energy efficiency in all sectors of the U.S. economy could be 
improved. The 2002 National Academies' report, Effectiveness and Impact 
of Corporate Average Fuel Economy (CAFE) Standards, evaluates car and 
light truck fuel use and analyzes how fuel economy could be improved. 
Steps range from improved engine lubrication to hybrid vehicles. The 
2001 Academies report, Energy Research at DOE, Was It Worth It? 
addresses the benefits of increasing the energy efficiency of lighting, 
refrigerators, and other appliances. Many of these improvements (e.g., 
high-efficiency refrigerators) are cost-effective means to 
significantly reducing energy use, but are being held back by market 
constraints such as consumer awareness, higher initial costs, or by the 
lack of effective policy.
    Electricity can be produced without significant carbon emissions 
using nuclear power and renewable energy technologies (e.g., solar, 
wind, and biomass). In the United States, these technologies are too 
expensive or have environmental or other concerns that limit broad 
application, but that could change with technology development, or if 
the costs of fossil fuels increase. Replacing coal-fired electric power 
plants with more efficient, modern natural gas-fired turbines would 
reduce carbon emissions per unit of electricity produced.
    Several technologies are being explored that would collect 
CO<INF>2</INF> that would otherwise be emitted to the atmosphere from 
fossil fuel-fired power plants, and then sequester it in the ground or 
the ocean. Successful, cost-effective sequestration technologies would 
weaken the link between fossil fuels and greenhouse gas emissions. The 
2003 National Academies' report, Novel Approaches to Carbon Management: 
Separation, Capture, Sequestration, and Conversion to Useful Products, 
discusses the development of this technology.
    Capturing CO<INF>2</INF> emissions from the tailpipes of vehicles 
is essentially impossible, which is one factor that has led to 
considerable interest in hydrogen as a fuel. As with electricity, 
hydrogen must be manufactured from primary energy sources. 
Significantly reducing carbon emissions when producing hydrogen from 
fossil fuels (currently the least expensive method) would require 
carbon capture and sequestration. Substantial technological and 
economic barriers in all phases of the hydrogen fuel cycle must first 
be addressed through research and development. The 2004 National 
Academies' report, The Hydrogen Economy: Opportunities, Costs, Barriers 
and R&D Needs, presents a strategy that could lead eventually to 
production of hydrogen from a variety of domestic sources--such as coal 
(with carbon sequestration), nuclear power, wind, or photo-biological 
processes--and efficient use in fuel cell vehicles.
National Academies Advice on U.S. Climate Change Research
Review of the 2003 U.S. Climate Change Science Program Strategic Plan
    Implementing Climate and Global Change Research (2004) reviewed the 
Strategic Plan for the U.S. Climate Change Science Program, released in 
July 2003. The report finds that the strategic plan articulates a 
guiding vision, is appropriately ambitious, and is broad in scope. It 
encompasses activities related to areas of long-standing importance, 
together with new or enhanced cross-disciplinary efforts. It 
appropriately plans for close integration with the complementary 
Climate Change Technology Program. The CCSP responded constructively to 
the National Academies' review and other community input in revising 
the strategic plan. In fact, the approaches taken by the CCSP to 
receive and respond to comments from a large and broad group of 
scientists and stakeholders, including a two-stage independent review 
of the plan, set a high standard for government research programs. As a 
result, the revised strategic plan includes the elements of a strategic 
management framework that could permit it to effectively guide research 
on climate and associated global changes over the next decades. 
Advancing science on all fronts identified by the program will be of 
vital importance to the Nation. The report recommends that the CCSP 
implement the activities described in the strategic plan with urgency.
    The revised strategic plan identifies a much broader scope of 
activities than has historically been supported under the auspices of 
the Global Change Research Program. To succeed, such an expansion in 
scope will require a concomitant expansion in funding. A fully informed 
assessment of whether adequate funding is available for the proposed 
program was not possible because the CCSP did not provide the committee 
with prospective budget information and because many of the objectives 
in the plan are too vaguely worded to determine what will constitute 
success. However, the CCSP budget at the time did not appear to be 
capable of supporting all of the activities in the strategic plan. 
While well-established program elements have a track record of funding, 
the newer or expanded areas in the strategic plan lack clear budget 
lines and agency homes, and are therefore likely to be under supported. 
The major expansion in climate modeling and the observing system that 
the plan calls for will also require an increase in funding above 
current levels. There is no evidence in the plan or elsewhere of a 
commitment to provide the necessary funds for these newer or expanded 
program elements. The report recommends that whatever the budget 
allocations, the CCSP and its parent committees: (1) develop a clear 
budgetary process linking tasks to agency and program budgets; (2) 
secure the financial resources, for the present and the future, that 
will ensure the overall success of the plan; and (3) consider new 
approaches to funding that will enable new initiatives and the shifting 
of resources to respond to the Nation's evolving needs.
    Significant hurdles face the CCSP and participating agencies as 
they implement the strategic plan. First, meeting all program goals 
will require advances in previously underemphasized but societally 
relevant elements of the program, including ecosystems, the water 
cycle, human dimensions, economics, impacts, adaptation, and 
mitigation, as well as further development of the program's decision 
support activities. Second, a clearer strategic approach is needed to 
achieve the necessary expansion of observation systems and modeling 
capabilities. Third, the management structure proposed by the CCSP is 
very complex, will require significant interagency cooperation, and is 
essentially untested. Fourth, given the political sensitivities 
associated with climate and associated global change, special measures 
may be needed to ensure the scientific independence and credibility of 
the program and its products. The report recommends that the CCSP 
establish a mechanism for independent oversight of the program as a 
whole in order to maintain its long-term scientific credibility. 
Likewise, the CCSP should ensure the credibility of synthesis and 
assessment products by producing them with independent oversight and 
review from the wider scientific and stakeholder communities throughout 
the process. Finally, the CCSP needs to evaluate the available capacity 
within the community to implement the plan, and address any capacity 
gaps that are revealed.
    The Nation and the global community will be better prepared to 
address the challenges of climate and associated global changes if the 
CCSP's vision and overarching goals are achieved. In this effort, the 
CCSP represents a transition from the science-based Global Change 
Research Program of the past decade to a program that employs science 
in the service of societal objectives. While many opportunities exist 
to improve the plan, as discussed in Implementing Climate and Global 
Change Research, the major challenge ahead is for vigorous 
implementation.
New National Academies Committee: Strategic Advice on the U.S. Climate 
        Change Science Program
    One of the recommendations of Implementing Climate and Global 
Change Research was for the CCSP to establish a mechanism for 
independent oversight of the program as a whole. In June 2005, CCSP 
asked the National Academies to establish a committee to provide 
independent advice on the strategy and evolution of the CCSP. This CCSP 
Committee will produce annual reports on specific topics mutually 
agreed upon by the program and the National Academies. Topics to be 
addressed during the first 3 years likely will include the following:

        (1) Strategic advice on program priorities and implementation 
        strategy in the context of scientific and societal objectives, 
        including the identification of high priority program areas not 
        supported in the past;

        (2) An evaluation of progress toward meeting the program's 
        goals; and

        (3) A high-level review of the program's decision support 
        activities in the context of the program's strategic goals.

    The committee also will facilitate, when requested by the sponsor 
or participating agencies, (1) National Academies' reviews of draft 
CCSP synthesis and assessment products, (2) National Academies' reviews 
of draft prospectuses for CCSP synthesis and assessment products, and 
(3) related analyses to bound the uncertainty associated with the 
interpretation of scientific findings.
New National Academies Study: Analysis of Global Change Assessments
    Assessments of global environmental changes and their effects on 
humans and ecosystems are increasingly being conducted to synthesize 
the state of knowledge, inform dialogue about policy and resource 
management decisions, and guide plans for future research. The 
scientific community invests significant time into conducting 
assessments. A better understanding is needed of the strengths and 
weaknesses of assessment processes and the value of the end products 
for achieving their overall purposes. This new study, requested by the 
CCSP in June 2005, will seek to identify lessons learned from a wide 
range of past assessments to guide future assessment activities of the 
CCSP. An ad hoc committee will conduct a comparative analysis of past 
assessments that have stated objectives broadly similar to those of the 
CCSP. The committee will evaluate several cases chosen to span the 
range of assessment approaches in terms of geographic scale, subject-
matter scope, entity responsible for conducting the assessment, and 
timing. The committee will provide specific advice about which 
purposes, approaches, and products are most effective for meeting the 
CCSP's stated objectives for assessments.
Concluding Remarks
    The task of mitigating and preparing for the impacts of climate 
change will require worldwide collaborative inputs from a wide range of 
experts, including natural scientists, engineers, social scientists, 
medical scientists, those in government at all levels, business 
leaders, and economists. Although the scientific understanding of 
climate change has advanced significantly in the last several decades, 
there are still many unanswered questions. Society faces increasing 
pressure to decide how best to respond to climate change and associated 
global changes, and applied research in direct support of 
decisionmaking is needed.
National Academies Reports Cited in the Testimony
    Radiative Forcing of Climate Change: Expanding the Concept and 
Addressing Uncertainties (2005)

    Climate Data Records from Environmental Satellites (2004)

    Implementing Climate and Global Change Research (2004)

    A Vision for the International Polar Year 2007-2008 (2004)

    The Hydrogen Economy: Opportunities, Costs, Barriers and R&D Needs 
(2004)

    Understanding Climate Change Feedbacks (2003)

    Planning Climate and Global Change Research (2003)

    Novel Approaches to Carbon Management: Separation, Capture, 
Sequestration, and Conversion to Useful Products (2003)

    Abrupt Climate Change: Inevitable Surprises (2002)

    Effectiveness and Impact of Corporate Average Fuel Economy (CAFE) 
Standards (2002)

    Climate Change Science: An Analysis of Some Key Questions (2001)

    Improving the Effectiveness of U.S. Climate Modeling (2001)

    A Climate Services Vision: First Steps Toward the Future (2001)

    Energy Research at DOE, Was It Worth It? (2001)

    Reconciling Observations of Global Temperature Change (2000)

    Adequacy of Climate Observing Systems (1999)

    Policy Implications of Greenhouse Warming (1992)

    Senator Vitter. Thank you very much, Doctor, now we'll move 
on to questions from the Subcommittee, I'll kick it off with 
Dr. Mahoney.
    Doctor, I wanted to focus and ask you a few things about 
climate models. Tell me what climate models you fund through 
your offices and activities, and something about how we develop 
those models and validate them--is there an independent 
validation process? What sort of data is used, and should we 
use taxpayer funds, generally speaking, for multiple models? 
What is your general philosophy on that?
    Dr. Mahoney. Thank you, Senator. The Climate Change Science 
Program, through its agencies, funds model development, 
evaluation and validation activities, principally through four 
agencies--that is, through ourselves in NOAA, where the climate 
models have, in part, grown out of our weather forecasting 
models, although I stress that the climate model development 
stands on its own right, and actually is largely conducted in 
another center, where we work a great deal to make sure that we 
take advantage of all the lessons learned from the shorter-term 
weather forecasting, and apply them into the longer-term 
modeling.
    Second, the National Science Foundation has had, for many 
years, a very significant climate model development activity, 
largely through its core support for the National Center for 
Atmospheric Research in Boulder, but that NCAR support, in 
turn, has emanated out to a very broad-based, what is called, 
Community Climate Model Development Activity that involves 
hundreds of climate scientists dealing not only with the 
computational models, but with the underlying processes that 
are necessary to capture in the models.
    Third, the Department of Energy has a long record of 
working on climate model development, and continues to do that, 
and fourth, NASA also has played a role in significant climate 
model development, also dating back to the 1980s.
    One fair question would be, why have these different groups 
doing this? I think that is a fair question, but the fair 
answer I would give is this is such an important area that I 
view it as an element of sort of the free market development of 
ideas, it's so important that we get exposed to the best 
possible modeling capability, that we would not want to put all 
of our bets on one particular group in an area which is core to 
the development of national skills here.
    Moving on to your question about validation and evaluation. 
When the prior international assessments, the work of the IPCC, 
the Intergovernmental Panel on Climate Change, which produced 
its third assessment in the year 2000, and is scheduled to 
produce its fourth assessment in the year 2007, and similarly 
when the national assessment conducted in the United States in 
the late 1990s were conducted, the models used for those 
exercises, state-of-the-art at the time, did not include the 
U.S. models because they were not considered to be as advanced 
as models available from the U.K., from other European sources, 
and from the Canadians.
    That situation, all modeling, has advanced substantially. I 
think we certainly believe that the advances in the U.S. 
modeling capability has really put our modeling efforts really 
at the forefront of this these days, and we see substantially 
more skill, and everything we're doing now in the U.S. is based 
on our models, in close collaboration with our international 
partners, and even in the IPCC international activity, the U.S. 
models will be a major contributor, and indeed the U.S. model 
runs were the first ones completed for use in IPCC assessments 
underway now.
    Just a final word on the validation--the broad issue, of 
course, is that related to looking back over the past 25 years, 
or sometimes the past century, to see how well the models work 
in so-called hindcasting, so we can better understand their 
ability to forecast going forward, and that activity has 
proceeded a great deal. At the core, though, is the question 
of, well, when we fit our parameters, since they're literally 
hundreds of parameters in the models, are we at risk that we've 
just parameter-ized, based on past data, so that we don't 
really have a good forecast going forward?
    With that in mind, the modeling community has done a great 
deal to deal with other methods of validation--looking at 
regional patterns, looking at shorter-term influences and the 
like, and in all of this, we've seen major improvement in these 
models. We have a large model validation effort which runs on a 
long-term basis, sponsored by DOE at Lawrence Livermore 
laboratory, and a program on climate model validation and 
interpretation. That activity is the core U.S. resource in this 
area that has logged very substantial improvements in recent 
years. Thank you.
    Senator Vitter. Thank you, Mr. Conover, briefly, what are 
some of the most promising technologies identified by the 
technology program, and could you briefly describe the 
technology transfer process, and how it could be improved, if 
you have any thoughts on that?
    Mr. Conover. Sure, thank you, Mr. Chairman. The intent of 
our program is to ensure that we maintain a diversified 
portfolio of research and development investments, the Federal 
Government doesn't have a particularly good track record on 
picking winners in the technology area, and so the idea is to 
ensure that we are funding a variety of promising technologies 
that can be brought to the marketplace, and where they will 
compete against one another in the marketplace, ultimately, 
then, determining which ones succeed and which ones fail.
    The President is committed to the hydrogen fuel initiative, 
that a child born today has an opportunity to drive a vehicle 
powered by hydrogen with zero emissions. We've been very 
successful--the Department through its Energy Efficiency and 
Renewable Energy program in advancing that goal--very promising 
area is in carbon sequestration, where we have established a 
network of seven regional consortia, with the University, state 
and local governments, industry all grappling with a variety of 
issues associated with carbon sequestration--what the 
technology needs to be, what the regulatory framework needs to 
be, how are we going to make sure that it is acceptable to 
local communities, et cetera. We're very excited about the 
prospects for the Future Gen Program, which is based on today's 
technology--integrated gasification and combined cycles for 
cleaner coal technology, but with an ability to separate out 
carbon dioxide, and then sequester the carbon dioxide, 
producing both electric power and a hydrogen stream that can be 
used for our transportation sector with zero emissions from the 
power generation itself.
    All of these projects are conducted in partnership with the 
private sector, the contribution of the private sector ranges 
from about 20 percent to 50 percent in any individual project, 
and what we have found is that as these technologies become 
more mature, the fact that the private sector actually has a 
stake in an individual research and development or 
demonstration project helps to ensure that the transfer 
ultimately, of the technology to the marketplace, will be 
smooth.
    We have an ongoing effort on an annual basis to evaluate 
and monitor our technology transfer activities, both within the 
Department and through our network of national laboratories, 
and I think most people are perhaps surprised to learn that the 
first largest investment in our portfolio is energy efficiency 
R&D, but the second is deployment. So with respect, I believe, 
that we have a very good track record on deploying these 
technologies, obviously things like hydrogen and sequestration 
are some years down the road, but there is a robust public/
private partnership that bodes well for the future and 
transferring these technologies into the marketplace.
    Senator Vitter. Thank you, Mr. Conover, I'll come back to 
the other witnesses, but let me move on to Senator Lautenberg.
    Senator Lautenberg. Thank you very much, Mr. Chairman, 
obviously the subject is a fairly complicated one, global 
warming, and it needs a fair amount of explanation, but I would 
ask whenever possible to crystallize, or reduce the answering 
time so that we can get through the questions, but understand 
exactly what it is that you're saying. The scientific 
influences in this are critical, but I come from the world of 
business, and we always try to get to the bottom line if we 
can, and that, I think, is the mission here. I notice that 
there are a substantial number of young people that cleared the 
room, and I don't know whether it was something that was said 
or wasn't said, but the fact is that if we can get it quickly 
into comprehensible language, it would help.
    I would like, Dr. Cicerone, have you seen the Pentagon 
report that came out in 2003, that presented, or projected, a 
worse-case scenario in the event of an abrupt climate change, 
have you seen that report?
    Dr. Cicerone. Yes.
    Senator Lautenberg. What do you think about the veracity, 
or the value of the conclusions that they make? Do you think 
this is reliably, scientifically-based?
    Dr. Cicerone. I assume we're speaking about the same 
report.
    Senator Lautenberg. This is the one that projects 
significant disaster in the latter part of this century as a 
result of flooded nations, and people looking for higher 
ground, and the military responsibility for keeping them off of 
it.
    Dr. Cicerone. At first I saw only press reports about that, 
perhaps a year and a half ago, and some people in the business 
community in California asked my opinion of it, so I found a 
website, dug up part of the report and read it, and I thought 
that the writers made it pretty clear that they were speaking 
about plausibilities that were within the realm of possibility, 
and it was well done. I didn't think that it was fictional, on 
the other hand, I thought the writers made it clear that they 
were speaking from a range of possibilities that have been 
identified, and weren't necessarily saying, ``This is exactly 
what's going to happen,'' but they did put their finger on some 
vulnerabilities.
    Senator Lautenberg. Forecast about flooded nations, I mean, 
you know, if we look at recent history and October 2003, the 
Ward Hunt Ice Shelf, the largest ice shelf in the Antarctic 
broke up. I mean, is this true, or isn't it true? If it's true, 
what's the significance of something like that?
    Dr. Cicerone. Well, the amounts of sea ice and continental 
ice around the world are enormous. The ones that we would be 
most concerned about are the ice formations which are now on 
land, so that if they were to melt, they would increase sea 
level, the ones that are already floating in the ocean, melting 
them might have some biological effects, and would, but 
wouldn't raise sea level. So, there has been a massive effort 
underway, not as big as it should be, to learn more about the 
sea ice mechanics, what it's vulnerable to, and studying the 
climate feedbacks, much in the way that Dr. Mahoney just 
mentioned about the climate modeling business.
    There are different ways to describe and predict the way 
that these land-held ice amounts will respond in the early days 
of climate change, and in the later days. And the predictions 
are not yet very clear--generally speaking, people think that 
changes will be slow, and inexorable, on the other hand, I'm 
not convinced that we know enough about the mechanics of this 
ice to make that prediction. Therefore, the Pentagon report was 
plausible. We cannot rule it out, we cannot rule out those 
scenarios.
    Senator Lautenberg. They talk about things like, in 20 
years--and this goes back to February 2004--warned that in the 
next 20 years, major European coastal cities could sink, 
beneath the sea, and the military defines a likelihood of its 
responsibilities in the second half of this century as in 
preparing the kind of equipment they need to fight off waves of 
refugees looking for higher land coming here, and people whose 
lives are threatened to begin with are going to take any chance 
they can to climb aboard. Well, I mean, that scene of chaos 
sounds like something that we see in these movies, Star Wars 
and so forth, and that is an ominous kind of projection.
    Dr. Mahoney, it's been 5 years since the last national 
assessment of climate impacts report. Can you explain why the 
Climate Change Science Program failed to produce a report that 
was due in 2004?
    Dr. Mahoney. Senator, first of all we put our effort--when 
I came on board at the beginning of 2002, we put our effort 
into addressing what we believed to be a real core question, 
which was to assure that we were advancing the science, 
understanding better issues that were left very uncertain from 
the time of the prior assessment activity, so that strategic 
plan is the document I mentioned awhile ago, that was published 
just 2 years ago, just now, in fact it was released that day, I 
conducted a large briefing for staff here in the Senate, and a 
similar briefing the same day for House staff to try to get the 
word out very quickly. So, we've been on record very clearly 
with a plan and schedule for the work that we propose to do for 
2 years. And we've taken a view in that that we would produce a 
series of 21 synthesis and assessment reports.
    Senator Lautenberg. Are these far off the time target that 
we expected to meet?
    Dr. Mahoney. When we produced the plan, we expected that 
they would be all prepared within a 4-year period. We still 
plan to finish within the 4-year period.
    Senator Lautenberg. Four-year period starting when, Dr. 
Mahoney?
    Dr. Mahoney. Starting from the time the plan was produced 
in the middle of 2002, we're now projecting producing all of 
these, at least, we'll have to make one exception, we're 
planning to produce most of them by the end of the year 2007, 
and in correspondence we've sent just recently, because we've 
been asked for some changes in the coverage on the reports, we 
have undertaken to agree to include those changes. The result 
of that is some that were considered to be not directly 
responsive to the requirements of the law, we have proposed to 
delay submitting those until the beginning of 2008, because 
there's only so much work the community can do at one time. But 
we were originally on a program of producing this through 2007, 
we're still largely on that program, what slipped was that in 
the first year of our activity, we fell behind in the expected 
early production of this, and we're in a catch-up mode for that 
now.
    Senator Lautenberg. Because all of these things are fairly 
long-range, but I think they're imminent because of the 
prospective problems that we face, and we don't want to 
continue to put things off, we're spending a lot of money, but 
the question is whether we're spending it as wisely and as 
efficiently as we might.
    Mr. Chairman, we're going to continue the questioning 
process.
    Senator Vitter. Sure. Thank you, Chairman Stevens?

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Thank you very much. Dr. Mahoney, I was 
saddened to get the call yesterday concerning your possible 
departure. I want to thank you very much for what you've done, 
I hope that your departure is not too quick, but I understand 
that it will come.
    I want to thank all of you for responding to my request for 
additional funds to be released to carry out the continued 
observation of the temperature changes in the Arctic Ocean. 
There are three to four icebreakers out there this summer 
around the circumference of the Arctic Ocean on an 
international basis. I think the continued use of those to find 
out what's really happening in the Arctic will be very 
important in this overall question.
    Some years ago, as Chairman of the Appropriations 
Committee, I took the Committee down to Antarctica, because at 
the time I noticed the disparity between funding for the 
Antarctic and the Arctic, and after I visited there, I came 
back and told you all that the work going on down there should 
not be disturbed, but we had to find some additional money for 
the Arctic. I'm still trying to find that money. I have here, I 
think, they're your documents, the October 19, 2004 Nome storm, 
which was classified as a 949 milibar cyclone, totally 
unpredicted, as was the Barrow storm that took place on 
September 9th of 2003. I do hope we'll find some way to deal 
with prediction of storms in the Arctic, we have very little 
capability of doing that right now, and I think the basic 
global climate changes are more evident in the Arctic, and I 
would hope we would find some way to implement general 
forecasting of the weather in the Arctic. If that cyclone 
happened in California, Dr. Cicerone, we would have known about 
it by the minute, with this one, we knew it about 2 hours after 
it happened. I really think we need better prediction and 
better information for our people with regard to those storms.
    Now, one of my basic problems, however, is the question of 
what to do about the situation in our state. I think as far as 
the United States is concerned, the evidence of global climate 
change is more apparent in Alaska than anywhere else. I will 
request a National Guard aircraft to fly me up the West Coast 
of Alaska to take a look at that damage that occurred from the 
storms last year. Very clearly we have to address those issues 
as the Senator has said, to help protect the people that were 
involved in the past storms. We need some predictions as to 
what we should do for the future of the nine villages that 
suffered the most.
    I'm sure you've seen the GAO report, at my request, that 
indicates at least three of them are in eminent need of some 
attention. One of the small villages, costs an estimated $200 
million to move. I think we've got to figure out a way to 
relocate some of these villages before they're destroyed--it's 
easier to move them piece by piece than it is to move them 
after the disasters occur. One of the basic problems still 
facing us is whether we have a way to distinguish between 
natural and man-made causes of global climate change, or 
warming. How far are we from being able to do that?
    Dr. Mahoney. Well, Senator, I'll take that on for a minute, 
and I'll try to give a brief, direct answer as Senator 
Lautenberg advised. I will comment, too, it is my plan to stay 
on board until my successor is confirmed, so I hope to be at it 
for many months, still working with you. While my health has 
deteriorated some, and I can't go on over years, I don't want 
to leave any of this open, so I look forward to working with 
you for quite some time.
    On your question about this difference between natural 
variability and human-caused--first of all, it's important to 
sort out sometimes there are, what I will call, political 
arguments that want to go to one extreme or the other, the 
scientific argument is much more complicated in the middle. 
There is no question there's natural variability, and I will 
say very directly, there's also no question that there is an 
important element of human-caused effects, so the science 
challenge is to tease out those differences. And it's not 
especially easy to do at the outset because when you look at 
the record, it's just a noisy record, and it's a question of 
how you pull it apart. Even so, the last few years, and even 
the last two or 3 years have seen substantial progress in being 
able to better identify the human cause, elements, and some of 
the work on this deals with regional patterns of temperature 
change, and salinity change in the ocean that tends to relate 
to regional factors associated with the carbon dioxide in the 
atmosphere. So, we're beginning to see from the oceanic record 
more help in what we call ``fingerprinting'' of these changes 
that can be related to human effects.
    The same way we see this generally, and when we look at the 
atmosphere overall, there is now enough information again on 
doing regional correlations as well as long-term studies to 
give us a better picture that indicates that in the end, both 
natural variability and human causes are playing a role, so 
there is no one can make a statement that it's exactly 50/50 or 
40/60 or something, but we have enough information to say human 
effects are significant, and I would say that's where we are, 
and without taking the time with long, complicated questions or 
answers, there is substantially better information to help make 
this difference, but we will need to continue to sharpen that 
because it's such an important point, I expect we'll need to 
sharpen that distinction through these field measurements and 
model studies in the years immediately ahead.
    The Chairman. Dr. Cicerone, if you look at the information 
that's available to us, we have a lot more information 
available from the area you just left in California than we do 
for the Arctic, but we do have some information coming in about 
the so-called Atlantic and Pacific Oscillation, and what it may 
mean in terms of dumping more heat into the Arctic Ocean, how 
far along is that before people start talking about it? I 
haven't really heard about it, except from the scientists 
associated with the International Arctic Research Center in 
Fairbanks, but are you all looking into this?
    Dr. Cicerone. Yes, and I know some individual scientists 
who are, I wish I could tell you when people will be able to 
say whether they think the rapid and large warming in the 
Arctic is more attributable to humans or natural variation. I 
started out thinking that whatever is going on in the Arctic 
must be some unknown natural variation, but others in the last 
few years are telling me no, they think, they're working on 
ideas that link it more to global warming, I don't see the 
answer, I don't know if anybody has a definitive answer yet, 
but because of the dramatic warming, the loss of permafrost, 
the loss of sea ice, the raised temperatures, the increased 
growing season length--in the Arctic a lot more people are 
working on it.
    I'm reminded, though, of the ozone layer business that we 
went through 20 some years ago, where the appearance of the 
Antarctic ozone hole was totally unexpected, unpredicted, and 
perhaps a little bit fortunate that the first large damage to 
the ozone layer occurred over Antarctica rather than over more 
populated regions. People in New Zealand, Australia, and 
Southern Chile might disagree because they're dealing with the 
increased ultraviolet light now, but the reason we didn't 
predict it--and I remember taking a lot of heat in public 
lectures--people came up to me and said, ``Why didn't you 
predict this? You never said that it was going to be this 
bad,'' is that there were mechanisms, the chemistry of the 
atmosphere that we didn't understand. All we can do is do the 
best we can with the available science, and it gets to the 
question of Senator Vitter about these different models that 
are being used to do these computations, I think they're 
absolutely essential to have different sources of funding, 
different competing scientists, and different approaches to 
these questions. The seriousness of the Arctic situation is a 
great example, where the approximations that some scientists 
are making in the way they solve these equations will be more 
accurate in the Arctic, or less accurate in the tropics. And 
the only way to find out is to try different techniques.
    In the meantime, the Arctic situation is much more 
widespread than people realized, the temperature records are 
showing a warming over the Arctic, a bigger east/west extent, 
and a longer period of time than any of us knew, it just got 
more rapid recently.
    The Chairman. Well, how much of it is related to this ocean 
oscillation, has anyone really measured that?
    Dr. Cicerone. That was the biggest initial invest 
hypothesis, that the so-called North Atlantic Oscillation might 
have a mode that would lead to some kind of rapid warming every 
40 years or so, but I don't think that is turning out to 
provide all of the answers either. It's still one of the major 
hypotheses, that we should better map out natural variation, 
but it doesn't seem to be yielding, it doesn't seem to be 
explaining what we're seeing completely, at least.
    The Chairman. Well, am I wrong to say that the world seems 
to be looking to us to examine this because of our scientific 
community and the way it's funded, as opposed to other areas? 
For instance, those ships in the Arctic. We're financing those 
and I thank you for that, someone has to do it. We don't have 
very much observation in the Arctic, I don't think Canada has a 
lot, and we're not increasing the emphasis of research or 
observation there, which I think should be taken into account. 
I don't want to see us taking anything away from Antarctica, I 
think that's very important to mankind in the long run. The 
short run of trying to find out what's going on for us is in 
the Arctic, everyone says, ``Stevens, you're getting another 
pork barrel.''--it has nothing to do with that, it has to do 
with getting the information we need about what has happened, 
and get some predictions of what might happen in the Arctic 
because of the location of our state. Where do we have the 
ability to act? I don't think many nations do.
    Dr. Cicerone. At one time, the former Soviet Union had a 
very active presence there, I don't think it was as large, so I 
think your statement is very fair, however, because of the 
dramatic changes in Alaska and the rest of the Arctic, the 
Norwegians and English are paying attention and trying to do 
their part of it, but I think your statement is fair, they're 
looking to us to do more.
    The Chairman. Thank you very much, I will see if Congress 
will try, thank you.
    Senator Vitter. Thank you, Mr. Chairman.
    The Chairman. I hope you've noticed, we've organized three 
Subcommittees of this Committee to get into this basic area, 
and I do want you to know we're going to continue that emphasis 
as long as I'm Chairman, thank you.
    Senator Vitter. Let me go back to Mr. Reifsnyder. You 
mentioned upcoming climate forums in Montreal and another 
recently announced in London. What will be the U.S. goals at 
those meetings?
    Mr. Reifsnyder. Thank you, Chairman. The London meeting, as 
we understand it, will seek to look at the specific items in 
the Gleneagles Program of Action, and to try to devise ways and 
means of taking those forward, so our goal there will be to try 
to put some flesh on the bones of what was contained in the 
Gleneagles Program of Action, specifically. As I say, we don't 
have a great deal more information at the moment, we know that 
the United Kingdom plans to convene a meeting on the first of 
November, with respect to the 11th conference of the parties 
under the U.N. Framework Convention on Climate Change, we have 
sought in the past two or 3 years to highlight what we're doing 
with respect to science and technology, we did that at the COP-
9 in Milan last year, we sought to highlight what we're doing 
with respect to our domestic programs, as well as our 
international programs. We've taken an active approach to these 
COPs, not just dealing with the issues that come up there, but 
using them as an opportunity to showcase all that the United 
States is doing, and I think we will try to take the same 
approach in Montreal this year.
    Now, much of the discussion in Montreal will focus on the 
entry and into force of the Kyoto Protocol among the parties 
that have ratified Kyoto. And there were a number of decisions, 
Kyoto was, in effect, a kind of framework, there was much work 
that took place under the Framework Convention on Climate 
Change to prepare for entry into force of Kyoto that has 
happened, and now those decisions have to be taken up by the 
meeting of the parties under the Kyoto Protocol, so that will 
be a large part of the focus in Montreal.
    Senator Vitter. OK, thank you. Dr. Cicerone, Chairman 
Barton over on the House side, recently had some inquiries into 
the backup data and work behind some of the climate science, 
and in response to that, you've sent in a letter, and there has 
been some uncertainty about exactly where you're coming from in 
the letter in terms of whether you were just offering help to 
folks involved in Congressional oversight, or whether you were 
suggesting that oversight belongs somewhere else outside of 
Congress--could you sort of speak to that, and clarify your 
letter?
    Dr. Cicerone. Yes, I drove across country at the end of 
June, and all of this was happening while I was driving. When I 
got here, I received a large number of contacts from scientists 
around the country, and people who represent them, scientific 
society, saying they were very concerned with that kind of 
request, that they hadn't seen anything like it before, and 
that it's difficult for scientists to go back and get 
everything that was asked for, and they said, ``Is this a new 
way of doing business?'' And I tried to put myself in 
Congressman Barton's position of trying to get at the bottom of 
that particular climate record, so I wrote a letter that 
expressed the concern that had been conveyed to me, that some 
scientists find it to be intimidating to receive that kind of a 
letter--by the way, I don't know the three scientists to whom 
it was addressed, I've never met any one of them, and so I'm 
not dealing with anything personal here--so the letter 
basically said, to express concern over the way the letter was 
being received, and offer any help that we could provide in 
helping Congressman Barton and his colleagues to get to the 
heart of this very specialized matter, how you read the climate 
record of the last thousand years, during most of which time 
people were not measuring temperatures. And so I offered that 
we could convene a study to help, if necessary, or to find 
others to do it for them if they would rather work with 
somebody else, and we had the letter personally delivered to 
Congressman Barton last Friday morning.
    Senator Vitter. Following up on that, how would you 
describe a valid oversight role of relevant Committees in the 
Congress?
    Dr. Cicerone. I think that's up to you, Senator Vitter. I 
suspect that everything the Congressman asked for, he's 
entitled to ask for, we certainly don't challenge that. What I 
would really like to get across is science--one of the reasons 
I've been attracted to it over my lifetime is it's perhaps the 
only, but one of few human endeavors that is self-correcting. 
And that we can rely on the method to get at the truth of the 
matter eventually--we just keep going over things, find 
independent ways to ask the same question, find answers so what 
we've volunteered, and hope that the Academy can help with, is 
to convene an up-to-date group to look at where we are right 
now, at any point in time, on any question, and give Congress, 
if it wishes, what we hope is the best available information. 
I'm sure part of your role is getting that information one way 
or the other.
    Senator Vitter. OK, Doctor, and one other question. 
Recently, as you know, there was some controversy regarding a 
recent joint Science Academy statement, and how it was 
characterized by different parties, and specifically, the 
British Royal Society's characterization, could you sort of 
speak to that?
    Dr. Cicerone. Yes, in fact, some of you may have seen the 
exchange between my predecessor who just left town a couple of 
weeks ago, with the head of the Royal Society where we objected 
to the way they characterized the statement that the Science 
Academies from the G8 nations, and India, and China, and Brazil 
had agreed to, we thought that the press release went beyond 
what we had agreed to, and we were surprised by the timing of 
it. But the intention of the Science Academies of these nations 
is driven by the hope and the belief that a scientific reading 
of scientific data of any situation will be helpful to our 
governments, so there will probably be more efforts of these 
Academies to work together in the future on such statements, 
guided by the lessons of this time, I hope.
    Senator Vitter. And have those lessons been agreed to 
within the Societies? Has their been a response from the 
British Royal Society that is satisfactory to you, or are you 
still frustrated by the experience?
    Dr. Cicerone. A little frustrated, we have some work to do.
    Senator Vitter. Senator Lautenberg?
    Senator Lautenberg. Thanks, Mr. Chairman.
    Dr. Cicerone, you said that the melt on land--if I 
understood you correctly--was more significant as you looked at 
it now, then the sea melt, because the sea melt couldn't yet be 
fully assessed, but do I generally phrase correctly what you've 
said?
    Dr. Cicerone. And one raises the sea level, and the other 
doesn't.
    Senator Lautenberg. Right. But, when we look at Glacier 
National Park, and Kilimanjaro, and places like that, that were 
homes for ice and snow, and now they're almost barren, that's a 
pretty worrisome indicator, is it not?
    Dr. Cicerone. Inland glaciers generally are disappearing 
around the world, perhaps not at the rate of Kilimanjaro, but 
yes.
    Senator Lautenberg. And that portends problems in a 
disturbed ecology, the Union of Concerned Scientists in 2004 
released a critical report on the Administration's use of 
science in forming policy, and the report was signed by 64 
scientists, including 20 Nobel Laureates. And part of the 
criticism evolved around something, Dr. Mahoney, about changes 
to the references, EPA, to remove references in a report to the 
2001 National Academy of Science study, that confirmed that 
Intergovernmental Panel on Climate Change finding human 
activity is contributing to climate change, and to insert 
instead a discredited study of temperature records that were 
funded, in part, by the American Petroleum Institute.
    I wrote you a letter on June 29, requesting that you remove 
from NOAA's website, two reports on climate change which were 
altered by a former member of the White House staff, and I 
thank you for your written reply. But it's not clear to me from 
your response whether changes made by Mr. Cooney, the gentleman 
in question, and approved by non-partisan scientists, did 
scientists sign-off on Mr. Cooney's changes?
    Dr. Mahoney. Senator, I think the short, simple answer is 
yes, in particular in the sense that all of the edit comments 
we receive come back and are vetted by our core office, and by 
me. It's a responsibility I have, and the other key staff who 
work with me on that are all Ph.D. level scientists.
    Senator Lautenberg. So, it was OK to alter the report as it 
was produced?
    Dr. Mahoney. Well, Senator, there was no alteration of the 
report, the phrasing you're using makes it sound like a report 
was prepared and then it was changed by this person. The fact 
is that a draft was prepared, and that draft was circulated to 
the representatives of all 13 agencies who take part in the 
program, as well as representatives of OMB, and CEQ, and OSTP, 
all White House functions, so basically, everything we produce 
first exists as a draft, then it goes to 16 addresses.
    Senator Lautenberg. So, you're satisfied, Dr. Mahoney, that 
the hand of science was firmly imprinted on that report as it 
finally came out? Because you suggest that a draft was only a 
draft, but this isn't a novel, a fictional novel that is being 
written and someone is editing, I mean, I assume that we're 
dealing with facts, determined, developed in the production of 
the draft, is that not so?
    Dr. Mahoney. Well, that's true, however, the principle of 
the two documents--the one that we're speaking about--is the 
strategic plan I mentioned earlier. That plan was not a 
statement of fact or finding, it was a statement of our planned 
work program over the years ahead, so that is not the same 
thing as a document that would be saying, ``Here are our key 
findings about climate change,'' it was, instead, ``Here's our 
work plan.'' And that work plan was very heavily commented on 
by all 16 of those entities that I mentioned, the 13 agencies 
and the three White House offices.
    Senator Lautenberg. I thank you for that explanation. The 
Union of Concerned Scientists, are they a reliable 
organization?
    Dr. Mahoney. Yes, I think they're an advocacy organization, 
but that doesn't mean they're unreliable, but sometimes 
advocacy organizations----
    Senator Lautenberg. What do you think of them, Dr. 
Cicerone? Are they a lobbying organization more than they are a 
science organization?
    Dr. Cicerone. They're pretty activist. A lot of great 
individual scientists work with them, so I certainly don't 
dismiss them, but I do know they're pretty activist.
    Senator Lautenberg. Which says that what they issue is not 
necessarily unbiased, scientific discovery?
    Dr. Cicerone. No, I think they use a record that can be 
checked, so I think they try to use a scientific method. I 
think that the topic that they've been concerned about is their 
reading that science advice generally hasn't been used as much 
in the last decade as previously, so this is part of their 
view, a lot of scientists feel that way.
    Senator Lautenberg. OK, but what they would produce, or 
they would publish, would be fairly well based on scientific 
knowledge, and it wouldn't be largely on advocacy, kind of 
mission, but would they be stimulated to produce a report based 
on the knowledge of science?
    Dr. Cicerone. I think so, and they usually document what 
they say.
    Senator Lautenberg. OK. So, Dr. Mahoney, if the commentary 
that accompanied their criticism, or their information 
developed as a result of a change in the report, the National 
Science Association, the NAS study that confirmed the 
Intergovernmental Panel on Climate Change finding that human 
activities contributing to climate change, and to insert a 
discredited study of temperature records that was funded, in 
part, by the American Petroleum Institute--are you aware of 
that assertion?
    Dr. Mahoney. Senator, I'm not aware of the specific 
assertion, what I do know is that the Union of Concerned 
Scientists has written at least one broad letter criticizing 
the use of science in this Administration. I know that the 
Union of Concerned Scientists also expressed displeasure, and I 
think it may have been in a written document about information 
in an EPA document that dealt, in part, with climate issues. 
I'm not aware of any written statement or even verbal statement 
from the Union of Concerned Scientists about the documents for 
which I'm responsible in the Climate Change Science Program, so 
I don't have the basis to respond directly, I'm not aware of 
it.
    Senator Lautenberg. I just want to confirm something and 
I'll turn the podium back to the Chairman, but you feel that 
what Mr. Cooney did, that to your knowledge, you're familiar 
with the changes?
    Dr. Mahoney. Absolutely, the comments he made----
    Senator Lautenberg. They were approved by those with a 
science background? People who understood and saw no harm or no 
change of materiality in the changes that he'd made?
    Dr. Mahoney. Well, I think you're asking a question, sort 
of, with two parts. One, were they approved, and then saying, 
did anybody see any change, any materiality? I don't want to 
parse the words too much.
    Senator Lautenberg. That's not for us to argue, but I'm not 
talking about the process, I'm talking about the outcome. Were 
Mr. Cooney's comments, you said they were vetted by those who 
have science as their background?
    Dr. Mahoney. Yes.
    Senator Lautenberg. And that there were not significant, 
there were no changes as a result of his comments. He's not in 
the Administration any longer, as we know.
    Dr. Mahoney. That's correct, he's not in the 
Administration. He, like many other commenters, made a very 
large number of suggested edits to these draft reports, and our 
job after getting those draft edits from everyone was to 
consider them all, and then to recast the report, making our 
best judgment about the right things to say and the right 
science. I've now done two stints in government dealing with 
this kind of interagency work, I did this with acid rain back 
in the late 1980s, too, and in both of these cases, basically 
every document that is produced goes for review by all of those 
who might want to comment on it, but then it all comes back, so 
that someone is responsible for deciding what comments to 
accept or partly accept, or reject, and I would say 
specifically, relative to Mr. Cooney's comments, they came, 
sometimes, to others first, but they all come to me. So that 
document, at the end of the day is my responsibility.
    Senator Lautenberg. And you're confirming you were 
satisfied with the changes you made?
    Dr. Mahoney. To get to the core of it, absolutely. I 
confirm that I am----
    Senator Lautenberg. That you endorse it?
    Dr. Mahoney. I endorse it.
    Senator Lautenberg. Thank you very much, Dr. Mahoney.
    Senator Vitter. All right, I want to thank all of our 
witnesses again for your participation in this hearing, we 
certainly appreciate it. We'll also be sending along some 
follow-up written questions, and would appreciate those answers 
so we can consider them and make them part of the record.
    [Whereupon, at 11:35 a.m., the hearing was adjourned.]
                            A P P E N D I X

  Response to Written Question Submitted by Hon. Daniel K. Inouye to 
                         Hon. James R. Mahoney
    Background: The recent announcement of a new Asian-Pacific climate 
pact involving India, China, and the U.S. highlights the important role 
of international collaboration in climate change policy and in the 
scientific research that will continue to improve our understanding of 
the consequences of changes in climate for communities, governments, 
and businesses in the Asia-Pacific region and throughout the world. As 
you know, the State of Hawaii is home to a number of scientific 
institutions and programs that will be important assets as the U.S. 
moves forward with this new Asian-Pacific climate pact including, for 
example: the International Pacific Research Center (IPRC) at the 
University of Hawaii; the NOAA Joint Institute for Marine and 
Atmospheric Research (JIMAR); the East-West Center; the new NOAA 
Integrated Environmental Applications and Information Center (NIEAIC); 
and a number of ongoing NOAA-supported programs such as the Pacific 
Islands Regional Integrated Science and Assessment (RISA) program, NWS 
international weather and climate research and services, and regional 
contributions to environmental observing system programs such as the 
Global Climate Observing System and the Global Ocean Observing System.
    Question. Please describe the Administration's plans, with specific 
focus on NOAA's plans, for engaging these assets in support of the 
observations, research, modeling, and assessment programs that will be 
necessary to support the new Asian-Pacific climate pact as well as 
other regional and international climate agreements in the region such 
as the U.S.-New Zealand and U.S.-Australia Climate Change Science 
bilaterals and the long-standing science bilateral with Japan.
    Answer.
Asia-Pacific Partnership
    The Asia-Pacific Partnership on Clean Development and Climate (AP-
6) and the activities NOAA are involved with such as the United States 
Group on Earth Observations (USGEO) are two separate programs with 
separate objectives. The AP-6 is a public/private partnership for 
addressing the challenges of assuring economic growth and development, 
poverty eradication, energy security, pollution reduction, and 
mitigating climate change. The U.S. joined by Australia, China, India, 
Japan, and South Korea, are actively engaging leaders in the private 
sector in our various countries to develop and implement programs and 
projects that implement the objectives of AP-6 while making good 
business sense. This creative partnership is unique because it made up 
of 6 countries with common energy needs, and because of the substantial 
private sector involvement.
    NOAA, through its leadership of the United States Group on Earth 
Observations (USGEO), plans to work with the 15 other agencies and 3 
White House offices to identify parameters for measuring success in 
energy efficiency and emissions reduction. These parameters could 
include emissions output, energy consumption, particulate matter and 
air quality, weather conditions affecting energy load, etc. Tools such 
as those being developed through the USGEO should prove very useful to 
initiatives such as the Asia-Pacific Partnership.
    Working through the international mechanism, the intergovernmental 
Group on Earth Observations (GEO), which is co-chaired by the U.S. 
(Under Secretary Lautenbacher) and China, and in which all 6 Asia-
Pacific Partnership countries participate, the United States can 
provide leadership in establishing common data formats for measuring 
like parameters in each country by providing a trusted, but verifiable 
metric. Common formats will ensure more accurate performance measures.
Pacific Climate Science and Information Services
    NOAA and its extramural partners at the East-West Center, the 
University of Hawaii (including the International Pacific Research 
Center, the School of Ocean and Earth Science and Technology, and the 
Social Science Research Institute), the University of Guam, and other 
agency partners continue their substantial collaboration toward the 
development of an integrated, regional climate information system for 
the Pacific.
    The Pacific climate information system will engage and build on a 
strong legacy of ongoing programs including:

  <bullet> The Pacific ENSO (El Nino Southern Oscillation) Applications 
        Center (PEAC) which delivers ENSO-based climate forecast and 
        applications services to the American Flag and U.S.-Affiliated 
        Pacific Islands in the Pacific and represents a key node in the 
        emerging WMO Regional Climate Centre for the Pacific;

  <bullet> The Pacific Regional Integrated Science and Assessment 
        (Pacific RISA) program designed to understand and reduce 
        regional vulnerability to climate-related extreme events (e.g., 
        droughts, floods, and tropical cyclones) through a number of 
        program objectives including: sustained, interactive dialogue 
        with decision-makers in climate-sensitive sectors; enhanced 
        regional efforts to develop and apply climate forecasts and 
        information products; develop enhanced data and information 
        products that address the nature and consequences of climate-
        related extreme events; and adapt and apply model-based 
        decision support tools and techniques designed to more 
        effectively manage the risks associated with climate-related 
        extreme events; and

  <bullet> NOAA's climate information services in the Pacific are being 
        coordinated with the efforts of other Federal, state, and local 
        agencies, regional organizations and scientific partners in 
        universities and the private sector).

U.S. Climate Science Bilateral Agreements in the Pacific
    Since 2003, the U.S. (led by the State Department) has entered into 
a number of important bilateral climate agreements. Specifically, the 
U.S. GCOS Program Office is involved in funding projects with Australia 
and New Zealand that directly relate toward furthering the progress of 
GCOS and GOOS in the region. The bilateral projects cover a wide range 
of projects dealing with climate prediction, ocean observing, 
stratospheric detection, water vapor measurements, capacity building 
and training, and communication of information, and will focus the 
attention and resources of all these countries toward developing a more 
sustainable and robust GCOS program.
    For example, in conjunction with the National Institutes of Water 
and Atmosphere (NIWA) in New Zealand, there are now two new projects 
which have been implemented on a long-term basis. The first one 
involves the implementation of a global stratospheric water vapor 
measurement station in Lauder, New Zealand. A second significant 
project involves the implementation of a new ship track for trace gas 
measurements, which has been implemented on a car carrier ship on a 
route between Nelson, New Zealand, and Nagoya, Japan. This is a brand 
new route and is unique in that it crosses both the Intertropical and 
South Pacific convergence zones.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John F. Kerry to 
                         Hon. James R. Mahoney
    Question 1. Given that we now know, as the President has said, that 
``the surface of the Earth is warmer and that an increase in greenhouse 
gases caused by humans is contributing to the problem,'' when does the 
Administration intend to produce a plan to reduce emissions and 
stabilize the concentrations of greenhouse gases in the atmosphere?
    Answer. The goal of the Climate Change Science Program (CCSP) is to 
advance the science and provide scientific results that can be used to 
support policies and planning to address climate change for 
policymakers. In fact, CCSP recently held a public workshop on Climate 
Science in Support of Decision Making,\1\ which drew more than 700 
participants from the research, decisionmaking, and international 
communities, as well as students, users, and individuals interested in 
the applications of climate science. The workshop included discussion 
of decision-maker needs for scientific information on climate 
variability and change, as well as expected outcomes of CCSP's research 
and assessment activities that are necessary for sound resource 
management, adaptive planning, and policy formulation.
---------------------------------------------------------------------------
    \1\ http://www.climatescience.gov/workshop2005/default.htm.
---------------------------------------------------------------------------
    Over the past few years, several actions--in addition to the 
roughly $2 billion annual investment in science--have been taken by the 
Administration to address the reduction of greenhouse gas emissions and 
concentrations, which include:

  <bullet> Setting a national goal to reduce greenhouse gas intensity 
        by 18 percent by 2012.

  <bullet> Asia-Pacific Partnership for Clean Development and 
        Climate.\2\
---------------------------------------------------------------------------
    \2\ http://www.whitehouse.gov/news/releases/2005/07/20050727-
11.html.

  <bullet> Energy Policy Act of 2005, which includes $9.2 billion in 
        tax incentive over the period of 2005-2015 and other important 
---------------------------------------------------------------------------
        provisions that will promote new, cleaner technologies.

  <bullet> Reaffirming the commitment to the United Nations Framework 
        Convention on Climate Change and regular participation in the 
        Conference of Parties meetings.

  <bullet> Approximately $2 to $3 billion in annual investments into 
        the development and deployment of transformational technologies 
        through the Climate Change Technology Program.\3\ Key research 
        and development areas are included in the President's Advanced 
        Energy Initiative: biomass, solar, wind, hydrogen, nuclear, and 
        clean coal. CCTP deployment programs include Climate VISION \4\ 
        (Voluntary Innovative Sector Initiatives: Opportunities Now), 
        Climate Leaders,\5\ and SmartWay Transport Partnership.\6\
---------------------------------------------------------------------------
    \3\ http://www.climatetechnology.gov.
    \4\ http://www.climatevision.gov.
    \5\ http://www.epa.gov/climateleaders.
    \6\ http://www.epa.gov/smartway.

  <bullet> Leadership in the Group on Earth Observations \7\ and the 
        development of the Global Earth Observation System of Systems.
---------------------------------------------------------------------------
    \7\ http://earthobservations.org/.

  <bullet> United States Department of Agriculture's conservation 
        programs, which provide incentives for actions that may 
---------------------------------------------------------------------------
        increase carbon sequestration.

  <bullet> Increased fuel economy standards for new light trucks and 
        sport utility vehicles by 1.5 miles per gallon over the next 
        three model years.

    Question 2. If you do not intend to do so, I want to point out that 
the National Academies of Science said: ``[L]ack of full scientific 
certainty about some aspects of climate change is not a reason for 
delaying an immediate response that will, at a reasonable cost, prevent 
dangerous anthropogenic interference with the climate system.'' What 
specific scientific questions does the Administration need answered 
before it is convinced that we need such a plan to reduce emissions and 
stabilize concentrations?
    Answer. A key finding of the 2001 NAS report on climate science 
requested by the President was as follows: ``While scientific 
uncertainties remain, we can begin now to address the factors that 
contribute to climate change.'' Key scientific uncertainties being 
addressed by the Climate Change Science Program include:

  <bullet> How much humans contribute to climate change (i.e., what 
        percentage of the warming is contributed by humans versus 
        natural variability)?

  <bullet> How much of the change in climate is reversible?

  <bullet> How effective would various mitigation and adaptation 
        strategies be?

    In addition, the President stated in 2001 that the Academy's report 
tells us that we do not know how much effect natural fluctuations in 
climate may have had on warming. We do not know how much our climate 
could, or will change in the future. We do not know how fast change 
will occur, or even how some of our actions could impact it. CCSP is 
addressing these questions as well.
    Despite not having answers to these key questions, the 
Administration, as explained in response to Question 1, has already 
invested in several programs and has provided tax incentives to slow 
the growth of greenhouse gas emissions. Our approach draws upon the 
best scientific research, harnesses the power of markets, fosters the 
creativity of entrepreneurs, and works with the developing world to 
meet shared aspirations for our people, our economy, and our 
environment.

    Question 3. Eleven national science academies (including the U.S. 
National Academy of Sciences) said in their statement issued on 7 June 
2005: ``It is likely that most of the warming in recent decades can be 
attributed to human activities.'' Do you agree with this statement?
    Answer. Since 2001, the President has stated that humans are 
contributing to changes in climate. However, as explained in response 
to Question 2, there are still uncertainties around how much humans are 
contributing versus natural variability and what types of strategies 
will be most effective.

    Question 4. The National Academy of Sciences' review of the new 
CCSP strategic plan was particularly glowing. In your written testimony 
you highlight this fact with an extended quote from the review. Left 
out of your excerpt, however, is NAS' conclusion that the CCSP budget 
did not appear sufficient to meet all of the goals in the strategic 
plan. If the President's climate budget is enacted unchanged, the CCSP 
budget will have shrunk by $84 million, or 4 percent, from Fiscal Year 
2004 enacted levels. How will these cuts alter implementation of the 
strategic plan that was so well received by the National Academies?
    Answer. CCSP priorities are reviewed on an annual cycle through the 
budget process. A critical function of CCSP is coordinating the CCSP 
budget across the 13 CCSP agencies. In Fiscal Year 2006, this 
coordination process involved the alignment of agency climate programs 
with the goals and key research focus areas in the CCSP Strategic Plan, 
thus helping to ensure consistency. The emphasis is on ensuring 
alignment of current funding with a recommended list of priorities and 
identifying gaps that may occur, as well as identifying measurable 
milestones and deliverables that reflect accountability toward meeting 
program goals.
    Each year, we expect that agency budgets will fluctuate. Thus, the 
current CCSP program is a high-priority selection of activities that 
merit continued support. However, new initiatives are required to move 
in directions identified in the CCSP Strategic Plan. CCSP must maintain 
key research activities, while encouraging innovation in a constrained 
budget environment. There is a need for continuing evolution of program 
priorities and activities through new initiatives, the competitive 
grant process within agencies, and other evolutional redirection 
reflecting new focus areas for high-priority research in climate 
science.

    Question 5. Could you elaborate on the different activities 
undertaken by the Climate Change Research Initiative and the U.S. 
Global Change Research Program? How are they different?
    Answer. The U.S. Global Change Research Program (USGCRP) supports 
research on the interactions of natural and human-induced changes in 
the global environment and their implications for society. The USGCRP 
began as a Presidential initiative in 1989 and was codified by Congress 
in the Global Change Research Act of 1990, which mandates development 
of a coordinated interagency research program. USGCRP organized its 
research in seven areas: Atmospheric Composition, Climate Variability 
and Change, Global Water Cycle, Land-Use and Land-Cover Change, Global 
Carbon Cycle, Ecosystems, and Human Contributions and Responses.
    The Climate Change Research Initiative (CCRI) was launched by the 
President in 2001 with four key priorities: (1) to reduce significant 
uncertainties in climate science; (2) improve global observing systems; 
(3) develop science-based information resources to support policymaking 
and resource management; and (4) communicate findings broadly among the 
international scientific and user communities.
    The Climate Change Science Program (CCSP) was announced in 2002 
with strong focus on advancing scientific understanding of global 
climate change, as well as coordinating and integrating scientific 
research on global change and climate change sponsored by 13 Federal 
departments and agencies. This new structure required CCSP to 
incorporate and integrate the long-standing work of USGCRP and the more 
recent research organized within CCRI.
    As CCSP has evolved, the four CCRI priorities continue to form the 
basis for the nine priorities areas of CCSP overall for Fiscal Year 
2006. However, there is still a current budget line for CCRI, as 
displayed in Our Changing Planet, the annual report to Congress. The 
CCRI line budget totals include research specifically to reduce 
uncertainties in the areas listed above. For example, CCRI line items 
for NOAA in Fiscal Year 2006 include Global Climate Observing System 
and Global Ocean Observing System to support the CCRI priority to 
improve global observing systems. The USGCRP line items for NOAA in 
Fiscal Year 2006 include Global Carbon Cycle and Atmospheric 
Composition research which are two of the seven science elements 
established under USGCRP. These topics are not necessarily mutually 
exclusive, but specific research items under each program determine how 
they are reported for budget purposes. Both the CCRI and USGCRP lines 
make up the CCSP totals.

    Question 6. What contribution is the CCSP making to the Global 
Earth Observation System? Please be specific in terms of both money and 
other programmatic support.
    Answer. Under NOAA's Climate Change Research Initiative (CCRI) 
budget line for the support of atmospheric Global Climate Observing 
System (GCOS) networks, the U.S. remains committed to improvements in 
the management and operation of GCOS and GCOS-related atmospheric and 
oceanographic networks in line with the GCOS Implementation Plan 
approved in October 2004 (see http://www.wmo.int/web/gcos/
gcoshome.html). GCOS is an international program with inputs from many 
countries as well as U.S. Government agencies. The U.S. National GCOS 
Report done in 2001 was a multi-agency effort. GCOS also serves as an 
organizing focus for the CCSP's Observations Program. Finally, GCOS is 
the formal climate component of the Global Earth Observations System of 
Systems (GEOSS) and forms the basis for the Climate component of the 
U.S. Strategic Plan for the Integrated Earth Observations System.
    NOAA's U.S. GCOS Program Office, which represents the U.S. on the 
GCOS Cooperation Board, has committed to leading the way for 
facilitating improvements in the management and operation of GCOS and 
GCOS-related atmospheric networks. The U.S. GCOS Program Office has 
taken leadership, working with our partners at the World Meteorological 
Organization, in further GCOS improvements. The U.S. GCOS Program 
Office has been the catalyst for revitalizing the GCOS Cooperation 
Mechanism process by organizing the second meeting of the GCOS 
Cooperation Donor Board that took place on November 30, 2005, in 
Montreal, Canada, in conjunction with the meeting of the United Nations 
Framework Convention on Climate Change. This work began in Fiscal Year 
(FY) 2003 and plans are for continued efforts in this area for the 
foreseeable future. The GCOS program reflects a broad-based approach 
that looks at supporting observing and data management activities at 
the international, regional, and bi-lateral levels. In addition, 
support for Pacific Islands Ocean and Climate observing regional 
coordinators in Fiji and Samoa to aid in coordinating these observing 
activities among developing countries in the region has been a great 
boost toward capacity building in that critical region.
    Support for developing nations has primarily been to retrofit 
surface and upper air observing stations that had been silent but are 
key to global climate monitoring activities. Countries that have 
received new equipment and resources over the past 2 years include: 
Argentina, Armenia, Congo, Cook Islands, Costa Rica, Ecuador, Ivory 
Coast, Kenya, Maldives, Namibia, the Philippines, and Zimbabwe. In 
addition, and in cooperation with the U.S. State Department, a number 
of workshops for enhancing climate change monitoring in support of the 
Intergovernmental Panel on Climate Change (IPCC) have or are being 
staged in South Africa, southern South America, northern South America 
and Central America, Southwest Asia, Southern Asia, and Southern and 
Eastern Africa. These workshops are all hands-on, involving seminars 
and hands-on work with data from the various countries in attendance. 
In addition, the State Department has been instrumental in aiding the 
establishment of regional GCOS maintenance facilities which have been 
established in the Pacific and the Caribbean. In 2005, a third regional 
GCOS Maintenance Center was established in Botswana to aid in 
monitoring and maintaining GCOS equipment in Eastern and Southern 
Africa. The maintenance centers have demonstrated real progress in 
improving the performance of GCOS in those three regions.
    The support provided is used to: (1) Support the operations of the 
GCOS Secretariat; (2) stage GCOS regional workshops in developing 
countries; and (3) support critical GCOS data management activities at 
the GCOS Lead Data Center at NCDC in Asheville, North Carolina. The 
Fiscal Year 2005 budget of $3.5M continued the work begun in 2003 and 
2004 and expanded support to GCOS Upper Air Network observing sites in 
Argentina, Armenia, Congo, Cook Islands, Costa Rica, Ecuador, Ivory 
Coast, Kenya, the Maldives, Namibia, the Philippines, and Zimbabwe.
    Over the past decade NOAA has worked with national and 
international partners to begin building a sustained global ocean 
system for climate, focusing first on the tropical Pacific, and 
expanding to the Atlantic and the Indian Oceans. It is now well 
understood that documenting and forecasting climate will require 
continuous measurements from space, along with the measurements 
obtained from instruments deployed across the entire global ocean. The 
present international effort is about 51 percent of what will 
ultimately be needed for the global system. NOAA presently maintains 
approximately 60 percent of the in situ networks and 30 percent of the 
space components, and is committed to the goal of providing at least 50 
percent of the composite system over the long term. The existing 
foundation is comprised of twelve complementary in situ, space based, 
data and assimilation subsystems: (1) Global Tide Gauge Network; (2) 
Global Surface Drifting Buoy Array; (3) Global Ships of Opportunity 
Network; (4) Tropical Moored Buoy Network; (5) Argo Profiling Float 
Array; (6) Ocean Reference Stations; (7) Coastal Moorings; (8) Ocean 
Carbon Monitoring Network; (9) Arctic observing System; (10) Dedicated 
Ship Operations; (11) Satellites for Sea Surface Temperature, Sea 
Surface Height, Surface Vector Winds, Sea Ice, and Ocean Color; and 
(12) Data and Assimilation Systems and their products.
    NOAA's plan includes an additional element--System Management and 
Product Delivery--to focus program resources on answering the Nation's 
highest priority policy- and economically-relevant questions. The 
global ocean observing system, when fully implemented, will provide 
specific ocean outcomes such as data sets that can be used to drive 
forecast models, and analysis products describing the present state of 
the ocean, how the present state compares with the past, and the 
confidence/uncertainty in the analysis. NOAA's contribution to this 
global implementation is represented in the program budget profile 
illustrated in Appendix B. Implementation of this program plan 
demonstrates to the world community that the United States is taking 
action to observe climate, is playing a leadership role in achieving 
global coverage of the ocean networks, and is committed to sustained 
operations.
    The progress that the U.S. GCOS Program has made over the past few 
years was recently recognized by the United Nations Framework 
Convention on Climate Change (UNFCCC). In September 2004, the UNFCCC 
Secretariat published an In-depth Review (IDR) of the Third National 
communication from the U.S., entitled ``U.S. Climate Action Report--
2002 (Climate Action Report 3)''. The IDR was performed by an 
independent review team on behalf of the UNFCCC and is now available 
online at http://unfccc.int/resource/docs/idr/usa03.pdf. Climate Action 
Report 3 (CAR3) can be found online at http://unfccc.int/resource/docs/
natc/usnc3.pdf. The IDR had a number of findings related to CAR3, 
however the U.S. GCOS program was specifically identified in findings 
130 and 131 on pages 28-29 of their report as follows:

        130. The United States has one of the most impressive national 
        Global Climate Observing Systems (GCOS) for climate monitoring 
        in five distinct yet integrated areas. The system acquires 
        detailed local and large-scale national data, including 
        observation of environmental variables, representing a major 
        contribution to the Integrated Global Observing Strategy.

        131. The review team was informed that NOAA has formulated a 
        framework for international GCOS support. It focuses on needed 
        improvements to meteorological surface-based networks and on 
        the GCOS terrestrial and oceanic surface-based and satellite-
        based observation networks. NOAA has identified nine activities 
        that it proposed to launch in 2003 in association with the GCOS 
        Secretariat, with a total spending of USD 4 million annually. 
        Additional funding for rescue and digitization of long-period 
        observational data in Africa and Asia is also provided. The 
        provision of these datasets comprises a major contribution to 
        the science of climate change, and is likely to enhance the 
        Intergovernmental Panel for Climate Change (IPCC) process. The 
        review team noted a NOAA initiative for the development of 
        radio and Internet-based climate information dissemination 
        tools for rural farmers in developing countries.

    The work undertaken by the U.S. GCOS Program is consistent with the 
G8 Gleneagles Plan of Action on Climate Change, Clean Energy, and 
Sustainable Development issued in July 2005; item number 34 from that 
plan addresses particular needs with respect to GCOS that the U.S. 
program will continue to work on.

        The G8 made a commitment at Evian to strengthen international 
        cooperation on global Earth observations. We will continue to 
        exercise leadership in this area, and welcome the adoption of 
        the 10-year implementation plan for development of the Global 
        Earth Observation System of Systems (GEOSS) at the Third Earth 
        Observations Summit which took place in Brussels in February 
        this year. We will: (a) move forward in the national 
        implementation of GEOSS in our member states; (b) support 
        efforts to help developing countries and regions obtain full 
        benefit from GEOSS, including from the Global Climate Observing 
        System (GCOS) such as placement of observational systems to 
        fill data gaps, developing of in-country and regional capacity 
        for analysing and interpreting observational data, and 
        development of decision-support systems and tools relevant to 
        local needs; (c) in particular, work to strengthen the existing 
        climate institutions in Africa, through GCOS, with a view to 
        developing fully operational regional climate centres in 
        Africa.

    In summary, the inception of the U.S. GCOS Program Office in 1999, 
coupled with the resources provided via the CCRI program has led to a 
robust and active U.S. GCOS program. The program has been working with 
a number of partners in order to provide support across a broad range 
of international, regional, and bi-lateral climate activities that are 
leading to progress for GCOS in-line with the overall GCOS 
Implementation Plan. Appendices A and B of this document details the 
amount of funding contributed toward GCOS from Fiscal Year 2003-05, 
including more than $12.3M for atmospheric climate observing support 
and more than $43.4M for ocean climate observing support.
                               Appendix A

      Summary of U.S. GCOS Support for FY 2003, FY 2004 and FY 2005
                       [NOAA and State Dept Funds]
------------------------------------------------------------------------
                               Funding
        Support Area            Level         Activities Supported
------------------------------------------------------------------------
                                 FY 2003
------------------------------------------------------------------------
GCOS Upper Air Network          $1650K  7 Sites Upgraded with Radiosonde
 (GUAN)                                  Support
Atmospheric Brown Cloud         $1462K  New ABC Observatory Support
 (ABC)
Regional Maintenance             $500K  Regional GCOS Maintenance (e.g.,
                                         spares, radiosondes) for RA-I;
                                         RA-IV; and RA-V)
Global Atmosphere Watch          $300K  Enhanced Observing Equipment for
 (GAW) Aerosol Observations              South Africa and China GAW
                                         Stations
GAW                              $215K  Support for North American QA/
                                         SAC #
Data Management                  $189K  Support for National Climatic
                                         Data Center as a Global GCOS
                                         Data Center
GCOS Secretariat                 $150K  Support for Full-Time Equivalent
                                         GCOS Implementation Project
                                         Manager
GCOS/IPCC Workshops              $108K  4 Climate Workshops in RA-I, RA-
                                         II, RA-III, and RA-IV
GAW                              $100K  Regional Ozone Calibration
                                         Facility for South America
Regional Activities, and         $100K  GCOS regional workshop in South
 Other GCOS-related Support              America, upper air site
                                         surveys, and Pacific Region
                                         GCOS/GOOS support
Administrative Travel              $7K  ABC Science Panel Meeting for 2
                                         persons
------------------------------------------------------------------------
    Total                       $4853K
------------------------------------------------------------------------
                                 FY 2004
------------------------------------------------------------------------
GUAN                            $1475K  10 Sites Upgraded with
                                         Radiosonde
ABC                             $1398K  New ABC Observatory Support
GCOS/IPCC Workshop Support       $225K  Climate Workshop in India (and
                                         associated IPCC software work)
GAW                              $215K  Support for North American QA/
                                         SAC #
Data Management                  $202K  Support for Global GCOS Data
                                         Center
Bi-Lateral Support               $180K  Pacific GCOS Support
Global Observing System          $125K  GCOS Data Management
 Information Center
Regional Support                 $115K  Regional GCOS-related activities
GCOS Secretariat                 $110K  Support for GCOS Secretariat
GCOS Surface Network (GSN)        $56K  Prototype high-altitude GSN site
------------------------------------------------------------------------
    Total                       $4099K
------------------------------------------------------------------------
                                 FY 2005
------------------------------------------------------------------------
ABC                             $1398K  New ABC Observatory Support
GUAN                             $535K  4 Sites Upgraded with Radiosonde
U.S. GCOS Office Support         $375K  Travel and Salaries
GSN Support                      $350K  4 Prototype Reference Sites in
                                         AK and HI
GAW                              $265K  Support for North American QA/
                                         SAC #
Bi-Lateral Climate Support       $250K  Pacific GCOS Support
Data Management                  $200K  Support for GCOS Lead Data
                                         Center
Global Observing System          $125K  GCOS Data Management
 Information Center
Full-Time GCOS                   $110K  Salary and Travel for Project
 Implementation Manager at               GCOS Project Improvement
 GCOS Secretariat--Geneva                Projects
Regional Support (Pacific)        $95K  Regional GCOS-related activities
Central UV Calibration            $40K  Critical Support for Baseline
 Facility                                Surface Radiation Network now
                                         Radiation Component of GCOS
------------------------------------------------------------------------
    Total                       $3743K
------------------------------------------------------------------------

         Appendix B--Global Ocean Climate Observations Support

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question 7. The scientific and international communities have found 
it very useful to have a single document, such as the IPCC Third 
Assessment report, to point to as a universal overview of climate 
science knowledge. In a recent letter addressed to this committee you 
suggest that the conclusions of all 21 CCSP assessments will be 
summarized in a standard programmatic progress report, presumably in 
2007 or 2008. This hardly seems like the appropriate place for 
establishing a true synthesis of all the knowledge gained over the 
previous seven or 8 years. Why has the CCSP elected not to produce a 
single synthesis volume?
    Answer. The current position of the Climate Change Science Program 
is to incorporate a summary of findings of all completed products 
required by the 1990 Global Change Research Act in our annual Our 
Changing Planet report to Congress, starting in 2006. The CCSP 
assessment activity is an ongoing process, and this is the most 
efficient mechanism to disseminate summaries of each completed product. 
The alternative would be to wait for the completion of the entire set 
of 21 products before beginning the preparation of a single summary 
document. While CCSP is committed to providing timely dissemination of 
the summary information on an annual basis through the mechanism of the 
existing OCP series, we will seriously consider the question of 
providing a single summary document upon the completion of the series 
of 21 Synthesis and Assessment documents.

    Question 8. Phillip Cooney, the former Chief of Staff for the 
Council on Environmental Quality resigned amidst allegations he had 
improperly edited climate reports. Do you feel his editing of a 
scientific report was appropriate for an official in his position?
    Answer. CCSP documents are produced through a customary interagency 
review process. The thirteen CCSP agencies (U.S. Agency for 
International Development; Department of Agriculture; Department of 
Commerce, National Oceanic and Atmospheric Administration and National 
Institute of Standards and Technology; Department of Defense; 
Department of Energy; Department of Health and Human Services, National 
Institutes of Health; Department of State; Department of 
Transportation; Department of the Interior, U.S. Geological Survey; 
Environmental Protection Agency; National Aeronautics and Space 
Administration; National Science Foundation; and the Smithsonian 
Institution), the Council on Environmental Quality, the Office of 
Management and Budget, and the Office of Science and Technology Policy 
review draft documents and propose edits that range from corrections of 
grammatical errors to suggestions for insertions or deletions of text. 
The comments and suggested revisions are considered by CCSP Office 
scientific staff working under the supervision of the CCSP Director or 
directly by the CCSP Director. Subsequently revised drafts are prepared 
and these drafts are again circulated for final clearance and release. 
As Director of the CCSP, I have had final authority over the editorial 
process and the approved content of all CCSP reports disseminated since 
2002.
    We do not view the edits proposed by CEQ as inappropriate, but 
rather suggestions made through a review process that may or may not 
appear in the final version of the document.

    Question 9. Has the Administration learned anything from this 
incident? Why was Phillip Cooney involved in editing scientific 
literature at all?
    Answer. All CCSP planning and program report documents undergo a 
well established review process that involves all thirteen of the 
Federal agencies participating in CCSP (DOC/NOAA, EPA, DOE, NSF, NASA, 
USDA, DOI, State, USAID, DOD, Smithsonian, DOT, and HHS), as well as 
three or more units within the Executive Office of the President (OSTP, 
CEQ, and OMB, and occasionally other elements). Each CCSP document 
begins as a draft that is circulated to the sixteen (or more) agencies 
or offices mentioned above. Representatives of all sixteen entities--
both scientific and non-scientific personnel--are invited to comment on 
the draft document by means of individual responses to the CCSP Office. 
The CCSP Office Director (who coordinates the day-to-day operations of 
the interagency CCSP Office) and his immediate technical staff (Ph.D.-
level scientists), as well as the CCSP Director (Senate-confirmed 
appointee who supervises the entire CCSP program and products) and his 
immediate technical staff (also Ph.D.-level scientists) are responsible 
for considering all suggested editorial comments, and for final 
decisions about the text contained in the published document. It is 
common that many of the proposed editorial comments are not adopted, or 
are only partially adopted, by the CCSP senior technical management. In 
the end, the CCSP Director is responsible for the scientific integrity 
of these CCSP planning and program report documents.

    Question 10. Why not go back to commissioning scientific reports 
from independent teams of eminent scientists, and let them write their 
reports without subjecting them to a clearance process by the White 
House?
    Answer. The Federal Government has a process in place to develop 
scientific information with the best possible science and assurance of 
information quality. The CCSP was created to advance the understanding 
of climate science and to develop scientific information useful to 
decision and policymakers. The CCSP was also created on the premise 
that open and transparent processes would be used during the 
development of its deliverables. CCSP has a wide range of resources 
(technical, administrative, and financial support from 13 agencies) to 
develop and deliver the best possible scientific information. The 
Information Quality Act (IQA) \1\ required the Office of Management and 
Budget (OMB) to issue guidance to Federal agencies designed to ensure 
the ``quality, objectivity, utility, and integrity'' of information 
disseminated to the public. The IQA also required agencies to issue 
their own information quality guidelines, and to establish 
administrative mechanisms that allow affected persons to seek 
correction of information maintained and disseminated by the agencies 
that does not comply with the OMB guidance. IQA also requires a 
rigorous peer review mechanism for scientific and technical papers from 
a panel that has the appropriate expertise and is balanced, 
independent, and free of conflicts.
---------------------------------------------------------------------------
    \1\ http://www.whitehouse.gov/omb/inforeg/iqg_oct2002.pdf.
---------------------------------------------------------------------------
    Most CCSP deliverables will have significant input from non-Federal 
experts (e.g., non-Federal scientists, academicians, the National 
Academy of Sciences, and Federal Advisory Committees). However, because 
they will be CCSP products, these documents are held to a higher 
standard using the best available science, open and transparent 
processes, and must comply with the Information Quality Act.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                         Hon. James R. Mahoney
    Question 1. Dr. Mahoney, $1.8 billion is a lot of money. I 
understand you are doing an enormous amount of research with it, but 
for Congress to benefit from that research, NOAA must produce a report 
summarizing its research. The GAO recommended that NOAA prepare at 
least a summary of the 21 reports you've proposed. Will you do that?
    Answer. As stated in a letter sent transmitted to the Hill on July 
15, 2005, the Climate Change Science Program will incorporate a summary 
of findings of all completed products required by the 1990 Global 
Change Research Act in our annual Our Changing Planet report to 
Congress, starting in 2006. The CCSP assessment activity is an ongoing 
process, and this is the most efficient mechanism to disseminate 
summaries of each completed product. The alternative would be to wait 
for the completion of the entire set of 21 products before beginning 
the preparation of a single summary document. While CCSP is committed 
to providing timely dissemination of the summary information on an 
annual basis through the mechanism of the existing OCP series, we will 
seriously consider the question of providing a single summary document 
upon the completion of the series of 21 Synthesis and Assessment 
documents.

    Question 2. What do you see as the key potential impacts of climate 
change, and what are you doing to study and report on them?
    Answer. The purpose of the Climate Change Science Program is to 
obtain the best possible science that is useful in managing climate 
variability and change. Research conducted through CCSP is building on 
scientific advances of the last few decades and is deepening our 
understanding of the interplay of natural and human-caused forces. CCSP 
is developing information to facilitate comparative analysis of 
different approaches to adaptation and mitigation of climate change. 
CCSP also promotes capacity development among scientists and 
information users--both in the developed and developing world--to 
address the interactions between climate change, society, and the 
environment.
    The potential impacts of climate change are vast and we include 
many of these impacts in the CCSP research elements--Atmospheric 
Composition, Climate Variability and Change, Global Water Cycle, Land-
Use and Land-Cover Change, Global Carbon Cycle, Ecosystems, Decision 
Support Resources Development, Related Research on Human Contributions 
and Responses, and Observations and Monitoring.
    As described in the last two editions of Our Changing Planet, 
hundreds of research and impact studies are produced each year to 
enhance our understanding of climate science. CCSP is preparing 21 
Synthesis and Assessment Products to support informed discussion and 
decision-making on climate variability and change by policymakers, 
resource managers, stakeholders, the media, and the general public. 
These products will integrate research results focused on key issues 
and related questions frequently raised by decision-makers.
    CCSP recently held a public workshop, titled Climate Science in 
Support of Decision Making. The workshop which drew more than 700 
participants from the research, decisionmaking, and international 
communities, as well as students, users, and individuals interested in 
the applications of climate science. The workshop included discussion 
of decision-maker needs for scientific information on climate 
variability and change, as well as expected outcomes of CCSP's research 
and assessment activities that are necessary for sound resource 
management, adaptive planning, and policy formulation. The principal 
topics covered in the workshop provide a useful guide for some of the 
most climate-impacted areas being studied by CCSP. These include Water 
Management, Ecosystems Management, Coastal Management, Air Quality 
Management, and Energy Systems Management. The abstracts for the 
presentations are available on the CCSP website.\1\
---------------------------------------------------------------------------
    \1\ http://www.climatescience.gov/workshop2005/default.htm.
---------------------------------------------------------------------------
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                         Hon. James R. Mahoney
    Question 1. Do you agree with the recent joint statement by the 
National Academies from the G8 countries concerning the state of 
climate change science?
    Answer. We rely on the continued efforts and leadership of the U.S. 
National Academy of Sciences, working with its sister societies, to 
ensure the U.S. response to climate change is informed by the best 
available scientific knowledge. The Joint Academies' Statement on 
Climate Change reaffirms the central findings of the 2001 National 
Academy of Sciences report on climate science requested by the 
President. Based on this advice, President Bush stated his comment back 
in 2001 that ``While scientific uncertainties remain, we can begin now 
to address the factors that contribute to climate change.''
    We recognize that action is needed to address climate change and we 
have already taken several important steps toward that goal, including 
leading public investment in the development of low greenhouse gas 
(GHG) emissions technology suitable for application by all nations; 
continuing investments on essential climate research questions; major 
participation in the development of an integrated Global Earth 
Observation System of Systems (GEOSS); extensive industry and sector 
specific GHG emissions control programs; and collaborative bilateral 
and multilateral programs with key partners throughout the developed 
and developing world. More information on this effort can be found at: 
http://www.whitehouse.gov/news/releases/2005/05/20050518-4.html.

    Question 2. In terms of being responsive to the science which the 
President has stated the Administration would be, do you believe that 
the Climate Science Program is being responsive and taking urgent 
action as called for by the joint statement by delaying the national 
assessment report further?
    Answer. The Climate Change Science Program (CCSP) is taking urgent 
action to obtain the best scientific information that is useful to 
Congress, stakeholders, the media, and the general public. CCSP was 
announced in February 2002 and by November 2002, CCSP published a 
Discussion Draft Strategic Plan for public review. After holding an 
international workshop and considering comments from a National Academy 
of Sciences review and the public, CCSP released its revised 10-year 
Strategic Plan in July 2003. This strategic plan describes a strategy 
for developing knowledge of variability and change in climate and 
related environmental and human systems, and for encouraging the 
application of knowledge. The plan also identifies 21 Synthesis and 
Assessment products to fulfill the assessment required by statute. 
Modifications have been made to the list of 21 products, with the 
products required by law scheduled for completion by 2007.
    While much of the focus from Congress and the media has been on the 
21 deliverables, the CCSP agencies continue to publish hundreds of 
papers each year that deepen our understanding of climate science. 
These papers are referenced in Our Changing Planet. We take climate 
change very seriously, and we are aggressively working to deliver our 
findings to Congress and the public in a timely manner without 
compromising the scientific process.

    Question 3. The Washington Post recently reported that the White 
House's Council of Environmental Quality has been altering the 
scientific reports. Many are concerned that this type of altering will 
only seek to undermine and destroy the credibility of the not only the 
Climate Change Science Program, but all Federal science programs. How 
do you respond to such criticisms?
    Answer. CCSP documents are produced through a customary interagency 
review process. The thirteen CCSP agencies (U.S. Agency for 
International Development; Department of Agriculture; Department of 
Commerce, National Oceanic and Atmospheric Administration and National 
Institute of Standards and Technology; Department of Defense; 
Department of Energy; Department of Health and Human Services, National 
Institutes of Health; Department of State; Department of 
Transportation; Department of the Interior, U.S. Geological Survey; 
Environmental Protection Agency; National Aeronautics and Space 
Administration; National Science Foundation; and the Smithsonian 
Institution), the Council on Environmental Quality, the Office of 
Management and Budget, and the Office of Science and Technology Policy, 
and other offices as necessary review draft documents and propose edits 
that range from corrections of grammatical errors to suggestions for 
insertions or deletions of text. The comments and suggested revisions 
are considered by CCSP Office scientific staff working under the 
supervision of the CCSP Director or directly by the CCSP Director. 
Subsequently revised drafts are prepared and these drafts are again 
circulated for final clearance and release. As Director of the CCSP, I 
have had final authority over the editorial process and the approved 
content of all CCSP reports disseminated since 2002.
    We do not view the edits proposed by CEQ as alterations of a 
document, but rather suggestions made through a review process that may 
or may not appear in the final version of the document.

    Question 4. There has been a lot of controversy concerning the 
``hockey stick'' or the 1,000 year temperature record for the Northern 
Hemisphere over the past few months. Chairman Barton of the House 
Energy and Commerce Committee has requested an extraordinary amount of 
information from the individual scientists who develop the temperature 
record. Others, including Dr. Cicerone, have criticized this request 
for information as an attack on the individual scientists. As head of 
the Climate Change Science Program, what are your views of the 
technical merits of the ``hockey stick?''
    Answer. The scientific conclusion that climate change, or more 
specifically ``global warming,'' has been observed rests in part on 
analysis of surface temperature records. A 1998 study (Mann et al., 
1998) reconstructed temperatures using a combination of instrumental 
records and proxy data derived from tree rings, ice cores, and corals, 
and concluded that warming during the 20th century was unprecedented in 
the last 600 years. The resulting curve of surface temperature plotted 
over time resembles a hockey stick laid on its side. That conclusion, 
which was extended to the last 1,000 years in subsequent studies, 
figured prominently in the 2001 IPCC Third Assessment Report and seemed 
to mark a turning point in the scientific debate about climate change.
    Two Canadian researchers (MacIntyre and McKitrick, 2005) criticized 
the Mann et al. study on a number of grounds. Their reanalysis of the 
Mann et al. data concluded that the 14th century was roughly as warm as 
the 20th century and hence that current temperatures are not unique, as 
Mann et al. concluded. In addition, MacIntyre and McKitrick said that 
Mann et al. used data that biased the results toward the ``hockey 
stick'' shape. Subsequently, Mann has been accused of filtering data, 
and MacIntyre and McKitrick have been accused of using ``bad'' (no 
quality control) data.
    A number of additional studies have been conducted since the 
original Mann et al. study, some extending the analysis even further 
back in time and some using different techniques in both use of the 
data and the analytic methods.
    Two key differences among the studies relate to the answers they 
provide to the following questions:

        (1) Is the warming trend observed in the 20th century unique? 
        Specifically, was a period in the Medieval Period as warm or 
        warmer?

        (2) How much has temperature varied naturally?

    Subsequent analyses have been conducted. Rutherford et al. (2005) 
is an updated version of the Mann et al. (1998) analysis and includes 
the Mann et al. (1998) team as co-authors. Moberg et al. (2005) uses a 
completely different analysis technique called wavelet decomposition 
and reconstruction, a time series signal processing technique 
frequently used in telecommunications. Rutherford et al. (2005) and 
Moberg et al. (2005) both support the Mann et al. (1998) conclusion 
that the late 20th century is anomalous in the context of the last 
millennium. As stated by Moberg et al., ``We find no evidence for any 
earlier periods in the last two millennia with warmer conditions than 
the post-1990 period--in agreement with previous similar studies.'' 
Moberg et al., believe that the main implication of their study is that 
``natural multicentennial climate variability may be larger than 
commonly thought, . . . [although] this does not imply that the global 
warming of the last few decades has been caused by natural forcing 
factors alone. . . .'' There are secondary controversies over the 
``medieval warm period'' and the ``little ice age'' (this is not new, 
see Hughes and Diaz 1994), but no controversy remains on the late 20th 
century anomalous warming.
    As Director of CCSP, I feel that the Mann et al. reconstruction is 
one of many that are broadly consistent with a finding of unusual 
warming in the late 20th century. I also note that this type of debate 
is the result of a sound scientific process whereby there is 
encouragement of varying scientific ideas. The scientific community 
does not often ``walk in step'' and we often find that continued 
probing with different processes may yield divergent results.
References:
Hughes, M.K. and Diaz, H.F., 1994. Was there a `Medieval Warm Period' 
            and if so, where and when? Climate Change 26: 109-142.
Mann, M.E., R.S. Bradley, and M.K. Hughes, Global-scale temperature 
            patterns and climate forcing over the past six centuries, 
            Nature, 392, 779-787, 1998.
Mann, M.E., R.S. Bradley, and M.K. Hughes, Northern Hemisphere 
            Temperatures During the Past Millennium: Inferences, 
            Uncertainties, and Limitations, Geophysical Research 
            Letters, 26, 759-762, 1999.
McIntyre, S. and McKitrick, R., 2005. The M&M critique of the MBH98 
            Northern Hemisphere climate index: updata and implications. 
            Energy and Environment 16:69-100.
Moberg, A., Sonechkin, D.M., Holmgren, Datsenko, N.M., and Karlen, W., 
            2005. Highly variable Northern Hemisphere temperatures 
            reconstructed from low- and high-resolution proxy data. 
            Nature 443:613-617 (10-Feb-2005).
Rutherford, S., Mann, M.E., Osborn, T.J., Bradley, R.S., Briffa, K.R., 
            Hughes, M.K., Jones, P.D., 2005, Proxy-based Northern 
            Hemisphere Surface Temperature Reconstructions: Sensitivity 
            to Methodology, Predictor Network, Target Season and Target 
            Domain, Journal of Climate, (in press, July 2005 issue).

    Question 5. Obviously, we have a difference of opinion as to when 
the next national assessment is due. You stated in your July 15, 2005 
letter to me, you request that the Congress recognize the year 2007 as 
the required completion date for those products required by the section 
106 of the Global Change Research Act of 1990. Why should we accept 
this date when the U.S. Global Change Research Program's website still 
indicate the previous assessment was submitted to the President and 
Congress in November 2000? This is also the date the GAO indicated in 
its April 14, 2005 report.
    Answer. The CCSP Strategic Plan was published in July 2003 and in 
the plan we identified 21 Synthesis and Assessment Products, that would 
fulfill the requirements for an updated assessment contained in Section 
106 of the Global Change Research Act, to be delivered 4 years from the 
release of the plan or 2007. We used our resources to develop the plan 
in 2002 and 2003 and provide direction to the scope and breadth of the 
program and its deliverables. We have since begun the production of the 
Synthesis and Assessment Products as well as continue publishing 
papers, many of which will be considered during the development of 
these products.
    As previously stated, we have had to make some modifications to the 
schedule of some products due to some administrative issues as well as 
an underestimate of the complexity and scope of the development of the 
products. In the July 15, 2005 letter, we requested that Congress 
consider establishing a longer cycle for future assessments, to be 
prepared under the provisions of the GCRA, which reflects the 
increasing complexity of climate science and related information. We 
note that the Intergovernmental Panel on Climate Change has adopted a 
six-year cycle for its Fourth Assessment Report.

    Question 6. The Administration has worked with other nations to 
develop an implementation plan for the Global Earth Observation System 
of Systems. Can you discuss the coordination of this implementation 
plan with the Strategic Plan for the Science program?
    Answer. Chapter 12 of the Climate Change Science Program's (CCSP) 
Strategic Plan of July 2003 [http://climatescience.gov/Library/
stratplan2003/final/] lays out the basis for a climate observing system 
strategy in the U.S. that is based upon several key Global Climate 
Observing System (GCOS) documents. GCOS is an international program 
sponsored by the World Meteorological Organization (WMO), the 
Intergovernmental Oceanographic Commission (IOC), the United Nations 
Environment Program (UNEP), and the International Council for Science 
(ICSU), and forms the climate component of the Global Earth Observation 
System of Systems (GEOSS). In addition to being sponsors of GCOS, the 
WMO, IOC, UNEP, and ICSU are also part of the GEOSS process.
    In setting forth the CCSP's climate observing system priorities, as 
stated in the CCSP Strategic Plan, the guiding document has been the 
GCOS Second Adequacy Report, April 2003 [http://www.wmo.ch/web/gcos/
gcoshome.html] table of ``Essential Climate Variables'' as a baseline 
of required observables for climate. The GCOS Second Adequacy Report 
was developed by an international panel of scientists, including 
several in the U.S., and this scientific document forms the basis for 
the GCOS Implementation Plan of October 2004 [http://www.wmo.ch/web/
gcos/gcoshome.html]. If fully implemented, the GCOS Implementation Plan 
will provide most of the observations of Essential Climate Variables. 
This plan is in response to the GCOS Second Adequacy Report and has 
considered existing global, regional, and national plans, programs and 
initiatives. The implementation plan was developed in consultation with 
a broad and representative range of scientists and data users, and 
included an open review of the implementation plan. Review occurred 
both within CCSP, through the Observations Working Group, and at 
workshops organized by the ad hoc Interagency Working Group on Earth 
Observations, IWGEO (now the U.S. Group on Earth Observations). The 
plan identifies implementation priorities, resource requirements and 
funding options, and includes indicators for measuring progress in 
implementation and is fully aligned with the CCSP Strategic Plan.
    The goal of the GCOS Implementation Plan is to specify the actions 
required to implement a comprehensive observing system for the 
Essential Climate Variables that would, if fully implemented provide 
for:

  <bullet> Global coverage.

  <bullet> Free and unrestricted exchange and availability of 
        observations of the Essential Climate Variables required for 
        global-scale climate monitoring in support of the UNFCCC.

  <bullet> The availability of integrated global climate-quality 
        products.

  <bullet> Improvements to and maintenance of the global in situ 
        surface and airborne networks and satellites required to 
        sustain these products, including system improvements and 
        capacity building in developing countries, especially in the 
        least developed countries and small island developing states.

  <bullet> Internationally accepted standards for data and products 
        especially in the terrestrial domain and adherence to the GCOS 
        Climate Monitoring Principles.

  <bullet> Characterization of the state of the global climate system 
        and its variability.

  <bullet> Monitoring of the forcing of the climate system, including 
        both natural and anthropogenic contributions.

  <bullet> Support for the attribution of the causes of climate change.

  <bullet> Support for the prediction of global climate change.

  <bullet> Projecting global climate change information down to 
        regional and local scales.

  <bullet> Characterizing extreme events important in impact assessment 
        and adaptation, and to the assessment of risk and 
        vulnerability.

    As the U.S. plan for climate observations moves forward, we strive 
to build on the GCOS Implementation Plan by addressing priority 
elements over the near-term (2-4 years); mid-term (4-7 years), and 
long-term (7-10 years), which are in line with the goals of the CCSP 
Strategic Plan.
    Furthermore, GCOS is the climate component of the Global Earth 
Observation System of Systems (GEOSS). Understanding, Assessing, 
Predicting, Mitigating and Adapting to Climate Variability and Change 
has been identified as one of the 9 societal benefits of the Global 
Earth Observation System of Systems. As the implementation plan states:

        ``The climate has impacts in each of the other eight societal 
        benefit areas. Coping with climate change and variability 
        demands good scientific understanding based on sufficient and 
        reliable observations. GEOSS outcomes will enhance the capacity 
        to model, mitigate, and adapt to climate change and 
        variability. Better understanding of the climate and its 
        impacts on the Earth system, including its human and economic 
        aspects, will contribute to improved climate prediction and 
        facilitate sustainable development while avoiding dangerous 
        perturbations to the climate system.''

    The need for enhanced observations was clearly identified in the 
Climate Change Strategic Plan as a necessity for understanding the 
science underlying climate variability and change.
    As a participant in the National Science and Technology Council's 
committee structure which develops the U.S. input into the 
international process to implement GEOSS, the Climate Change Science 
Program contributed to the development of the GEOSS Implementation Plan 
to ensure the two were consistent.

    Question 7. What is the status of the Our Changing Planet report 
for Fiscal Year 2006?
    Answer. Our Changing Planet for Fiscal Year 2006, was published 
November 9, 2005. Copies were distributed to the office of every Member 
of the House and the Senate, and to relevant majority and minority 
staff of key Committees in both Houses. The document is also being 
widely distributed within the global climate science community. It is 
available on the CCSP website,\1\ and CDs are being prepared for 
distribution to include the full document.
---------------------------------------------------------------------------
    \1\ http://www.climatescience.gov.
---------------------------------------------------------------------------
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                         Dr. Ralph J. Cicerone
    Question 1. I am very disturbed by the mounting series of attacks 
on science and scientists in recent years. I appreciate your recent 
suggestion to an independent panel to help settle scientific disputes. 
Do you think a permanent non-partisan congressional office of science 
could be effective in settling these disputes?
    Answer. The National Academies have long recommended a permanent 
non partisan office of science and technology advice to the Congress. 
It did so when the old Office of Technology was created in the early 
1970s, and also recommended against its closure in 1994. We think such 
an office would have many benefits and continue to think so now.

    Question 2. During the Energy Bill debate, I offered an amendment 
to protect agency reports that were based on peer-reviewed science from 
being tampered with. I was unable to get a vote on my amendment. Is 
there a role for the National Academy of Sciences in countering this 
trend of the politicization of science?
    Answer. The National Academies have made a number of 
recommendations concerning the structure of the peer review system over 
the last twenty years. However, since we are not a governmental entity, 
it is difficult for us to actually govern the actions of government. We 
can only give advice.

    Question 3. Recent press accounts have reported that the 2001 
National Assessment entitled, ``Climate Change Impacts on the United 
States, `` published by Cambridge University Press, is being removed 
from all documents and reports generated by the United States Climate 
Change Science Program (CCSP). The CCSP recently asked the National 
Research Council (NRC) to conduct a comparative analysis of lessons 
learned from prior assessments. Will the 2001 National Assessment be 
included in this NRC study? I would like to see the full task list and 
related documents regarding this analysis, including the original 
proposal.
    Answer. The NRC will be beginning to look at the use of climate 
assessments, which will include the 2001 National Assessment. The task 
statement for that project is as follows:

        ``An ad hoc committee will seek to identify lessons learned 
        from past assessments to guide future global change assessment 
        activities of the U.S. Climate Change Science Program (CCSP). 
        The study will be approached in two steps.

    (1) The committee will conduct a comparative analysis of past 
assessments that have stated objectives similar to those of the CCSP. 
Specifically, the committee will examine the strengths and weaknesses 
of selected past assessments in the following areas:

  <bullet> establishing clear rationales and appropriate institutional 
        structures;

  <bullet> designing and scheduling assessment activities;

  <bullet> involving the scientific community and other relevant 
        experts in the preparation and review of assessment products;

  <bullet> engaging the potential users of assessment products;

  <bullet> accurately and effectively communicating scientific 
        knowledge, uncertainty, and confidence limits;

  <bullet> guiding plans for future global change research activities, 
        including observation, monitoring, and modeling of past and 
        future changes; and

  <bullet> creating assessment products that are valued by their target 
        audiences.

    (2) The committee will identify approaches (in terms of geographic 
scale, scope, assessment entity, and timing) and products that are most 
effective for meeting the CCSP's stated objectives for assessments.''
                                 ______
                                 
 Response to Written Question Submitted by Hon. Frank R. Lautenberg to 
                          Daniel A. Reifsnyder
    Question. The G8 Summit statement claimed that there is uncertainty 
with regard to global warming, but at the same time, the U.S. and 10 
other National Academy of Sciences issued this statement.

        ``The U.S. National Academy of Sciences joined 10 other 
        national science academies today in calling on world leaders, 
        particularly those of the G8 countries meeting next month in 
        Scotland, to acknowledge that the threat of climate change is 
        clear and increasing, to address its causes, and to prepare for 
        its consequences.'' National Academy of Sciences--June 7, 2005.

    Isn't there a serious intellectual gap between what the scientists 
are saying and what the G8 leaders are willing to say? Using energy 
efficiency measures alone, IBM, DuPont, Bayer and three other corporate 
giants have reduced their carbon emissions by 60 percent since the 
early 1990s, while at the same time growing business. What data 
supports the Administration's claim that mandatory carbon reductions 
will harm businesses and our economy?
    Answer. No, there is no gap between what the scientists are saying 
and what the G8 leaders said at Gleneagles. In their statement on 
Climate Change, Clean Energy and Sustainable Development, G8 leaders 
said:

        ``Climate change is a serious and long-term challenge that has 
        the potential to affect every part of the globe. We know that 
        increased need and use of energy from fossil fuels, and other 
        human activities, contribute in large part to increases in 
        greenhouse gases associated with warming of the Earth's 
        surface. While uncertainties remain in our understanding of 
        climate science, we know enough to act now to put ourselves on 
        a path to slow and, as the science justifies, stop then reverse 
        the growth of greenhouse gases.''

    The Academy report encapsulates the diverse views of the many 
distinguished scientists that served on the panel. While significant 
gaps remain in our understanding of climate change, many of them 
described in the Academy report, we are taking steps now to address the 
factors that contribute to it, in a serious and sensible way.
    The G8 Summit highlighted that the issue of climate change is a 
part of an interrelated set of challenges dealing with energy security, 
economic development, and air pollution. The climate document frames 
the issue in those terms and contains a concrete set of actions and 
initiatives that the G8 have agreed upon to advance work cooperatively 
in advancing our objectives in those interrelated areas.
    The Gleneagles outcomes are fully consistent with our longstanding 
approach of practical, cost-effective actions in the near term along 
with substantial, strategic investments in key longer-term 
technologies. Moreover, they highlight the interrelated nature of 
energy security, climate change and other sustainable development 
issues. The plan puts climate change in the context of broader 
sustainable development goals, a key United States priority.
    The Administration applauds the private sector for looking at ways 
to continue to apply technologies to addressing climate change. This 
demonstrates how the private sector is able to identify and take 
advantage of opportunities that offer both financial benefits and 
address other issues such as reducing air pollution and greenhouse gas 
emissions while diversifying sources of energy.
    It is widely acknowledged that the mandatory carbon limits for the 
United States contained in the Kyoto Protocol would have required at 
least a 30 percent reduction in U.S. greenhouse gas emissions from the 
level that would otherwise have obtained in the 2008-2012 time period, 
with significant implications for the U.S. economy. Examples of the 
projected impacts in the U.S. economy can be found in many studies, 
including:

  <bullet> Management Information Services Inc. (MISI), Potential 
        Economic Impacts of the Kyoto Climate Change Protocol on Blacks 
        and Hispanics in the U.S. (Washington, D.C.: MISI, June 2000) 
        (http://www.nationalbcc.org/downloads/MISIStudy.pdf).

  <bullet> Energy Information Administration, I Analysis of the Impacts 
        of an Early Start for Compliance with the Kyoto Protocol, SR/
        OIAF/99-02 (Washington, D.C., July 1999). (http://
        www.eia.doe.gov/oiaf/kyoto3/pdf/sroiaf9902.pdf).

  <bullet> Charles River and Associates, The Post Kyoto Climate: 
        Impacts on the U.S. Economy (Washington, D.C.: Charles River 
        and Associates, 1999).

  <bullet> Energy Information Administration, Impacts of the Kyoto 
        Protocol on U.S. Energy Markets and Economic Activity, SR/OIAF/
        98-03 (Washington, D.C., October 1998). (http://
        www.eia.doe.gov/oiaf/kyoto/pdf/sroiaf9803.pdf).

  <bullet> WEFA, Inc., Global Warming: The High Costs of the Kyoto 
        Protocol, National and State Impacts (Washington, D.C.: WEFA, 
        1998).
                                 ______
                                 
 Response to Written Question Submitted by Hon. Frank R. Lautenberg to 
                            David W. Conover
    Question. Most of the reductions in carbon emissions so far have 
resulted from corporations who invest in renewables and conservation, 
yet the President's budget would cut funding for both renewable energy 
and energy conservation by nearly $50 million. Could you explain the 
rationale for these cuts?
    Answer. The Administration's R&D investment criteria help guide 
2006 Budget decisions. The Fiscal Year 2006 request reduces or closes 
out several program efforts that were identified as complete (e.g., 
Hydropower Program) or have reached a point where Federal funding for 
some program activities is no longer appropriate (e.g., Industrial 
Technologies Program). We have focused our research, development and 
deployment funds on projects that will most cost-effectively help us 
achieve public benefits (such as reduced energy consumption or energy 
costs) that the private sector would not undertake on its own. Also, 
excessive Congressional earmarks in renewable energy programs have 
slowed many programs' technological progress.
    It is important to note that the President's Fiscal Year 2006 
budget request also included $3.6 billion in tax incentives to deploy 
energy efficiency and renewable energy technologies. These incentives 
included credits for residential solar heating systems, the purchase of 
hybrid and fuel cell vehicles, energy produced from landfill gas, 
electricity produced from alternative energy sources such as wind and 
biomass, and combined heat and power systems.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John F. Kerry to 
                            David W. Conover
    Question 1. In a 2003 report, the Government Accountability Office 
found that this Administration had no plans to generate an interim 
report on progress toward its 2012 greenhouse gas intensity reduction 
goal. Without this report, GAO noted that the Administration would have 
no means of gauging its success in meeting its stated goals until its 
Climate Change Initiative was a decade old. Do you have plans to assess 
progress in the interim?
    Answer. Under the provisions of the U.N. Framework Convention on 
Climate Change (UNFCCC), the United States periodically prepares and 
submits a ``national communication'' detailing its activities in 
support of the Framework Convention. These reports provide detailed 
information on GHG inventories, policies and measures taken to limit or 
remove GHG emissions, the estimated mitigation impacts of these 
policies and measures, and their projected impacts on future emissions, 
among other information. An interagency process is underway to develop 
the fourth U.S. national communication, which the Administration plans 
to submit to the UNFCCC sometime next year. This and subsequent 
national assessments will help the Administration and the Congress 
assess our progress.

    Question 2. If so, are your voluntary programs on track to achieve 
the 18 percent reduction in greenhouse gas intensity?
    Answer. Yes. The President's 18 percent intensity goal represents 
an average annual rate of improvement off about 2.0 percent 
(compounded) over the ten-year period. Recent data suggest that we are 
making good progress in achieving this goal.
    According to the Energy Information Administration's (EIA) 
Emissions of Greenhouse Gases in the United States 2003, the GHG 
emissions intensity of the U.S. economy was 2.3 percent lower in 2003 
than in 2002. The report said:

        ``U.S. emissions of greenhouse gases in 2003 totaled . . . 0.7 
        percent more than in 2002. . . . The U.S. economy grew by 3.0 
        percent in 2003, which is equivalent to the average annual 
        growth rate that has prevailed during the 1990-2003 period. 
        Consequently, U.S. greenhouse gas intensity (greenhouse gas 
        emissions per unit of real economic output) was 2.3 percent 
        lower in 2003 than in 2002.'' [http://www.eia.doe.gov/oiaf/
        1605/ggrpt/index.html].

    This is 0.3 percentage points better than the annual rate of 
improvement needed to meet President Bush's objective.
    Moreover, in June 2005, EIA released it 2004 ``flash estimate'' of 
energy-related GHG emissions--which account for about 83 percent of 
total U.S. GHG emissions--and reported an improvement in the energy-
related carbon intensity of the U.S. economy of 2.6 percent [http://
www.eia.doe.gov/oiaf/1605/flash/flash.ppt]. These EIA carbon emissions 
data suggest that we are maintaining an annual rate of improvement 
greater than that needed to achieve the President's goal.

    Question 3. How is the Administration tracking progress annually 
toward this goal?
    Answer. The Administration is able to track general progress in 
meeting its overall goal of an 18 percent reduction in greenhouse gas 
(GHG) emissions intensity using publicly available emissions, 
sequestration/sinks data, and economic data.
    EIA publishes an annual report on greenhouse gas emissions, 
Emissions of Greenhouse Gases in the United States, usually in 
December. EIA also provides estimates of energy-related carbon 
emissions in flash estimates based on preliminary energy data, and its 
Annual Energy Outlook presents projections of energy-related carbon 
emissions.
    The Environmental Protection Agency's U.S. Emissions Inventory 
reports, published annually each April, provides a very detailed and 
comprehensive look at the U.S. GHG emissions, individual greenhouse 
gases, emissions from specific economic and industrial sectors, 
emissions trends, removals and sinks, and factors that affect changes 
in emissions. The data used to produce this report are derived from a 
number of agencies and organizations. Economic data from the Department 
of Commerce is used to the measure GHG emissions intensity, which is 
calculated as emissions per unit of economic output.

    Question 4. GAO has also reported, and the Administration has 
confirmed, that emissions intensity reductions will still result in 
increased annual emissions. How much has greenhouse gas intensity 
decreased (or increased) since 2002 and what does this translate to in 
terms of reducing or increasing emissions of greenhouse gases since 
2002? How much have greenhouse gas emissions increased annually since 
2000? What are projected emissions levels in 2012?
    Answer. From 2002 to 2003, total net U.S. GHG emissions intensity 
decreased 2.3 percent. Although total GHG data are not yet available 
for 2004, preliminary EIA data show an improvement in energy-related 
carbon emissions intensity of 2.6 percent (see the response to Question 
2). Given that energy-related carbon emissions represent about 83 
percent of total GHG emissions, it is unlikely that the improvement in 
total GHG intensity for 2004 will differ appreciably from this figure, 
absent significant revisions to the underlying energy consumption data.
    Between 2002 and 2003 (the most recent year for which data are 
available), total GHG emissions grew 0.7 percent, rising from 6,031.6 
to 6,072.2 MMTCO<INF>2</INF> [http://yosemite.epa.gov/oar/
globalwarming.nsf/UniqueKeyLookup/RAMR5CZKVE/$File/ghgbrochure.pdf]. 
EIA data for energy-related carbon emissions are available through 
2004. From 5,746 MMTCO<INF>2</INF> in 2002, carbon emissions rose to 
5,796 MMTCO<INF>2</INF> in 2003 (an annual increase of 0.9 percent) and 
to 5,896 MMTCO<INF>2</INF> in 2004 (an annual increase of 1.7 percent) 
[http://www.eia.doe.gov/oiaf/1605/flash/flash.ppt].
    Total net GHG emissions from 2000 to 2003 decreased at an annual 
rate of 0.3 percent owing primarily to a large decline in emissions in 
2001 caused by a weak economy [http://yosemite.epa.gov/oar/
globalwarming.nsf/UniqueKeyLookup/RAM
R5CZKVE/$File/ghgbrochure.pdf]. EIA energy-related carbon emissions 
data are available through 2004. Over the 2000 to 2004 period, these 
emissions increased by an average of 0.4 percent per year [http://
www.eia.doe.gov/oiaf/1605/flash/flash.ppt].
    Projections of total GHG emissions out to 2012 will be included in 
the U.S. national communication to the UNFCCC, which is now being 
prepared. The last (third) U.S. national communication, issued in 2002, 
included projections of total net GHG emissions of 6,972 MMTCO<INF>2</INF> 
in 2010 and 7,604 MMTCO<INF>2</INF> in 2015 [http://unfccc.int/
resource/docs/natc/usnc3.pdf]. More recently, ETA's Annual Energy 
Outlook 2005 reference case projects energy-related carbon emissions of 
6,812 MMTCO<INF>2</INF> in 2012 [http://www.eia.doe.gov/oiaf/aeo/pdf/
aeotab_18.pdf].

    Question 5. Could you please provide the Committee with 
documentation for the intensity reduction and total emissions figures?
    Answer. Web links to data sources have been provided in the 
response to each question.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
